1a
APPENDIX A
IN THE SUPERIOR COURT OF FULTON
COUNTY
BUSINESS CASE DIVISION
STATE OF GEORGIA
-----------Plaintiff,
v.
CELLAIRIS
SAMACA,
LLC,
FRANCHISE, INC., GLOBAL CELLULAR, INC., and
CELL PHONE MANIA, LLC, Defendants
_________
Civil Action File No. 2016CV276036
Date: February 7, 2017
ORDER ON DEFENDANTS' MOTION TO DISMISS
COMPLAINT AND COMPEL ARBITRATION
This matter is before the Court on the Motion
to Dismiss Complaint and to Compel Arbitration by
Defendants Cellairis Franchise, Inc. ("Cellairis") and
Global Cellular, Inc. ("Global") (collectively as
"Movants"). After consideration of the motions and
briefs submitted the Court finds as fol1ows:
I.

FACTUAL BACKGROUND

Defendant Cell Phone Mania, LLC ("CPM")
operated four franchise units under franchise
agreements with Cellairis. CPM operated the
franchise units under Cellairis' trademark at the
Dolphin Mall in Miami, Florida. Global, an affiliate of
Cellairis, licensed the spaces where the franchise

2a
units were located from Dolphin Mall. Cell Phone
Mania then sublicensed the spaces from Global.
Around June 2014, CPM, Movants and Plaintiff
Samaca, LLC ("Samaca") began negotiations
regarding Samaca's potential acquisition of the
franchise units that CPM operated. On June 30, 2014,
the parties reached an agreement whereby Samaca
could purchase Cell Phone Mania's interest in the
franchise units. By the terms of their agreement,
Cellairis required Samaca to execute four franchise
agreements ("Franchise Agreements") which vested
ownership interest in the franchise units to Samaca.
Each of the Franchise Agreements contained a
comprehensive agreement to arbitrate by which the
parties agreed to arbitrate:
All controversies, claims, or disputes
between Company and FRANCHISEE
arising out of or relating to: a. This
agreement or any other agreement between
Company and FRANCHISEE; b. the
relationship between FRANCHISEE and
the Company; c. The scope and validity of
this Agreement or any other agreement
between Company and FRANCHISEE,
specifically including whether any specific
claim is subject to arbitration at all
(arbitrability questions); and/or d. The offer
or sale of the franchise opportunity .. . Any
claims by or against any affiliate of the
Company may be joined, in the Company's
sole discretion, in the arbitration.

3a
In order to acquire the sub-licenses for the spaces at
Dolphin Mall where the franchise units were located,
Global required Samaca to execute four sub-license
agreements (the "Sub-License Agreements") on June
30, 2014. The Sub-License Agreements contained a
similar arbitration agreement whereby Samaca and
Global agreed to arbitrate:
All controversies, claims, or disputes
between Company and Sub-licensee
arising out of or relating to: a. This
agreement or any other agreement
between Company and Sub-licensee; b.
the relationship between Sub-licensee
and Company; c. The scope and validity
of this Agreement or any other
agreement between Company and Sublicensee, specifically including whether
any specific claim is subject to
arbitration
at
all
(arbitrability
questions); and/or d. The offer or sale of
the franchise opportunity …. Any claims
by or against any affiliate of the
Company may be joined, in the
Company's sole discretion, in the
arbitration.
Notably, each arbitration agreement contained a
Delegation Provision by which the parties agreed to
arbitrate "whether any specific claim is subject to
arbitration at all (arbitrability questions)." Plaintiff
contends that, on the same day, Cellairis presented an
Assignment and Assumption Agreement ("AA
Agreement") which assigned CPM's interest in the
franchise units to Samaca. Plaintiff claims the AA

4a
Agreement was predated to have an effective date of
September 1 , 2014; the AA Agreement was signed by
Cellairis, CPM and Samaca. The AA Agreement
contained a general venue selection provision where
the parties agreed that:
... the Georgia State Courts for Fulton
County, Georgia ... shall be the sole and
exclusive venue and sole and exclusive
proper forum in which to adjudicate any
case or controversy arising either,
directly or indirectly, under or in
connection with this Agreement and the
parties further agree that, in the event of
litigation arising out of or in connection
with this Agreement in these courts,
they will not contest or challenge the
jurisdiction or venue of these courts.
By the terms of the AA Agreement, Samaca was
also required to sign new franchise and sublicense
agreements that were to be "substantially the same
form" as the prior Franchise and Sub-License
Agreements. While the parties never executed new
franchise or sub-license agreements, the new
agreements were attached to the AA Agreement and
contained the same mandatory arbitration agreement
as the original Franchise and Sub-License
Agreements.
Samaca began to operate the franchise units on
October 1, 2014. Samaca claims that during this time
Movants were in negotiations to extend the lease on
the franchise units, but told the landlord at Dolphin
Mall they would no longer be able to afford rent.

5a
Around December 2014 Samaca learned that Dolphin
Mall had refused to renew the leases for the franchise
locations and, as a result, Samaca brought suit
seeking to rescind the agreements, among other
claims. Defendants have now filed a motion to dismiss
and compel arbitration based on the arbitration
agreements contained in the original Franchise and
Sub-License Agreements. Samaca claims the
arbitration agreements are invalid and superseded by
the subsequent AA Agreement which names this
Court as the "sole and exclusive venue and sole and
exclusive proper forum to adjudicate any case or
controversy."
II.

ANALYSIS

The issue is whether the arbitration
agreements contained in the Franchise and SubLicense Agreements were superseded by the AA
Agreement. Under the terms of the arbitration
agreements, "all matters relating to arbitration will
be governed by the Federal Arbitration Act" ("FAA").
The FAA creates a presumption in favor of
arbitrability that courts are to apply "only where a
validly formed and enforceable arbitration agreement
is ambiguous about whether it covers the dispute at
hand." Dasher v. RBC Bank, 745 F.3d 1111, 1122-23
(11th Cir. 2014) (quoting Granite Rock Co. v. Int’l Bhd.
of Teamsters, 561 U.S. 287, 30 I (2010). While doubts
concerning the scope of an arbitration clause should
be resolved in favor of arbitration, the presumption
does not apply to disputes concerning whether an
agreement containing an arbitration clause has been
superseded. See Applied Energetics, Inc. v. NewOak
Capital Mkts., LLC, 645 F.3d 522, 526 (2nd Cir. 2011

6a
). The Eleventh Circuit recently reasoned that the
threshold determination of whether a subsequent
agreement entirely superseded a prior agreement is
made under state law without applying the FAA's
presumption in favor of arbitrability. Dasher, 745
F.3d at 1122-23.
Here, Plaintiff has challenged the validity of
the arbitration agreements by arguing that the
arbitration agreements are invalid and were
superseded by the AA Agreement. Therefore, the
Court applies Georgia contract law to look for
objective evidence that the parties intended for the AA
Agreement to supersede the Franchise and SubLicense Agreements.
Under Georgia's merger rule, "[a]n existing
contract is superseded and discharged whenever the
parties subsequently enter upon a valid and
inconsistent agreement completely covering the
subject-matter embraced by the original contract."
Atlanta Integrity Mortgage, Inc. v. Ben Hill United
Methodist Church, Inc., 286 Ga. App. 795, 797 (2007).
In order for the merger rule to apply, however, the
terms of the contracts must completely cover the same
subject matter and be inconsistent. Id. In the cases
where Georgia courts found that the terms of a
subsequent agreement to be inconsistent with a
previous agreement, the courts have looked to the
express intent of the parties and whether both
agreements could be performed. See Triple Net
Properties, LLC, v. Burruss Development &
Construction, Inc., 293 Ga. App. 323 (2008) (holding
that a subsequent agreement superseded a previous
agreement because the terms were inconsistent and

7a
both contracts could not possibly be performed); Mapei
Corp. v. Prosser, 328 Ga. App. 81 (2014) (holding that
the clear language of the superseding-agreement
made clear that it replaced the earlier-entered
agreements entirely).
Here, the AA Agreement explicitly incorporates
by reference the Franchise and Sub-License
Agreements
which
include
the
arbitration
agreements. The AA Agreement also required that the
parties execute subsequent Franchise and SubLicense Agreements in "substantially the same form"
as the prior Franchise and Sub-License Agreements.
Even though the parties never signed the subsequent
Franchise and Sub-License Agreements, the new
agreements were attached to the AA Agreement and
contained the same mandatory arbitration agreement
as the original Franchise and Sub-License
Agreements. Absent a clear expression that the
parties intended the AA Agreement to supersede the
previous agreements, it cannot be said that the AA
Agreement is inconsistent with the previous
agreements as it required the execution of new
arbitration agreements and incorporated the previous
agreements by reference. Thus, the Court finds the
merger rule does not apply and the arbitration
agreements were not superseded. The question of
arbitrability of the claims raised against Movants
should be submitted to an arbitrator.
The Court hereby GRANTS Defendants'
Motion to Dismiss Complaint and to Compel
Arbitration.1
SO ORDERED this 7th day of February, 2017.

8a
Stamped signature
ALICE D. BONNER, SENIOR JUDGE
Superior Court of Fulton County
Business Case Division
Atlanta Judicial Circuit
In addressing the Motion to Dismiss the Court has not
considered the two affidavits submitted with Movants'
Reply Brief, which would convert the Motion to Dismiss to
a motion for summary judgment
1

9a
APPENDIX B
345 Ga.App. 368
813 S.E.2d 416
_______
SAMACA, LLC.
v.
CELLAIRIS FRANCHISE, INC. et al.
A17A1715
_________
Court of Appeals of Georgia.
February 28, 2018
Reconsideration Denied March 20, 2018
[813 S.E.2d 417]
David R Martin, Atlanta, for Appellant.
Jared Cassity Miller, Ronald Thomas Coleman Jr.,
Justin Philip Gunter, Atlanta, for Appellee.
Barnes, Presiding Judge.
The appellant is Samaca, LLC ("Samaca"), a Florida
limited liability company. The appellees are Cellairis
Franchise, Inc. ("Cellairis") and Global Cellular, Inc.
("Global"), Georgia corporations, and Cell Phone
Mania, LLC ("CPM"), a Florida limited liability
company (collectively "appellees"). Samaca appeals
from the trial court's order granting the appellees,
[sic] motion to dismiss the complaint and to compel
arbitration. Samaca contends that the trial court
erred in denying its motion to strike, making certain

10a
factual findings as to the purchase and renewal of the
franchise leases, and in finding that the arbitration
agreements were not superceded [sic] and
inconsistent with a forum selection clause. Following
our review, we affirm.
"The standard of review from the [grant] of a motion
to compel arbitration is whether the trial court was
correct as a matter of law. Further, the construction
of a contract is a question of law for the court that is
subject to de novo review." (Footnotes omitted.) D. S.
Ameri Constr. Corp. v. Simpson, 271 Ga. App. 825,
826, 611 S.E.2d 103 (2005). "The [appellees], as the
parties seeking arbitration, bear the burden of
proving the existence of a valid and enforceable
agreement to arbitrate. And the validity of an
arbitration agreement is generally governed by state
law principles of contract formation." (Citations and
punctuation omitted.) McKean v. GGNSC Atlanta,
329 Ga. App. 507, 509 (1), 765 S.E.2d 681 (2014).
The facts pertinent to this appeal demonstrate that
Cell Phone Mania operated four franchises located at
the Dolphin Mall in Miami, Florida, under franchise
agreements with Cellairis. Global, an affiliate of
Cellairis, licensed the spaces from the operator of the
Dolphin Mall, and Cell Phone Mania sub-licensed the
spaces to operate the franchises in Dolphin Mall from
Global. On June 30, 2014, Cell Phone Mania and
Samaca reached an agreement for Samaca to
purchase Cell Phone Mania's four franchises, and in
conjunction with the sale, Samaca entered into four
new
franchise
agreements
(the
"Franchise

11a
Agreement")
with
Cellairis.
The
Franchise
Agreements contained an arbitration clause, whereby
Samaca and Cellairis agreed to arbitrate:
all controversies, claims, or disputes
between Company and FRANCHISEE
arising out of or relating to: a. This
agreement or any other agreement
between Company [813 S.E.2d 418] and
FRANCHISEE; b. The relationship
between FRANCHISEE and Company;
c. The scope and validity of this
Agreement or any other agreement
between Company and FRANCHISEE,
specifically including whether any
specific claim is subject to arbitration at
all (arbitrability questions) and/or d. The
offer or sale of the franchise opportunity
.... Any claims by or against any affiliate
of the Company may be joined, in the
Company's sole discretion, in the
arbitration.
Sanaca [sic] also entered into four new sub-license
agreements (the "Sub–License Agreements") with
Global to acquire Cell Phone Mania's sub-licenses to
operate the franchises in the mall. The Sub–License
Agreements, also effective June 30, 2014, contained a
similar agreement, whereby Samaca and Global
agreed to arbitrate:
all controversies, claims, or disputes
between Company and Sub-licensee
arising out of or relating to: a. This

12a
Agreement or any other agreement
between Company and Sub-licensee; b.
The relationship between Sub-licensee
and Company; c. The scope and validity
of this Agreement or any other
agreement between Company and Sublicensee, specifically including whether
any specific claim is subject to
arbitration
at
all
(arbitrability
questions); and/or d. Any agreement
relating to the purchase of products or
services by Sub-licensee from Company
.... Any claims by or against any affiliate
of the Company may be joined, in the
Company's sole discretion in the
arbitration.
Either on the same day or within the same time
period, Cell Phone Mania, Samaca, and Cellairis
executed an Assignment and Assumption Agreement
(the "AA Agreement"), effective September 1, 2014,
reflecting the parties' various assignments and
assumptions related to the purchase of the franchises
and sub-licensing of the mall spaces. The AA
Agreement also stated that Samaca was required to
sign new franchise and sub-license agreements which
were "attached to this Agreement" and "incorporated
herein by this reference," and that it would abide by
all of the "terms, conditions, and requirements" of the
Franchise and Sub–License Agreements. However,
those new agreements within the AA Agreement were
not signed. The AA Agreement contained a choice of
law provision stating, in pertinent part, that:

13a
This Agreement shall be governed by
and construed under the laws of the
State of Georgia, without regard to its
conflicts of laws provisions. The parties
acknowledge and agree that the Georgia
State Courts for Fulton County, Georgia,
or if such court lacks jurisdiction, the
U.S. District for the Northern District of
Georgia, shall be the sole and exclusive
venue and sole and exclusive proper
forum in which to adjudicate any case or
controversy arising either, directly or
indirectly, under or in connection with
this Agreement and the parties further
agree that, in the event of litigation
arising out of or in connection with this
Agreement in these courts, they will not
contest or challenge the jurisdiction or
venue of these courts. The parties
expressly consent and submit to the
jurisdiction and venue of these courts,
and the parties waive any defenses of
lack of personal jurisdiction, improper
venue and forum non conveniens .
It further provided that, the "Agreement may be
executed in several counterparts, each of which shall
be deemed as an original, but all of which together
shall constitute one and the same instrument."
Samaca took possession of the four franchise units on
October 1, 2014 and began operating the franchise
units. However, later in 2014, Cellairis, Global, and

14a
Samaca learned that Dolphin Mall would not renew
the licenses for the franchise locations at Dolphin
Mall. In March 2015, Samaca sued Cellairis and
Global in state court in Florida seeking to rescind the
Franchise Agreement and Sub–License Agreements.
Cellairis and Global moved to dismiss that action
based on the arbitration clauses and because the
complaint failed to state a claim. Before the Court
ruled on that motion, Samaca voluntarily dismissed
its suit, and subsequently initiated the underlying
complaint in Georgia state court.
The appellees filed a motion to dismiss and compel
arbitration based on the arbitration agreements in the
Franchise Agreements and the Sub–License
Agreements. In response, [813 S.E.2d 419] Samaca
amended its complaint to allege that the AA
Agreement and attendant choice of law provision
superseded the Franchise Agreements and Sub–
License Agreements and their attendant arbitration
clauses. The trial court granted the appellees motion
to dismiss and to compel arbitration, finding that,
contrary to Samaca's contention, the arbitration
agreements contained in the Franchise and Sublicensing Agreements were not superceded [sic] by the
AA Agreement.
1. Initially we note that, as is the case here, "the
[Federal Arbitration Act] FAA applies in state and
federal courts to all contracts containing an
arbitration clause that involves or affects interstate
commerce." (Citation omitted.) American Gen.
Financial Svcs. v. Jape, 291 Ga. 637, 638 (1), 732

15a
S.E.2d 746 (2012).1 "[T]he first task of a court asked
to compel arbitration of a dispute is to determine
whether the parties agreed to arbitrate that
dispute."(Citation, punctuation, and emphasis
omitted.) Primerica Financial Svcs. v. Wise, 217 Ga.
App. 36, 40 (5), 456 S.E.2d 631 (1995). And as a matter
of contract, "a party cannot be required to submit to
arbitration any dispute which he has not agreed so to
submit." (Citation and punctuation omitted.) AT& T
Technologies v. Communications Workers of America ,
475 U.S. 643, 648, 106 S.Ct. 1415, 89 L.Ed.2d 648
(1986).
[T]he federal policy favoring arbitration is taken into
consideration even in applying ordinary [s]tate law.
The federal policy favoring arbitration is not,
however, the same as applying a presumption of
arbitrability. We only apply the presumption of
arbitrability to the interpretation of contracts if we
have already determined that, under [s]tate law, the
parties formed a valid agreement to arbitrate.
(Punctuation omitted.) Bickerstaff v. SunTrust Bank,
332 Ga. App. 121, 128–129 (2) (a), 770 S.E.2d 903
(2015), reversed on other grounds, 299 Ga. 459, 788
S.E.2d 787 (2016). Thus, "[t]he threshold
determination of whether a subsequent agreement
entirely superseded a prior agreement is made under
state law, without applying the FAA's presumption."
Dasher v. RBC Bank (USA), 745 F.3d 1111, 1122 (II)
(B) (11th Cir. 2014). See Stewart v. Favors , 264 Ga.
App. 156, 159 (1), 590 S.E.2d 186 (2003) ("[W]hen
deciding whether the parties agreed to arbitrate a
certain matter including arbitrability, courts

16a
generally should apply ordinary state-law principles
governing the formation of contracts.") (citation and
punctuation omitted.). Further, in considering
arbitrability a court "is not to rule on the potential
merits of the underlying claims. Even if it appears to
the reviewing court that the claims asserted are
meritless or even frivolous, it must not allow those
considerations to interfere with its determination of
arbitrability." (Footnotes and punctuation omitted.)
BellSouth Corp. v. Forsee , 265 Ga. App. 589, 595
S.E.2d 99 (2004).
With these principles in mind, to determine if an
existing contract has been superseded and
discharged, the parties must "subsequently enter
upon a valid and inconsistent agreement completely
covering the subject-matter embraced by the original
contract." (Citation and punctuation omitted.)
Hennessy v. Woodruff , 210 Ga. 742, 744 (1), 82 S.E.2d
859 (1954). Thus, "the terms of those contracts must
completely cover the same subject matter and be
inconsistent." Wallace v. Bock, 279 Ga. 744, 745–746
(1), 620 S.E.2d 820 (2005) ("where the parties execute
two successive agreements embodying completed
negotiations ‘on the same subject,’ the doctrine of
merger applies, and the second agreement supersedes
the first."). See Atlanta Integrity Mtg. v. Ben Hill
United Methodist Church , 286 Ga. App. 795, 797, 650
S.E.2d 359 (2007) ("Under the merger rule, an
existing contract is superseded and discharged
whenever the parties subsequently enter upon a valid
and inconsistent agreement completely covering the

17a
subject-matter embraced by the original contract.")
(citation and punctuation omitted.)
Here, the AA Agreement is not a successive or
inconsistent agreement, but rather part of a series of
documents to effect [813 S.E.2d 420] the purchase and
transfer of the Cell Phone Maniea [sic] franchises. It
does not completely subsume the subject matter
embodied in the Franchise and Sub-license
Agreements, and in fact, instead specifically
incorporated those documents by reference. According
to the terms of the AA Agreement, its separate parts
"together shall constitute one and the same
instrument." Moreover, the terms of the AA
Agreement are not inconsistent with the Franchise
and Sub-license Agreements and thus it does not
reflect that the parties intended that the choice of law
provision in AA Agreement would supersede
arbitration clauses. See Mastrobuono v. Shearson
Lehman Hutton, Inc., 514 U.S. 52, 59, 115 S.Ct. 1212,
131 L.Ed.2d 76 (1995) ("The choice-of-law provision,
when viewed in isolation, may reasonably be read as
merely a substitute for the conflict-of-laws analysis
that otherwise would determine what law to apply to
disputes arising out of the contractual relationship.")
Moreover, "when a court interprets such provisions in
an agreement covered by the FAA, [as are the
agreements in this case] due regard must be given to
the federal policy favoring arbitration, and
ambiguities as to the scope of the arbitration clause
itself resolved in favor of arbitration." Id. at 62, 115
S.Ct. 1212.

18a
With that being so, the arbitration agreements at
issue in this case include a "delegation provision" e.g.,
an agreement to arbitrate threshold issues concerning
the arbitration agreement. The delegation provision
clearly assigns responsibility for resolving "whether
any specific claim is subject to arbitration at all
(arbitrability questions)" to the arbitrator. "[J]ust as
the arbitrability of the merits of a dispute depends
upon whether the parties agreed to arbitrate that
dispute, so the question who has the primary power to
decide arbitrability turns upon what the parties
agreed about that matter." (Emphasis omitted.) Losey
v. Prieto , 320 Ga. App. 390, 393, 739 S.E.2d 834
(2013). Here, the arbitration agreements clearly
delegated that responsibility to the arbitrator.
Accordingly, [t]he trial court did not err by compelling
arbitration according to the terms of the agreement.
Moreover, since all of the issues in the underlying suit
were compelled to arbitration, there was nothing left
for the trial court to resolve, and it was not error to
dismiss the suit with prejudice[.] The dismissal with
prejudice has no effect on a subsequent challenge to
the arbitration ruling, which would be a separate
action. (Citations omitted.) Simmons Co. v. Deutsche
Fin. Svcs. Corp. , 243 Ga. App. 85, 90 (2), 532 S.E.2d
436 (2000).
2. Having so held in Division 1, we need not consider
Samaca's remaining enumerations concerning what it
contends were erroneous factual findings by the trial
court and its failure to strike a reply brief.
Judgment affirmed.

19a
* THIS OPINION IS PHYSICAL PRECEDENT
ONLY. COURT OF APPEALS RULE 33.2(a).
Mercier, J. concurs. McMillian, J., concurs in
judgment only.*
-------Notes:
1

9 USC § 2 of the FAA provides that:

A written provision in any ... contract evidencing a
transaction involving commerce to settle by
arbitration a controversy thereafter arising out of
such contract or transaction ... shall be valid,
irrevocable, and enforceable, save upon such grounds
as exist at law or in equity for the revocation of any
contract.
--------

20a
APPENDIX C
(SEAL) SUPREME COURT OF GEORGIA
Case No. S18C1072
Atlanta, October 22, 2018
The Honorable Supreme Court met pursuant
to adjournment.
The following order was passed.
SAMACA, LLC v. CELLAIRIS FRANCHISE,
INC. et al.
The Supreme Court today denied the petition
for certiorari in this case. All the Justices
concur, except Peterson, J., not participating.
Court of Appeals Case No. A17A1715
SUPREME COURT OF THE STATE OF
GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ Thérèse S. Barnes, Clerk

21a
APPENDIX D
(SEAL) SUPREME COURT OF GEORGIA
Case No. S18C1072
Atlanta, November 15, 2018
The Honorable Supreme Court met pursuant to
adjournment. The following order was passed.
SAMACA, LLC v. CELLAIRIS FRANCHISE,
INC. et al.
Upon consideration of the Motion for
reconsideration filed in this case, it is ordered
that it be hereby denied.
All the Justices concur, except Peterson,
J., not participating.
SUPREME COURT OF THE STATE OF
GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ Thérèse S. Barnes, Clerk

22a
APPENDIX E
IN THE SUPERIOR COURT OF FULTON
COUNTY
BUSINESS CASE DIVISION
STATE OF GEORGIA
__________
SAMACA,
LLC,
Plaintiff,
v.
CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC., and
CELL PHONE MANIA, LLC, Defendants
Civil Action File No. 2016CV276036
Filed: February 27, 2019
ORDER ON DEFENDANTS' MOTION FOR
ATTORNEYS' FEES AND
EXPENSES AND PLAINTIFF SAMACA, LLC'S
CROSS MOTION TO COMPEL
ARBITRATION OF DEFENDANT’S [SIC]
MOTION FOR LEGAL EXPENSES
The above styled action is before this Court on
the Motion of Defendants Cellairis Franchise, Inc.
("Cellairis") and Global Cellular, Inc. ("Global")
(collectively, "Defendants") for an award of Attorneys'
Fees and Expenses (hereinafter "Motion for Fees")
filed on March 24, 2017 and Plaintiff Sama ca LLC' s
Cross Motion to Compel Arbitration of Defendants
Motion for Legal Expenses (hereinafter "Motion to
Compel") filed on November 26, 2018. Having
considered the record, the Court finds the following:
I.

BACKGROUND

23a
Plaintiff Samaca, LLC is a Florida limited
liability company that had reached an agreement with
Cell Phone Mania ("CPM") to purchase CPM' s four
franchises. CPM operated the four franchises at the
Dolphin Mall in Miami, Florida under franchise
agreements with Cellairis. Global, an affiliate of
Cellairis, licensed the spaces from the operator of the
Dolphin Mall and CPM sub-licensed the spaces to
operate the franchises in Dolphin Mall from Global.
On June 30, 2014, when Plaintiff and CPM had
reached an agreement for Plaintiff to purchase CPM's
four franchises. Plaintiff entered into four new
franchise agreements (the "Franchise Agreements")
with Cellairis. Plaintiff also entered into four new
sub-license
agreements
(the
"Sub-License
Agreements") with Global to acquire CPM's sublicenses to operate the franchises in the mall. Both the
Franchise Agreements and the Sub-License
Agreements contained an agreement to arbitrate.
Within the same time period, Plaintiff, Cellairis
and CPM executed an Assignment and Assumption
Agreement (the "AA Agreement") effective September
1, 2014 which stated that Plaintiff was required to
sign new franchise and sub-license agreements which
were "attached to this Agreement" and "incorporated
herein by this
reference." The AA Agreement
contained a choice of law provision where the parties
agreed the sole and exclusive venue to adjudicate any
controversy would be in this Court, Plaintiff took
possession of the four franchise units on October 1,
2014 and later in 2014 learned that Dolphin Mall
would not renew the licenses for the franchise
locations at Dolphin Mall. Plaintiff sued Cellairis in
March 2015 in state court in Florida, asking to rescind
the Franchise Agreements and Sub-License
Agreements. Cellairis and Global moved to dismiss

24a
the action based on the arbitration clauses and
because the complaint failed to state a claim. Before
the Court ruled on that motion, Plaintiff voluntarily
dismissed its suit.
When Plaintiff initiated the underlying
complaint in the Superior Court of Fulton County,
Defendants filed a Motion to Dismiss and Compel
Arbitration based on the arbitration agreements in
the Franchise Agreements and the Sub-License
Agreements. Plaintiff then amended its complaint to
allege that the AA Agreement and attendant choice of
law provision superseded the Franchise Agreements
and Sub-License Agreements and their attendant
arbitration clauses.
II.

PROCEDURAL HISTORY

On February 7, 2017, this Court issued an
Order on Defendants' Motion to Dismiss Complaint
and Compel Arbitration (hereinafter "Order")
granting Defendants' Motion to Dismiss and to
Compel Arbitration, holding that the "[t]he question
of arbitrability of the claims raised against
[Defendants] should be submitted to an arbitrator."
Following the Order, Plaintiff filed an appeal. Prior to
the case appearing before the Georgia Court of
Appeals, Defendants filed their Motion for Fees on
March 24, 2017.
On February 28, 2018 the Court of Appeals
unanimously affirmed the trial court holding that "the
arbitration agreements at issue in this case include a
'delegation provision' e.g., an agreement to arbitrate
threshold issues concerning the arbitration
agreement." Plaintiffs Motion for Reconsideration
with the Court of Appeals was denied on March 20,
2018. Plaintiffs Petition for Certiorari with the

25a
Supreme Court of Georgia was denied on October 22,
2018 and it Petition for Reconsideration of the Denial
of its Petition for Certiorari was denied on November
15, 2018.
III.

ANALYSIS AND FINDINGS OF
LAW

A. Defendants' Motion for Attorneys' Fees
In their Motion for Fees, Defendants assert that, as
the "prevailing party" in the action, they are entitled
to an award of attorneys' fees and expenses under
Section 13(K) of the Franchise Agreements. 1
Defendants explain that because they indisputably
sought to enforce their contractual right to arbitrate,
they "unquestionably" prevailed in this action in
enforcing that contractual right and are therefore
entitled to recover their attorneys' fees and litigation
expenses. The Defendants assert that, alternatively,
they are also entitled to attorneys' fees and expenses
under O.C.G.A. § 9-15-14 (a) and O.C.G.A. § 9-15-14
(b), claiming that Plaintiff could not have reasonably
believed its claims would have succeeded in this forum
and that Plaintiff's conduct in this proceeding
"unnecessarily expanded the proceeding."
1. Prevailing party

Section 13(K) of the Franchise Agreements provides that "[i)n
any arbitration or litigation to enforce the terms of this
Agreement, all costs and all attorneys' fees (including those
incurred on appeal) incurred as a result of the legal action shall
be paid to the prevailing party by the other party." See Franchise
Agreements (Exhibits 18 - 21 of Complaint) § 13(K).
1

26a
Defendants
argue
that
because
they
indisputably sought to enforce a contractual right in
this action - their contractual right to arbitrate - and
because they unquestionably prevailed in this action
of enforcing their contractual right, they have
prevailed in litigation to enforce a contractual right,
thus enabling them to recover their attorneys' fees
and expenses under Section 13(K) of the Franchise
Agreements at issue in this case. Defendants concede
that a party ordinarily is not the prevailing party until
the merits of a case have been decided, but argue that
they moved for attorneys' fees once Defendants
"became the prevailing parties by dismissal of
Samaca's complaint." Finally, Defendants contend the
fact that this Court did not adjudicate the ultimate
merits of Plaintiff's claims is not material to
Defendants' fee claim.
Insofar as the parties' agreements expressly
state that "[a]II controversies, claims, or disputes ...
arising out of or relating to ... [the] agreement ...
(and/or] "[t]he scope and validity of th[e] Agreement"
and "specifically including whether any specific claim
is subject to arbitration at all (arbitrability
questions)" must be decided by an arbitrator. The
Court therefore finds that Defendants' request for fees
under the "prevailing party" provision arises out of or
is related to the agreement and thus must be decided
by an arbitrator.
For the forgoing reasons, Defendants' motion
for attorneys' fees pursuant to § 13(K) of the parties'
contract is DENIED.
2. O.C.G.A. § 9-15-14
Defendants contend that pursuant to O.C.G.A.
§ 9-15-14(a) and (b) this Court has jurisdiction to

27a
award attorneys' fees. Under O.C.G.A. § 9-15-14(a), a
court is required to award reasonable and necessary
attorneys' fees and expenses of litigation if it finds
that a party "has asserted a claim, defense, or other
position with respect to which there existed such
complete absence of any justiciable issue of law or fact
that it could not be reasonably believed that a court
would accept the asserted claim." O.C.G.A. § 9-1-14(a)
[sic]. A court may also award attorneys' fees and
expenses if an attorney or party "brought or defended
an action, or any part thereof, that lacked substantial
justification or that the action, or any part thereof,
was interposed for delay or harassment." O.C.G.A. §
9-15-14(b). The decision to grant an award of
attorneys' fees and litigation expenses, and the
amount of any such award, rests solely with the court
without input from a jury. O.C.G.A § 9-15-14(f).
The Georgia Court of Appeals has held that fees
under O.C.G.A. § 9-15-14(b) are warranted where a
party's tactics delay the disposition of the case and
expand the proceedings. Harkleroad & Hermance,
P.C. v. Stringer, 220 Ga. App. 906,909,472 S.E.2d 308,
312 (1996) (finding that defendants' tactics in the trial
court were meant to delay the disposition of the case,
to harass and to expand the proceedings, reasoning
that defendants avoided a decision for almost three
years on a routine action, where defendants presented
no evidence to support a number of his counterclaims;
filed a direct appeal without following the
interlocutory appeals procedures; requested binding
arbitration on the eve of trial, made no effort to prove
his counterclaims in arbitration, and then disputed
the award in trial court.).
Insofar as the present Motion asks this Court
to award fees based on litigating Defendants' Motion
to Compel Arbitration and Dismiss, the Court

28a
considers whether Plaintiffs claims "lacked
substantial justification" or "were interposed for delay
or harassment." In considering Defendants' Motion to
Compel Arbitration and Dismiss, the narrow issue
before this Court was whether the parties' claims
should have been submitted to arbitration, and
whether the arbitrability of certain claims should also
be submitted to arbitration. Based on the clear and
unambiguous language of the parties' agreements,
specifically the delegation clause which noted that
whether any specific claim is subject to arbitration is
itself a subject to arbitration, and the express
incorporation of the arbitration clauses into the
Assignment & Assumption Agreement, the Court
finds that Plaintiffs arguments to the contrary lack
substantial justification, and that Plaintiffs conduct
in the litigation of the claims before this Court was
interposed for delay or harassment.
B. Plaintiff"
Arbitration

s

Motion

to

Compel

Plaintiff asserts that because Defendants'
Motion for Fees involves a question of arbitrability
arising out of the parties' agreements, it should be
decided by an arbitrator. In response, Defendants
assert that no arbitrability dispute exists and raise
the arguments put forth in their Motion for Fees. The
Court has addressed this question in section A of this
Order, and has found that the question of arbitrability
under the parties' contract is for an arbitrator.
However, the Court has also found that Plaintiff's
tactics during the pendency of this case were meant to
delay the disposition of the case and to harass and
expand these proceedings for almost three years, thus

29a
justifying an award of attorneys' fees under O.C.G.A.
§ 9-15-14.
For the foregoing reasons, Defendants' motion
for attorneys' fees under O.C.G.A. § 9-15-14(b) is
hereby GRANTED. The Court will defer a ruling as to
the amount of fees until after the merits of the case
have been decided in arbitration. After such a ruling
by an arbitrator, Defendants are invited to renew
their motion before this Court.
2019.

SO ORDERED, this 27th day of February
(signature)
ALICE D. BONNER, SENIOR JUDGE
Superior Court of Fulton County
Business Case Division
Atlanta Judicial Circuit
*****

30a
APPENDIX F
IN THE SUPERIOR COURT OF FULTON
COUNTY
BUSINESS CASE DIVISION
STATE OF GEORGIA
__________
SAMACA,
LLC,
Plaintiff,
v.
CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC., and
CELL PHONE MANIA, LLC, Defendants
Civil Action File No. 2016CV276036
Business Case Div. 1
_________
Filed: March 6, 2019
AMENDED ORDER ON DEFENDANTS'
MOTION FOR ATTORNEYS' FEES AND
EXPENSES AND PLAINTIFF SAMACA, LLC'S
CROSS MOTION TO COMPEL
ARBITRATION OF DEFENDANTS' MOTION
FOR LEGAL EXPENSES
The above styled action is before this Court on
the Motion of Defendants Cellairis Franchise, Inc.
("Cellairis") and Global Cellular, Inc. ("Global")
(collectively, "Defendants") for an award of Attorneys'
Fees and Expenses (hereinafter "Motion for Fees")
filed on March 24, 2017 and Plaintiff Samaca LLC's
Cross Motion to Compel Arbitration of Defendants
Motion for Legal Expenses (hereinafter "Motion to
Compel") filed on November 26, 2018. Having
considered the record and argument of counsel at a

31a
hearing held on February 12, 2019, the Court finds
the following:
I.

BACKGROUND

Plaintiff Samaca, LLC is a Florida limited
liability company that had reached an agreement with
Cell Phone Mania ("CPM") to purchase CPM's four
franchises. CPM operated the four franchises at the
Dolphin Mall in Miami, Florida under franchise
agreements with Cellairis. Global, an affiliate of
Cellairis, licensed the spaces from the operator of the
Dolphin Mall and CPM sub-licensed the spaces to
operate the franchises in Dolphin Mall from Global.
On June 30, 2014, when Plaintiff and CPM had
reached an agreement for Plaintiff to purchase CPM's
four franchises, Plaintiff entered into four new
franchise agreements (the "Franchise Agreements")
with Cellairis. Plaintiff also entered into four new
sub-license
agreements
(the
"Sub-License
Agreements") with Global to acquire CPM's sublicenses to operate the franchises in the mall. Both the
Franchise Agreements and the Sub-License
Agreements contained an agreement to arbitrate.
Within the same time period, Plaintiff, Cellairis
and CPM executed an Assignment and Assumption
Agreement (the "AA Agreement") effective September
1, 2014 which stated that Plaintiff was required to
sign new franchise and sub-license agreements which
were "attached to this Agreement" and "incorporated
herein by this reference." The AA Agreement
contained a choice of law provision where the parties
agreed the sole and exclusive venue to adjudicate any

32a
controversy would be in this Court. Plaintiff took
possession of the four franchise units on October I,
2014 and later in 2014 learned that Dolphin Mall
would not renew the licenses for the franchise
locations at Dolphin Mall. Plaintiff sued Cellairis in
March 2015 in state court in Florida, asking to rescind
the Franchise Agreements and Sub-License
Agreements. Cellairis and Global moved to dismiss
the action based on the arbitration clauses and
because the complaint failed to state a claim. Before
the Court ruled on that motion, Plaintiff voluntarily
dismissed its suit.
When Plaintiff initiated the underlying
complaint in the Superior Court of Fulton County,
Defendants filed a Motion to Dismiss and Compel
Arbitration based on the arbitration agreements in
the Franchise Agreements and the Sub-License
Agreements. Plaintiff then amended its complaint to
allege that the AA Agreement and attendant choice of
law provision superseded the Franchise Agreements
and Sub-License Agreements and their attendant
arbitration clauses.
II.

PROCEDURAL HISTORY

On February 7, 2017, this Court issued an
Order on Defendants' Motion to Dismiss Complaint
and Compel Arbitration (hereinafter "Order")
granting Defendants' Motion to Dismiss and to
Compel Arbitration, holding that the " [t]he question
of arbitrability of the claims raised against
[Defendants] should be submitted to an arbitrator."
Following the Order, Plaintiff filed an appeal. Prior to

33a
the case appearing before the Georgia Court of
Appeals, Defendants filed their Motion for Fees on
March 24, 2017.
On February 28, 2018 the Court of Appeals
unanimously affirmed the trial court holding that "the
arbitration agreements at issue in this case include a
'delegation provision' e.g., an agreement to arbitrate
threshold issues concerning the arbitration
agreement." Plaintiff's Motion for Reconsideration
with the Court of Appeals was denied on March 20,
2018. Plaintiff's Petition for Certiorari with the
Supreme Court of Georgia was denied on October 22,
2018 and it Petition for Reconsideration of the Denial
of its Petition for Certiorari was denied on November
15, 2018.
III. ANALYSIS AND FINDINGS OF LAW
A. Defendants' Motion for Attorneys' Fees
In their Motion for Fees, Defendants assert that,
as the "prevailing party" in the action, they are
entitled to an award of attorneys' fees and expenses
under Section 13(K) of the Franchise Agreements. 1
Defendants explain that because they indisputably
sought to enforce their contractual right to arbitrate,
they "unquestionably" prevailed in this action in
Section 13(K) of the Franchise Agreements provides
that " [i]n any arbitration or litigation to enforce the
terms of this Agreement, all costs and all attorneys'
fees (including those incurred on appeal) incurred as
a result of the legal action shall be paid to the
prevailing party by the other party." See Franchise
Agreements (Exhibits 18 - 21 of Complaint) § 13(K).
1

34a
enforcing that contractual right and are therefore
entitled to recover their attorneys' fees and litigation
expenses.
The Defendants assert that, alternatively, they are
also entitled to attorneys' fees and expenses under
O.C.G.A. § 9-15-14(a) and O.C.G.A. § 9-15-14(b),
claiming that Plaintiff could not have reasonably
believed its claims would have succeeded in this forum
and that Plaintiffs conduct in this proceeding
"unnecessarily expanded the proceeding."
I.

Prevailing party

Defendants argue that because they indisputably
sought to enforce a contractual right in this action their contractual right to arbitrate - and because they
unquestionably prevailed in this action of enforcing
their contractual right, they have prevailed in
litigation to enforce a contractual right, thus enabling
them to recover their attorneys' fees and expenses
under Section 13(K) of the Franchise Agreements at
issue in this case. Defendants concede that a party
ordinarily is not the prevailing party until the merits
of a case have been decided, but argue that they
moved for attorneys' fees once Defendants "became
the prevailing parties by dismissal of Samaca's
complaint." Finally, Defendants contend the fact that
this Court did not adjudicate the ultimate merits of
Plaintiff's claims is not material to Defendants' fee
claim.
Insofar as the parties' agreements expressly state
that "[a]ll controversies, claims, or disputes ... arising
out of or relating to… [the] agreement ... [and/or]
"[t]he scope and validity of th[e] Agreement" and

35a
"specifically including whether any specific claim is
subject to arbitration at all (arbitrability questions)"
must be decided by an arbitrator. The Court therefore
finds that Defendants' request for fees under the
"prevailing party" provision arises out of or is related
to the agreement and thus must be decided by an
arbitrator. For the forgoing reasons, Defendants'
motion for attorneys' fees pursuant to § l 3(K) of the
parties' contract is DENIED.
2. O.C.G.A. § 9-15-14
Defendants contend that pursuant to O.C.G.A.
§ 9-15-14(a) and (b) this Court has jurisdiction to
award attorneys' fees. Under O.C.G.A. § 9-15-14(a), a
court is required to award reasonable and necessary
attorneys' fees and expenses of litigation if it finds
that a party "has asserted a claim, defense, or other
position with respect to which there existed such
complete absence of any justiciable issue of law or fact
that it could not be reasonably believed that a court
would accept the asserted claim." O.C.G.A. § 9-l-14(a)
[sic].
A court may also award attorneys' fees and
expenses if an attorney or party "brought or defended
an action, or any part thereof, that lacked substantial
justification or that the action, or any part thereof,
was interposed for delay or harassment." O.C.G.A. §
9-l5-14(b). The decision to grant an award of
attorneys' fees and litigation expenses, and the
amount of any such award, rests solely with the court
without input from a jury. O.C.G.A § 9-15-14(f).
The Georgia Court of Appeals has held that fees
under O.C.G.A. § 9-15-14(b) are warranted where a
party's tactics delay the disposition of the case and

36a
expand the proceedings. Harkleroad & Hermance,
P.C. v. Stringer, 220 Ga. App. 906, 909, 472 S.E.2d
308, 312 (1996) (finding that defendants' tactics in the
trial court were meant to delay the disposition of the
case, to harass and to expand the proceedings,
reasoning that defendants avoided a decision for
almost three years on a routine action, where
defendants presented no evidence to support a
number of his counterclaims; filed a direct appeal
without following the interlocutory appeals
procedures; requested binding arbitration on the eve
of trial, made no effort to prove his counterclaims in
arbitration, and then disputed the award in trial
court.).
Insofar as the present Motion asks this Court
to award fees based on litigating Defendants' Motion
to Compel Arbitration and Dismiss, the Court
considers whether Plaintiffs claims "lacked
substantial justification" or "were interposed for delay
or harassment." In considering Defendants' Motion to
Compel Arbitration and Dismiss, the narrow issue
before this Court was whether the parties' claims
should have been submitted to arbitration, and
whether the arbitrability of certain claims should also
be submitted to arbitration. Based on the clear and
unambiguous language of the parties' agreements,
specifically the delegation clause which noted that
whether any specific claim is subject to arbitration is
itself a subject to arbitration, and the express
incorporation of the arbitration clauses into the
Assignment & Assumption Agreement, the Court
finds that Plaintiff's arguments to the contrary lack
substantial justification, and that Plaintiffs conduct
in the litigation of the claims before this Court was
interposed for delay or harassment.

37a
Accordingly, Defendants' motion for attorneys'
fees under O.C.G.A. §9-15-14(b) is GRANTED.
Having considered the record, including the parties'
briefs and Defense counsel's fee invoices, 2 the Court
finds Defendants are entitled to $59,983.78 in
reasonable and necessary fees and costs incurred by
them as a result of Plaintiff's sanctionable conduct.
This amount represents the total fees requested by
Defendants incurred in defending this action from the
commencement of the case through March 22, 2017
(shortly before Plaintiff filed its Notice of Appeal)
minus invoice entries that include billing items
regarding Defendants Cellairis' and Global's Motion
to Stay Discovery and for Protective Order ( filed on
October 20, 2016), motion which was denied by this
Court.
B. Plaintiff's Motion to Compel Arbitration
Plaintiff asserts that because Defendants'
Motion for Fees involves a question of arbitrability
arising out of the parties' agreements, it should be
decided by an arbitrator. In response, Defendants
assert that no arbitrability dispute exists and raise
the arguments put forth in their Motion for Fees. The
Court has addressed this question in section A of this
Order, and has found that the question of arbitrability
under the parties' contract is for an arbitrator.
Although a hearing was held on February 12, 2019
on the parties' motions, Plaintiff did not cross examine
Defense counsel or otherwise object at the hearing to
the reasonableness or necessity of any portion of the
requested fees and costs.
2

38a
However, the Court has also found that Plaintiff’s
tactics during the pendency of this case were meant to
delay the disposition of the case and to harass and
expand these proceedings for almost three years, thus
justifying an award of attorneys' fees under O.C.G.A.
§ 9-15-l4(b). Importantly, awards under 9-15-14 are
not "claims" subject to arbitration but rather
constitute sanctions of the Court intended to
recompense litigants and to punish and deter
litigation abuses. See Long v. City of Helen, 301 Ga.
120, 121, 799 S.E.2d 741, 742 (2017); Riddell v.
Riddell, 293 Ga. 249, 250, 744 S.E.2d 793, 794 (2013).
Given all of the above, Plaintiffs Motion to
Compel Arbitration is GRANTED IN PART with
respect only to Defendants' motion for attorneys' fees
pursuant to §13(K) of the parties' contract and is
otherwise DENIED with respect to Defendants'
motion for attorneys' fees under O.C.G.A. §9-15-14(b)
SO ORDERED this 6th day of March, 2019.
signed
ALICE D. BONNER, SENIOR JUDGE
Superior Court of Fulton County
Business Case Division
Atlanta Judicial Circuit

39a
APPENDIX G
_______
Court of Appeals
of the State of Georgia
_______
ATLANTA, April 02, 2019
The Court of Appeals hereby passes the following
order
A19D0372. SAMACA, LLC v. CELLAIRIS
FRANCHISE, INC. et al.
Upon consideration of the Application for
Discretionary Appeal, it is ordered that it be hereby
DENIED.
LC NUMBERS:
2016CV276036
Court of Appeals of the State of Georgia
Clerk's Office, Atlanta, April 02, 2019.
(SEAL)
I certify that the above is a true extract from the
minutes of the Court of Appeals of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ Stephen Castlen, Clerk.

40a
APPENDIX H
(SEAL) SUPREME COURT OF GEORGIA
Case No. S19C1106
December 23, 2019
The Honorable Supreme Court met pursuant
to adjournment.
The following order was passed.
SAMACA, LLC v. CELLAIRIS FRANCHISE, INC. et
al.
The Supreme Court today denied the petition
for certiorari in this case.
All the Justices concur, except Peterson, J., not
participating.
Court of Appeals Case No. A19D0372
SUPREME COURT OF THE STATE OF
GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ Thérèse S. Barnes, Clerk

41a
APPENDIX I
(SEAL)

SUPREME COURT OF GEORGIA
Case No. S19C1106
January 27, 2020

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
SAMACA, LLC v. CELLAIRIS FRANCHISE, INC. et
al.
Upon consideration of the Motion for
Reconsideration filed in this case, it is ordered that it
be hereby denied.
All the Justices concur, except Peterson, J., not
participating.
SUPREME COURT OF THE STATE OF
GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ Thérèse S. Barnes, Clerk

42a
APPENDIX J
IN THE SUPERIOR COURT OF FULTON
COUNTY
BUSINESS CASE DIVISION
STATE OF GEORGIA
-----------SAMACA, LLC, Plaintiff, v. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants
CIVIL ACTION NO.: 2016CV276036
Business Case Div. 1
[Filed June 4, 2019]
_________
ORDER ON PLAINTIFF'S MOTION FOR
ATTORNEYS' FEES AND EXPENSES UNDER
O.C.G.A. § 9-15-14
The above styled action is before the Court on
Plaintiff Samaca, LLC' s Motion for Attorneys' Fees
and Expenses Under O.C.G.A. § 9-15-14 ("Motion").
Therein Samaca seeks all of its fees and expenses
incurred in addressing Defendants' request for
attorney's fees under Section 13(K) (prevailing party
provision) of the parties' Franchise Agreements.
Having considered the entire record, 1 the Court finds
Plaintiff's Motion for Leave to File a Reply is hereby GRANTED
and the Reply, which was attached to the motion, is considered
to have been filed on the record on April 25, 2019. In addition to
the foregoing Reply, the Court has considered all of the parties'
briefs and submissions with respect to Plaintiff's Motion,
including: Defendants' Opposition to Samaca's Motion for
Attorney's Fees and Expenses Under O.C.G.A. §9-15-14, filed on
April 23, 2019; Defendants' Response to Plaintiff's Motion for
Leave to File a Reply, filed on May 21, 2019; Plaintiff's Objection
to Defendants' Response to Plaintiff's Motion for Leave to File a
1

43a
Plaintiffs Motion is untimely under O. C. G .A. § 9-1514(e) insofar as it was submitted more than 45 days
after the final disposition of this action. See O.C.G.A.
§ 9-15-14(e) ("Attorney's fees and expenses under this
Code section may be requested by motion at any time
during the course of the action but not later than 45
days after the final disposition of the action."); see e.g.
Kim v. Han, 339 Ga. App. 886, 795 S.E.2d 191 (2016)
("the phrase 'final disposition' should be considered to
be synonymous with the phrase "final judgment" as it
is used in the statute enumerating when an appeal
may be taken"); Fairburn Banking Co. v. Gafford, 263
Ga. 792, 439 S.E.2d 482 (1994) ("'Final disposition of
the action,' as used in statute providing that motion
for attorney fees may be made within 45 days of final
disposition of action, means final judgment of trial
court"); Trammel v. Clayton Cty. Bd. Of El-10
Comm'rs, 250 Ga. App. 310,310, 551 S.E.2d 412,413
(2001) ("[t]inal disposition of this action within the
meaning of OCGA § 9-15-14(e) was the entry of final
judgment by filing the order granting summary
judgment . . . in the trial court [which] constituted a
final appealable order from which the 45 days began
to run within which to seek sanctions."). 2

Reply, filed on May 24, 2019; Defendants' Notice of Filing of
Samaca's Supreme Court Certiorari Petition and Supplemental
Brief, filed on May 21, 2019; and Plaintiff's Objection to Notice of
Filing Samaca's Supreme Court Certiorari Petition, filed on May
24, 2019.
Plaintiff cites to Workman v. RL BB ACQ I-GA CVL, LLC, 303
Ga. 693,814 S.E.2d 696 (2018) in support of its assertion that the
Motion was timely. Insofar as Workman does not discuss the
statute at issue here, O.C.G.A. § 9-15-14(e), the Court finds the
holding and analysis of Workman to be inapposite.
2

44a
Moreover, even assuming that the Motion is
timely, the Court finds that Defendants' request for
an award of fees under Section 13(K) for having
"prevailed" in having the underlying complaint
dismissed and arbitration compelled presented
justiciable issues such that an award of fees to
Plaintiff under O.C.G.A. §9-15-14(a) or (b) is not
warranted. Accordingly, Plaintiffs Motion is hereby
DENIED.
SO ORDERED this 4th day of June, 2019.
/s/ Alice D. Bonner
ALICE D. BONNER, SENIOR JUDGE
Superior Court of Fulton County
Business Case Division
Atlanta Judicial Circuit
*****

45a
APPENDIX K
Court of Appeals
of the State of Georgia

ATLANTA, July 23, 2019

The Court of Appeals hereby passes the following
order
A19D0539. SAMACA, LLC v. CELLAIRIS
FRANCHISE, INC. et al. .
Upon consideration of the Application for
discretionary Appeal, it is ordered that it be hereby
DENIED.
LC NUMBERS:
2016CV276036
(SEAL)

Court of Appeals of the State of Georgia
Clerk's Office, Atlanta, July 23, 2019.
I certify that the above is a true extract
from the minutes of the Court of Appeals
of Georgia.
Witness my signature and the seal of said
court hereto affixed the day and year last
above written.
/s/ Stephen Castlen, Clerk.

46a
APPENDIX L
Court of Appeals
of the State of Georgia
ATLANTA, August 7, 2019
The Court of Appeals hereby passes the following
order
A19D0539. SAMACA, LLC v. CELLAIRIS
FRANCHISE, INC. et al.
Samaca, LLC filed an application for
discretionary appeal seeking review of the trial court’s
order denying a claim for OCGA § 9-15-14 attorney
fees. In connection with the application, Samaca filed
a motion to recuse staff attorney Charles Bonner. The
application for discretionary appeal was denied on
July 23, 2019, and the motion to recuse was deemed
moot. On July 24, 2019, Samaca filed a motion for
reconsideration. Samaca also filed an emergency
motion demanding that Bonner be recused from any
decision relating to the motion for reconsideration.
Under the Georgia Rules of Judicial Conduct,
judges ensure that staff members “observe the
standards of fidelity and diligence that apply to the
judges[.]” See Code of Judicial Conduct Rule 2.12 (A).
Pursuant to Rule 2.11 (A), there are instances in
which disqualification may be required. There is,
however,
no
requirement
that
any
such
disqualification be disclosed on the record. See Code
of Judicial Conduct Rule 2.11 (C) (“[j]udges
disqualified by the terms of rule 2.11 may disclose on

47a
the record . . . the basis of their disqualification”)
(emphasis supplied).
We have reviewed the motion for reconsideration,
which is hereby DENIED. The emergency motion is
thus DISMISSED as MOOT.
LC NUMBERS:
2016CV276036
(SEAL)

Court of Appeals of the State of Georgia
Clerk's Office, Atlanta, 08/07/2019.
I certify that the above is a true extract
from the minutes of the Court of Appeals
of Georgia.
Witness my signature and the seal of said
court hereto affixed the day and year last
above written.
/s/ Stephen Castlen, Clerk.

48a
APPENDIX M
Court of Appeals
of the State of Georgia
ATLANTA, August 29, 2019
The Court of Appeals hereby passes the following
order
A19D0539. SAMACA, LLC v. CELLAIRIS
FRANCHISE, INC. et al.
Upon consideration of the APPELLANT’S
Amended Motion for Reconsideration in the above
styled case, it is ordered that the motion is hereby
DENIED. For the reasons set forth in our order dated
August 07, 2019, denying Appellant’s Motion for
Reconsideration
and
dismissing
Appellant’s
Emergency Motion as moot, we hereby deny the
Amended Motion for Reconsideration.
LC NUMBERS:
2016CV276036
(SEAL)

Court of Appeals of the State of Georgia
Clerk's Office, Atlanta, August 29, 2019.
I certify that the above is a true extract
from the minutes of the Court of Appeals
of Georgia.
Witness my signature and the seal of said
court hereto affixed the day and year last
above written.
/s/ Stephen Castlen, Clerk.

49a
APPENDIX N
(SEAL) SUPREME COURT OF GEORGIA
Case No. S20C0114
December 23, 2019
The Honorable Supreme Court met pursuant
to adjournment.
The following order was passed.
SAMACA, LLC v. CELLAIRIS FRANCHISE, INC. et
al.
The Supreme Court today denied the petition
for certiorari in this case.
All the Justices concur, except Peterson, J., not
participating.
Court of Appeals Case No. A19D0539
SUPREME COURT OF THE STATE OF
GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ Thérèse S. Barnes, Clerk

50a
APPENDIX O
(SEAL) SUPREME COURT OF GEORGIA
Case No. S20C0114
January 27, 2020
The Honorable Supreme Court met pursuant
to adjournment.
The following order was passed.
SAMACA, LLC v. CELLAIRIS FRANCHISE, INC. et
al.
Upon consideration of the Motion for
Reconsideration filed in this case, it is ordered that it
be hereby denied.
All the Justices concur, except Peterson, J., not
participating.
SUPREME COURT OF THE STATE OF
GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ Thérèse S. Barnes, Clerk

51a
APPENDIX P
(Excerpt of complaint)
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
-------------SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
CIVIL ACTION NO. 2016 CV 276036
JURY TRIAL DEMANDED
[Filed June 3, 2016]
COMPLAINT
Plaintiff Samaca, LLC presents its complaint
against Cellairis Franchise, Inc., Global Cellular,
Inc., and Cell Phone Mania, LLC, alleging and
praying for relief as follows:
PARTIES *****

Contents *****

JURISDICTION AND VENUE*****
BACKGROUND*****
Defendants Cellairis and Global Are Subject to
Federal Trade Commission Franchise Rule*****

52a
Defendants Cellairis and Global Made
Misrepresentations and Omissions, and Provided
Plaintiff with Non-Compliant Franchise Disclosure
Document*****
Cellairis and Global Provided Materially Different
Closing Documents Online*****
All Defendants Entered into an Unenforceable and
Void Agreement-To-Agree *****
COUNT I (As to All Defendants)*****
Rescission of Agreements Due to Indefiniteness and
Lack of Meeting of the Minds****
COUNT II (As to all Defendants)*****
Money Had and Received *****
COUNT III (As to Cellairis and Global) *****
Action Under Florida’s Deceptive and Unfair Trade
Practices Act, Fla. Stat. §§ 501.201 to 501.213 –
Alternatively, Action for Breach of Legal Duty Under
O.C.G.A. § 51-1-6 – for Violation of FTC Franchise
Rule*****
COUNT IV (As to Cellairis and Global)*****
Violation of Florida Franchise Act, Fla. Stat. §
817.416(2)(A)1(Intentional Misrepresentation of
Prospects for Success)*****
COUNT V (As to Cellairis and Global)******
Violation of Florida Franchise Act, Fla. Stat. §
817.416(2)(A)2 (Misrepresentation and Failure to
Disclose the Required Total Investment) *****
COUNT VI (As to Cellairis and Global) *****

53a
Rescission for Fraudulent Inducement *****
COUNT VII (As to Cellairis and Global)*****
Rescission for Negligent Misrepresentation*****
JURY DEMAND AND PRAYER FOR RELIEF *****
*****
JURISDICTION AND VENUE
5. This Court has jurisdiction and venue is
proper as to Defendants Cellairis and Global because
these defendants have their registered office and
agent in Fulton County, Georgia. O.C.G.A. § 14-2-510.
6. The Court also has jurisdiction and venue is
proper as to Defendants Cellairis and CPM by virtue
of the forum selection provision contained in Section
11 of the Assignment and Assumption Agreement
(“Assignment & Assumption Agreement”) signed by
them effective September 1, 2014. A true and correct
copy of the Assignment & Assumption Agreement is
attached as EXHIBIT 1 HERETO.
7. Plaintiff invokes the referenced forum
selection provision as a separate and severable
provision without admitting to or ratifying the
enforceability of the remaining substantive portions of
the Assignment & Assumption Agreement. 1

Indeed, as explained below, Plaintiff seeks to rescind as void and
unenforceable the Assignment & Assumption Agreement as well as the
related June 30 Agreements (defined paragraph 64 below).

1

54a
*****
COMPLAINT EXH 1 *****
ASSIGNMENT AND ASSUMPTION
AGREEMENT DOLPHIN MALL (#K114) &
DOLPHIN MALL (#21P) AND DOLPHIN MALL
(#06A) & DOLPHIN MALL (#17)
This ASSIGNMENT AND ASSUMPTION
AGREEMENT ("Agreement") is made effective as of
September 1, 2014 by and between CELLAIRIS
FRANCHISE, INC., ("Cellairis"), Cell Phone Mania,
LLC ("Assignor"), and SAMACA, LLC ("Assignee").
*****
NOW THEREFORE, for and in consideration of
$10.00 and other good and valuable consideration,
together with the mutual promises and covenants
contained herein, the receipt, sufficiency, delivery,
and adequacy of which is hereby acknowledged by the
parties, Assignor, Assignee, and Cellairis intending to
be legally bound agree as follows:
*****
3. Assignor agrees and represents, as an
inducement to Cellairis to enter into this
Agreement, that at the time of the execution
of this Agreement, Assignor will have fully
satisfied
all
outstanding
financial
obligations to Cellairis and any affiliate of
Cellairis, including but not limited to,
Global Cellular, Inc.

55a
a. Specifically, Assignor owes the following
amounts that must be paid; however,
Assignor is being paid the sum of
$350,000.00 from Assignee as the sales
price for the units being transferred
pursuant to this Agreement ("Sales
Price"), and Assignee shall pay Global
Cellular, Inc. the Sales Price on behalf of
Assignor, which shall be paid as follows:
*****
8. This Agreement constitutes the complete
understanding between the parties. This
Agreement cannot be amended, altered,
modified, or superseded, in whole or in part,
except by a written agreement so stating
which is signed by all parties to this
Agreement.
No
other promises or
agreements shall be binding unless in
writing and signed by the parties.
9. This Agreement may be executed in several
counterparts, each of which shall be deemed
as an original, but all of which together shall
constitute one and the same instrument.
10. This Agreement is binding upon, and shall
inure to the benefit of, the parties and their
respective heirs, executors, administrators,
successors and assigns.
11. This Agreement shall be governed by and
construed under the laws of the State of
Georgia, without regard to its conflicts of
law provisions. The parties acknowledge

56a
and agree that the Georgia State Courts for
Fulton County, Georgia, or if such court
lacks jurisdiction, the U.S. District for the
Northern District of Georgia, shall be the
sole and exclusive venue and sole and
exclusive proper forum in which to
adjudicate any case or controversy arising
either, directly or indirectly, under or in
connection with this Agreement and the
parties further agree that, in the event of
litigation arising out of or in connection with
this Agreement in these courts, they will not
contest or challenge the jurisdiction or
venue of these courts. The parties expressly
consent and submit to the jurisdiction and
venue of these courts, and the parties waive
any defenses of lack of personal jurisdiction,
improper venue and forum non conveniens.
Should any provision of this Agreement
require interpretation or construction, it is
agreed by the parties that the entity
interpreting or construing this Agreement
shall not apply a presumption that the
provisions hereof shall be more strictly
construed against one party by reason of the
rule of construction that a document is to be
construed more strictly against the party
who prepared this Agreement, it being
agreed that all parties have participated in
the preparation of all provisions of this
Agreement.
12. Each person who executes this Agreement
on behalf of any party to the Agreement
represents and warrants that he or she has

57a
been duly authorized by such party to
execute the Agreement.
13. Each party shall bear its own costs and
expenses, including attorneys' fees and
expenses of litigation, in connection with
this Agreement.
14. The parties agree to execute any additional
documents reasonably requested by another
party so as to effectuate the purposes and
effects of this Agreement.
15. Assignee acknowledges that the General
Counsel for Cellairis Franchise, Inc. and
Global Cellular, Inc. represents those
entities only in this transaction and in the
preparation of this Agreement. Assignee
acknowledges and agrees that it has been
advised to consult with independent legal
counsel with respect to this Agreement and
has been provided a full and fair
opportunity to do so.
CELLAIRIS FRANCHISE, INC.
/s/ Jeff Nestinger
Its: VP of Franchising
ASSIGNOR: Cell Phone Mania, LLC
/s/ Oz Aharon
Its: Managing Member
ASSIGNEE: SAMACA, LLC
By: /s/ Arnaldo Gonzalez Rodriguez
Its: Managing Member
*****

58a
APPENDIX Q
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
-------------SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
_________
CIVIL ACTION NO. 2016 CV 276036
[Filed: September 2, 2016]
FIRST AMENDMENT TO COMPLAINT AND
VERIFICATION
Plaintiff Samaca, LLC files its first
amendment and verification of the original
Complaint, stating under oath as follows:
Plaintiff revises and restates Paragraph
6 of the Complaint as follows:
The Court also has jurisdiction and venue is
proper as to Defendants Cellairis, Global and CPM
by virtue of the forum selection clause contained in
Section 11 of the Assignment and Assumption
Agreement
(“Assignment
&
Assumption
Agreement”) effective September 1, 2014. A true and
correct copy of the Assignment & Assumption
Agreement was attached to the original Complaint
as EXHIBIT 1 THERETO. At all relevant times to
this action, Defendants Cellairis and Global acted in
concert, were alter egos, were under common control,

59a
and the facts and claims alleged herein against these
Defendants are inherently inseparable and
interdependent.
Moreover, the claims against
Global arise from and are so related to the
Assignment & Assumption Agreement that Global
must be equitably bound by its forum selection
clause.
Except as amended herein, all other portions of
the original Complaint remain unchanged.
D. R. MARTIN, LLC
By: /s/ David R. Martin
David R. Martin
*****
COUNSEL FOR
PLAINTIFF
SAMACA
*****

60a
APPENDIX R
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
-------------SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
_________
CIVIL ACTION NO. 2016 CV 276036
[Filed: November 3, 2016]
ORDER OF RECUSAL
On November 2, 2016, the above-captioned
matter came before the Honorable Shawn Ellen
LaGrua for a Scheduling Conference. The limited
purpose of the Scheduling Conference was for the
Court to advise the parties that Jason Samuel Adler,
Esq. ("Mr. Adler"), Corporate Counsel for Defendant
Cellairis Franchise, Inc., serves/served as the
Treasurer of Judge LaGrua's Campaign Committee.
While the Court does not believe Mr. Adler's service
in this capacity is any impediment to this Court's
ability to fairly preside over this matter nor does the
Court harbor any bias or prejudice in favor of or
against the parties as a result thereof, the Court
wanted to give the parties an opportunity to consider
this potential issue prior to the motions hearing
scheduled before the Court on November 30, 2016.
On November 3, 2016, David Martin, Esq.,
counsel for Plaintiff Samaca, LLC ("Plaintiff'), advised
the Court that Plaintiff believes Mr. Adler's service as
Treasurer creates a conflict and warrants Judge
LaGrua's recusal in this case. Plaintiff further

61a
requested that this Court voluntarily recuse to
prevent any discomfort or awkwardness for the
parties involved and to eliminate the necessity of
having to promptly file a Motion to Recuse.
Now, as a courtesy to the parties and in
furtherance of Plaintiffs request, this Court, on its
own motion, hereby recuses itself from the above
matter pursuant to Uniform Superior Court Rule
25.7. This matter shall be removed from the docket of
Judge Shawn Ellen LaGrua. The Clerk of Superior
Court and/or the Office of Superior Court
administration shall take whatever administrative
action is necessary to accomplish said reassignment.
In furtherance thereof, the motions hearing
scheduled before this Court on November 30, 2016 at
3:15 p.m. has been removed from the Court's
Calendar. Additionally, as ordered by this Court
during the Scheduling Conference on November 2,
2016, all discovery depositions and related merits
discovery are temporarily stayed, apart from
discovery requests relating to venue, until such time
as the pending motions can be heard by the newly
assigned Judge.
SO ORDERED, this 3rd day of November,
2016.
(signed)
SHAWN ELLEN LAGRUA, JUDGE
Fulton County Superior Court
Atlanta Judicial Circuit
*****

62a
APPENDIX S
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
-------------SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
_________
CIVIL ACTION NO. 2016 CV 276036
[Filed: December 20, 2016]
ORDER TRANSFERRING CASE TO BUSINESS
CASE DIVISION
Pursuant to Atlanta Judicial Circuit Rule 1004,
as set forth by the Supreme Court of Georgia
establishing the Metro Atlanta Business Case
Division in the Fulton County Superior Court, the
above-styled cases are hereby TRANSFERRED TO
THE BUSINESS CASE DIVISION and assigned to
the Honorable Alice D. Bonner.
The Clerk of Court is direct to transfer the
cases to the Court Unit "Business Court 1" as “Judge,
Business Court.”
SO ORDERED, 19th day of December, 2016.
/s/ Gail S. Tusan
GAIL S TUSAN, CHIEF JUDGE
for Judge Kelly Lee Ellerbee
Superior Court of Fulton County
Atlanta Judicial Circuit

63a
APPENDIX T
IN THE SUPERIOR COURT OF FULTON
COUNTY, STATE OF GEORGIA
SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
CIVIL ACTION
FILE NO. 2016CV276036
[Filed: March 24, 2017] [EXCERPT]
-------------DEFENDANTS CELLAIRIS' AND GLOBAL'S
MOTION FOR ATTORNEYS’ FEES AND
EXPENSES AND BRIEF IN SUPPORT
Defendants
Cellairis
Franchise,
Inc.
(“Cellairis”) and Global Cellular, Inc. (“Global”)
(collectively, “Defendants”) move the Court for an
Order awarding Defendants their attorneys’ fees and
expenses incurred in connection with this action. 1
Pursuant to the parties’ written agreements,
Defendants are entitled to recover their attorneys’
fees because they prevailed in this action. Section
13(K) of the Franchise Agreements that were at issue
in this case provides that “[i]n any arbitration or
litigation to enforce the terms of this Agreement, all
costs and all attorneys’ fees (including those incurred
on appeal) incurred as a result of the legal action shall
1

Defendants do not, and in no way intend to, waive the
arbitration clauses contained in the contracts at issue. This
request set forth in this Motion is limited to enforcement of
Defendants’ right to recover attorneys’ fees.

64a
be paid to the prevailing party by the other party.” See
Franchise Agreements (Exhibits 18-21 of Complaint)
§ 13(K). Defendants are entitled to recover their
attorneys’ fees and costs because they prevailed in
this proceeding in enforcing their contractual right to
arbitration. As discussed below, this Court has on
multiple occasions in other matters enforced this
same contractual attorneys’ fees provision in the same
form Franchise Agreement.
Plaintiff Samaca, LLC (“Plaintiff”) filed its
claims in this Court despite having previously agreed
to arbitration clauses that clearly and unequivocally
requires arbitration of these claims. Accordingly,
Defendants requested that Plaintiff dismiss its claims
and re-file them in an arbitration proceeding. When
Plaintiff refused, Defendants were forced to take
formal steps to enforce their contractual arbitration
rights by moving to dismiss and to compel arbitration.
On February 7, 2017, this Court granted Defendants’
motion to dismiss and to compel arbitration and
dismissed this lawsuit. Defendants now seek to
recover their attorneys’ fees and expenses of litigation
pursuant to their express contractual right to do so.
These fees and expenses would have been
unnecessary but for Plaintiff’s disregard of the
arbitration clauses to which it agreed and Plaintiff’s
failure to file these claims in the proper forum.
Alternatively, as discussed below, the Court should
award Defendants their attorneys’ fees and expenses
pursuant to O.C.G.A. § 9-15-14.
PROCEDURAL BACKGROUND
A. Plaintiff Improperly Files Its Claims in
Florida.

65a
This action is not the first time Plaintiff has
filed these claims in an incorrect forum. On March 13,
2015, Plaintiff filed a Complaint in the Circuit Court
of the Eleventh Judicial Circuit in and for MiamiDade County, Florida, seeking to rescind the same
agreements that were the subject of Plaintiff’s claims
in this action. See Plaintiff’s Florida Complaint in
Case No. 15-006018 CA 01 (“Florida Action”)
(attached as Exhibit A). On May 21, 2015, Defendants
filed a motion to dismiss for improper venue and
failure to state a claim in the Florida Action, arguing
primarily that the parties’ contractual arbitration and
forum selection clauses precluded Plaintiff’s pursuit of
the Florida Action. See Plaintiff’s Motion to Dismiss
in Florida Action (attached as Exhibit B). Instead of
dismissing its claims, Plaintiff pursued its claims in
this improper forum, noticed and took an out-of-state
deposition, and noticed a hearing on Defendants’
motion to dismiss, which was set for February 25,
2016. After Defendants’ Georgia counsel, admitted pro
hac vice in the Florida Action, traveled to Florida to
attend the hearing, Plaintiff’s then-counsel 2 advised
Defendants on the morning of the hearing that
“irreconcilable differences” had arisen between
Plaintiff and its counsel and that Plaintiff’s counsel
would be seeking to withdraw from the Florida Action.
See February 25, 2016 E-Mail from Plaintiff’s Counsel
in Florida Action (attached as Exhibit C). As a result,
the hearing on Defendants’ motion to dismiss was
cancelled. Subsequently, nearly a year after filing its
Complaint, on April 28, 2016, Plaintiff voluntarily
dismissed the Florida Action. See Plaintiff’s Notice of

Plaintiff was represented by different counsel in connection
with the Florida Action.

2

66a
Voluntary Dismissal Without Prejudice in Florida
Action (attached as Exhibit D).
B. Plaintiff Re-Files Its Claims in This Court, in
Disregard of the Mandatory Arbitration
Provisions in the Parties’ Contracts.
After forcing Defendants needlessly to incur
attorneys’ fees and expenses in defending the
improperly-filed Florida Action, Plaintiff then,
instead of filing its claims in the correct forum (an
arbitration proceeding), re-filed its claims in this
Court on June 3, 2016. See Complaint. Before filing
any substantive pleadings, counsel for Defendants
contacted counsel for Plaintiff, again informed
Plaintiff that its claims are subject to mandatory
arbitration, and asked whether Plaintiff would
consent to having its claims heard in arbitration.
Plaintiff refused, however, forcing Defendants to
incur further unnecessary costs in litigating over the
proper forum for these claims. See July 23, 2016 EMail from Defendants’ Counsel to Plaintiff’s Counsel
(attached as Exhibit E). Instead of agreeing to
arbitration, Samaca aggressively pursued discovery
and served multiple sets of discovery requests on
Defendants. On August 5, 2016, Defendants filed
their Motion to Dismiss Complaint and to Compel
Arbitration and Memorandum of Law in Support, as
well as an Answer and Affirmative Defenses. After
full briefing, the Court granted Defendants’ Motion to
Dismiss and to Compel Arbitration on February 7,
2017 and dismissed this action in favor of arbitration.
Plaintiff filed a Notice of Appeal of the Court’s
February 7, 2017 Order on February 27, 2017.
ARGUMENT AND CITATION OF AUTHORITY

67a
Based on the plain language of the parties’
contracts, Defendants request that the Court award
them their attorneys’ fees and costs in the amount of
$67,000.78. With this Motion, Defendants submit
detailed evidence establishing that this is the amount
of attorneys’ fees and costs Defendants have incurred
in connection with this action. Defendants have also
submitted evidence establishing the reasonableness of
those fees and costs.
A. Defendants are Entitled to Recover Their
Reasonable Attorneys’ Fees.
1.

The Parties’ Contracts Entitle
Defendants, as the Prevailing
Party, to Recover their Fees and
Costs.

Defendants request that, pursuant to the
parties’ contracts, the Court award them the
attorneys’ fees they have been forced to incur in this
action. The parties’ contracts allow Defendants to
recover their attorneys’ fees in precisely this
circumstance, where Defendants have prevailed in
litigation and enforced a contractual right.
Defendants indisputably sought to enforce a
contractual right in this action — their contractual
right to arbitrate — and Defendants unquestionably
prevailed in this action in enforcing that contractual
right. Therefore, Defendants are entitled to recover
their attorneys’ fees and litigation expenses. Samaca
improperly brought claims in this Court against
Defendants — including claims relating to the four
Franchise Agreements at issue — that were subject to
mandatory arbitration under the Franchise
Agreements. See Franchise Agreements (Exhibits 1821 of Complaint) (the “Franchise Agreements”).

68a
Samaca executed the Franchise Agreements on July
1, 2014. See Complaint ¶¶ 60 n.32, 64, 78, Exs. 18–21;
Affidavit of Jeff Nestinger (filed Oct. 6, 2016; Ex. 1 to
Reply) ¶ 4. As set forth in prior briefing, the Franchise
Agreements contained a comprehensive agreement to
arbitrate, whereby Samaca agreed to arbitrate:
all controversies, claims, or disputes
between Company and
FRANCHISEE
arising out of or relating to: a. This
agreement or any other agreement
between company and FRANCHISEE; b. The
relationship between FRANCHISEE and
Company; The scope and validity of this
Agreement or any other agreement
between Company and FRANCHISEE,
specifically including whether any
specific claim is subject to arbitration at
all (arbitrability questions); and/or d. The
offer or sale of the franchise opportunity
. . . . Any claims by or against any affiliate of
the Company may be joined, in the Company's
sole discretion, in the arbitration.
Franchise Agreements § 13(D)(1) (pp. D-64 – D-65)
(emphasis added). Because Plaintiff failed to adhere
to its contractual obligation to arbitrate the claims in
this case, despite being fully aware of these broad
arbitration clauses, 3 Defendants were forced to seek
to enforce in this action their contractual right to
arbitrate these claims. On August 5, 2016, Defendants
moved to dismiss Plaintiff’s Complaint in its entirety
See July 23, 2016 E-Mail from Defendants’ Counsel to Plaintiff’s
Counsel (attached as Exhibit E).
3

69a
and for an Order compelling arbitration. See Motion
to Dismiss and to Compel Arbitration; see also
Defendants’ Answer and Affirmative Defenses at 3
(¶¶ 5-7), 28 (First Defense). On February 7, 2017, this
Court granted Defendants’ Motion, dismissed
Plaintiff’s claims, and compelled arbitration.
Section 13(K) of each of the Franchise
Agreements provides:
In any arbitration or litigation to enforce the
terms of this Agreement, all costs and all
attorneys’ fees (including those incurred on
appeal) incurred as a result of the legal action
shall be paid to the prevailing party by the
other party. Attorneys’ fees include a charge
for the service of in-house counsel at the
market rate for independent counsel of
similar experience.
Franchise Agreements § 13(K) (p. D-70). 4 Defendants
put Plaintiff on notice of their right and intent to
recover fees for forcing Defendants to enforce their
contractual arbitration right. See Defendants’ Motion
to Dismiss Complaint and to Compel Arbitration at 10
n.6; Defendants’ Answer at 33. Yet, Plaintiff persisted
in pursuing its claims in this improper forum.
In this action, Defendants clearly sought to
enforce their contractual right of arbitration under
the Franchise Agreements. As the Court is aware,
4

Although this provision allows Defendants to seek recovery of
the value of their in-house’s counsel’s time in assisting on this
matter, Defendants do not seek to recover that amount in order
to streamline this request and in order further to demonstrate
the reasonableness of Defendants’ request in this Motion.

70a
Defendants’ primary defense in this action was to
assert their contractual arbitration rights. 5 In
dismissing Plaintiff’s claims, the Court, in fact,
enforced Defendants’ contractual right to arbitration.
Defendants’ enforcement of their contractual right
under the Franchise Agreement was the primary
issue litigated in this action and was the basis on
which this action was resolved. Accordingly,
Defendants sought “to enforce the terms of th[e
Franchise] Agreement[s]” in this litigation, and the
contractual fee provision applies.
Defendants were also clearly the prevailing
party in this action.
Defendants prevailed in
enforcing their contractual arbitration rights, and
the Court granted Defendants’ Motion to Dismiss
and to Compel Arbitration in its entirety and
dismissed Plaintiff’s claims. Thus, Defendants
prevailed entirely in this action. That this Court
did not adjudicate the ultimate merits of Plaintiff’s
claims is not material to Defendants’ fee claim. By
this Motion, Defendants seek to recover only the fees
incurred in this action, not fees for litigating the
ultimate merits, which Defendants will seek to
recover in the arbitration where those issues are
litigated. The primary issue in this action was
arbitration, and Defendants clearly prevailed on
that issue. Plaintiff received none of the relief it
sought in this action. Instead, Defendants prevailed
on the entirety of their request for relief in this action
and received the precise substantive relief they sought
5

Defendants have several other substantive defenses to
Plaintiff’s claims, but asserted them in the alternative in the
event the Court did not grant Defendants’ arbitration motion.

71a
in this action, an Order compelling arbitration and the
dismissal of Plaintiff’s claims. Therefore, even though
Plaintiff can re-file its claims in arbitration,
Defendants prevailed in this action.
Defendants have recently enforced the same
attorneys’ fees provision set forth in Section 13(K) of
the
Franchise
Agreement
under
analogous
circumstances in another matter. On January 26,
2016, an American Arbitration Association arbitrator
ruled that Cellairis and Global were entitled to
recover their attorneys’ fees and expenses under the
same contractual fee provision in a Franchise
Agreement with a different franchisee, in connection
with an arbitration that dealt solely with the issue
of arbitrability and did not address the ultimate
merits of any claims. See January 26, 2016 AAA
Order (attached as Exhibit F) (holding that because
Cellairis and Global prevailed on the question of
arbitrability, 6 they were “entitled to the associated
costs and attorneys’ fees. An award of attorneys’ fees
and costs in this arbitration does not depend on
whether the Claimants ultimately prevail in the
federal action. It is enough, under the clear terms of
the Franchise Agreement, that the Claimants
prevailed in this arbitration action.”). On December
6, 2016, this Court confirmed the arbitration Order
and the attorneys’ fees award. See December 6, 2016
Order in Cellairis Franchise, Inc., et al. v. Michael
Duarte, Civil Action File No. 2016CV276078 (Fulton
Superior Ct.) (Campbell, J.) (attached as Exhibit G)
(holding that the arbitrator had “correctly awarded
[Cellairis and Global] their attorneys’ fees”).
In that case, unlike here, the claims at issue were not subject to
arbitration.

6

72a
Under Georgia law, contracts allowing for an
award of attorneys’ fees and costs to the prevailing
party are enforceable. See Cheeley Invs., L.P. v.
Zambetti, 332 Ga. App. 115, 117, 770 S.E.2d 350, 353
(2015); Discovery Point Franchising, Inc. v. Miller, 234
Ga. App. 68, 73, 505 S.E.2d 822, 826 (1998) (A
franchise agreement that provided that, in the event
of a dispute, the prevailing party would be entitled to
recover reasonable attorney fees and court costs from
the other party was enforceable according to its
terms.). This Court has on multiple occasions enforced
Defendants’ right to recover their attorneys’ fees and
litigation expenses under Section 13(K) of this same
form of Franchise Agreement. See Exhibit G
(December 6, 2016 Order in Civil Action File No.
2016CV276078); August 24, 2015 Order in Cellairis
Franchise, Inc., et al. v. Mobile Mania LLC, et al., Civil
Action No. 2015CV61627 (Fulton Superior Ct.)
(Glanville, J.) (attached as Exhibit H); March 7, 2016
Order in Civil Action No. 2015CV61627 (Fulton
Superior Ct.) (Glanville, J.) (attached as Exhibit I).
For these reasons, the Court should award
Defendants their attorneys’ fees and litigation
expenses pursuant to Section 13(K) of the Franchise
Agreements that Plaintiff executed and that were at
issue in this action.
2. Alternatively, the Court Should Award
Defendants their Fees and Expenses
Pursuant to O.C.G.A. § 9-15-14.
In addition, and alternatively, Defendants are
entitled to recover their fees and expenses pursuant
to O.C.G.A. § 9-15-14. That statute provides, in
pertinent part:

73a
(a)
In any civil action in any court of record
of this state, reasonable and necessary
attorney's fees and expenses of litigation
shall be awarded to any party against whom
another party has asserted a claim, defense,
or other position with respect to which there
existed such a complete absence of any
justiciable issue of law or fact that it could not
be reasonably believed that a court would
accept the asserted claim, defense, or other
position. Attorney's fees and expenses so
awarded shall be assessed against the party
asserting such claim, defense, or other
position, or against that party's attorney, or
against both in such manner as is just.
(b)
The court may assess reasonable and
necessary attorney's fees and expenses of
litigation in any civil action in any court of
record if, upon the motion of any party or the
court itself, it finds that an attorney or party
brought or defended an action, or any part
thereof, that lacked substantial justification
or that the action, or any part thereof, was
interposed for delay or harassment, or if it
finds that an attorney or party unnecessarily
expanded the proceeding by other improper
conduct, including, but not limited to, abuses
of discovery procedures available under
Chapter 11 of this title, the ‘Georgia Civil
Practice Act.’ As used in this Code section,
‘lacked substantial justification’ means
substantially
frivolous,
substantially
groundless, or substantially vexatious.

74a
O.C.G.A. § 9-15-14(a), (b). Plaintiff’s conduct in this
action justifies an award of fees in favor of Defendants
under both O.C.G.A. § 9-15-14(a) and O.C.G.A. § 9-1514(b).
Despite having already once before filed its
claims in an improper forum (Florida state court), and
having been put on notice of Defendants’ arbitration
rights at that time, Plaintiff in this action again filed
its claims in the wrong forum in complete
disregard of the mandatory arbitration clauses (in
fact, between the Franchise Agreements and SubLicense
Agreements eight separate arbitration
clauses) that clearly covered these claims. Because
Defendants have already explained at length in
their prior briefing why the parties’ contracts
clearly require arbitration of these claims,
Defendants, for efficiency’s sake, do not repeat all of
those arguments again here.
In brief, Plaintiff
could not have reasonably believed its claims were
properly brought in Court given that the arbitration
clauses covered not only all claims, controversies, and
disputes arising under any contracts between
Plaintiff and Defendants, but also all claims,
controversies, and disputes arising out of the
relationship between the parties. See Franchise
Agreements § 13(D)(1) (pp. D-64 – D-65); Sub-License
Agreements (Compl., Exs. 22–25) at § 13 (p. E-9). In
addition, the parties’ agreements specifically required
arbitration of the issue of “whether any specific claim
is subject to arbitration at all (arbitrability
questions).” Id. Given this clear and unequivocal
language, Plaintiff could not have reasonably
believed its claims would have succeeded in this
forum. Yet, Plaintiff stubbornly persisted, even after
Defendants asked Plaintiff to consent to arbitration
after Plaintiff filed its Complaint (see Exhibit E),

75a
forcing Defendants to incur additional unnecessary
legal expenses litigating about the proper forum for
these claims, even though the parties’ contracts are
unequivocal on that issue. Plaintiff’s refusal to
recognize Defendants’ clear arbitration rights justifies
an award of fees under both O.C.G.A. § 9-15-14(a) and
O.C.G.A. § 9-15-14(b).
In addition, as the record makes clear,
Plaintiff’s conduct in this proceeding repeatedly
“unnecessarily expanded the proceeding.” O.C.G.A.
§ 9-15-14(b). In this action, Plaintiff, among other
things: (i) filed a 168-paragraph Complaint, which,
including exhibits, totaled 1,118 pages, forcing
Defendants to incur additional expense in answering
Plaintiff’s unnecessarily long pleading; (ii) refused to
consent to arbitration and then aggressively opposed
Defendants’ motion to compel arbitration, without
any legitimate basis; (iii) aggressively sought to
pursue discovery, including on merits issues,
notwithstanding Defendants’ threshold arbitration
defense; (iv) took the unusual and unsupported step of
moving to strike Defendants’ reply brief, even though
reply briefs are routinely filed in this Court and
are not prohibited by any rule; (v) requested the
recusal of the initially-assigned judge; (vi) amended
its Complaint twice; and (vii) filed a meritless
motion to strike portions of Defendants’ opposition to
Plaintiff’s motion to transfer.
Georgia law allows the Court to award a party
its attorneys’ fees and costs when a party takes clearly
meritless positions in litigation or when “the
action, or any part thereof, was interposed for delay
or harassment, or if it finds that an attorney or party
unnecessarily expanded the proceeding by other
improper conduct[.]” O.C.G.A. § 9-15-14(a); O.C.G.A.

76a
§ 9-15-14(b). Plaintiff’s overly aggressive litigation
tactics throughout this action and its repeated
filing of meritless motions and assertion of meritless
legal positions resulted in the significant expansion of
this proceeding, required Defendants to incur
substantial fees to enforce their straightforward
arbitration rights in an action that never should have
been brought in the first place, and warrant an award
of fees under O.C.G.A. § 9-15-14(a) and O.C.G.A. § 915-14(b).
B. Evidence of Defendants’ Attorneys’
Fees and Expenses.
Evidence supporting the amount of the
attorneys’ fees and litigation expenses that
Defendants have incurred in connection with this
action and evidence of the reasonableness of those
amounts is being filed with this Motion. See Affidavit
of Ronald T. Coleman, Jr. (attached as Exhibit J)
(“Coleman Affidavit”); Redacted Copies of Defendants’
Attorneys’ Fees Invoices (attached to Coleman
Affidavit as Exhibit 1).
In total, Defendants have incurred amounts
exceeding $74,000 in connection with their defense of
this action, but seek only $67,000.78 in fees and
expenses in this Motion. See Coleman Affidavit ¶¶ 1820. These fees were incurred, among other things, in
preparing Defendants’ Motion to Dismiss and to
Compel Arbitration and related briefs, preparing an
Answer and Affirmative Defenses to Plaintiff’s
voluminous Complaint, responding to Plaintiff’s
discovery requests and producing documents
(including regarding the arbitration issues), attending
the hearing held in this action, litigating Plaintiff’s
ancillary procedural motions, and preparing this

77a
Motion, which likewise seeks to enforce a contractual
right. Id. ¶ 13. The details and basis for these amounts
are set forth in detail in the attached affidavit and the
fee invoices attached to the affidavit. Those amounts
are reasonable for the work completed. Id. ¶¶ 11, 13,
18.
These fees and expenses would have been
avoidable if not for Plaintiff’s stubborn refusal to
recognize the impact of the binding arbitration
clauses to which it agreed. Moreover, the amount of
attorneys’ fees Defendants have been forced to incur
in this action has been increased because of Plaintiff’s
overly aggressive litigation tactics throughout this
action, which are explained at length in the preceding
section. Plaintiff’s aggressive litigation tactics and
repeated assertion of meritless positions in this action
is further justification for the reasonableness of the
fees and expenses Defendants incurred in defending
this action.
In addition to the overall amount, the hourly
rates charged to Defendants by undersigned counsel,
which are discounted from Defendants’ counsel’s
standard hourly rates, are reasonable. See Coleman
Affidavit ¶¶ 11, 18. In the prior litigation cited above,
both this Court and the AAA arbitrator have
previously granted Defendants’ requests for
attorneys’ fees, thus necessarily finding the rates
charged by undersigned counsel (the same hourly
rates sought here) to be reasonable in other franchise
litigation matters undersigned counsel has handled
for Defendants. See January 26, 2016 AAA Order
(attached as Exhibit F); August 24, 2015 Order in
Civil Action No. 2015CV61627 (Fulton Superior Ct.)
(Glanville, J.) (attached as Exhibit H); March 7, 2016

78a
Order in Civil Action No. 2015CV61627 (Fulton
Superior Ct.) (Glanville, J.) (attached as Exhibit I).
CONCLUSION
For the foregoing reasons, Defendants request
that the Court enter an Order, pursuant to Section
13(K) of the Franchise Agreements, awarding
Defendants their attorneys’ fees and legal expenses in
the amount of $67,000.78, as specified above.
Alternatively, the Court should award Defendants
their attorneys’ fees and expenses pursuant to
O.C.G.A. § 9-15-14. A proposed Order is attached as
Exhibit K for the Court’s consideration.
2017.

Respectfully submitted this 24th day of March,
PARKER, HUDSON, RAINER & DOBBS LLP
/s/ Jared C. Miller
Ronald T. Coleman, Jr.
Georgia Bar No. 177655
Jared C. Miller
Georgia Bar No. 142219
Justin P. Gunter
Georgia Bar No. 969468
*****

79a
APPENDIX U
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
_________
SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
_________
CIVIL ACTION NO. 2016 CV 276036
[Filed April 4, 2017] [EXCERPT]
PLAINTIFF’S VERIFIED RESPONSE AND
REPLY BRIEF TO DEFENDANTS CELLAIRIS’
AND GLOBAL’S MOTION FOR ATTORNEY’S
FEES AND EXPENSES
Plaintiff Samaca, LLC (“Plaintiff”) opposes
Defendants Cellairis’ and Global’s Motion for
Attorney’s Fees and Expenses filed on March 24,
2017. (“Defendants’ Motion”). 1
Contents
*****

Plaintiff objects to any additional briefing or submission of
written evidence by Defendants without leave of court or outside
of a hearing on their motion. See Uniform Superior Court Rules
1.5, 6.1 and 6.2. Throughout this litigation, Defendants have
taken the position that they have unlimited follow-up briefing
rights. Plaintiff requests Court notice of any deviation from
procedure per USCR 1.5.
1

80a
INTRODUCTION
Defendants’ Motion comes after this Court’s
Order on Defendants’ Motion to Dismiss and
Compel Arbitration (the “Order”) entered
February 7, 2016 and Plaintiff’s appeal of the Order
on February 27, 2017. (See Plaintiff’s Notice of
Appeal). The Order dismissed Plaintiff’s action and
held that an arbitrator must decide the “arbitrability”
of Plaintiff’s claims. No merits were decided.
With remarkable irony, 2 Defendants’ Motion
asserts not one, but two, claims related to the same
dispute. Defendants seek litigation expenses under
the disputed Franchise Agreements 3 effective June
30, 2014 (“June 30 Franchise Agreements”)
attached to the Verified Complaint (Exh. 18-21). 4

Betraying their own concern, Defendants declare that by filing
the motion they “do not…waive the arbitration clauses contained
in the contracts at issue.” Defendants Motion (p. 1 n. 1). Yet,
Defendants’ filing in this Court – showing no exception to
arbitrability – is glaringly contradictory and financially
prejudicial to Plaintiff. Defendants essentially say “Even if the
main issue is the same (i.e. the existence of enforceable
agreements), you have to arbitrate, but I don’t.”
3
Once the supersedeas of Plaintiff’s appeal goes into effect under
O.C.G.A. 5-6-46(a), it seems doubtful that the Court could
exercise jurisdiction over this portion of the Defendants’
Motion.
4
The Verified Complaint includes the original Complaint
filed June 3, 2016, First Amendment to Complaint and
Verification filed September 2, 2016, and Second
Amendment to Complaint and Verification field November
8, 2016.
2

81a
Alternatively, they ask for these expenses under
O.C.G.A. § 9-15-14. 5
Judicial estoppel bars the Court from hearing
these claims because they also raise questions of
arbitrability. But even on the merits, these claims
must be denied.
Defendants’ novel “request” for disputed
contract damages
On March 27, 2017, Plaintiff filed Plaintiff’s
Verified Emergency Motion to Treat “Request”
as Counterclaim and to Dismiss the Same.
(“Emergency Motion”). Plaintiff contended that
Defendants’ Motion citing the “request” for
litigation expenses in their original Answer (p. 33)
amounted to a counterclaim. This counterclaim had
matured, if at all, when the Order was entered and
could not be presented without leave of court. Under
9-11-8(c) & (f), Plaintiff asked the Court to treat the
request as a counterclaim and dismiss it. The Court in
its March 29, 2017 order (“March 29 Order”) denied
the Emergency Motion.
However, the Court seemed to recognize that
Defendants’ “request” would involve a claim that had

The Supreme Court of Georgia recognizes that a motion for
attorney’s fees under O.C.G.A. § 9-15-14 may be made during the
pendency of appeal. However, the trial court is “subject to the
peril that a decision which conflicts with that of the appellate
court will be made nugatory.” Fairburn Banking Co. v. Gafford,
263 Ga. 792, 794 (1994).
5

82a
not matured and that Defendants had not raised a
counterclaim: 6
Plaintiff asks the Court to convert
Defendants' request for fees under the
Franchise Agreements into a counterclaim. "A
claim which either matured or was acquired
by the pleader after serving his pleading may,
with the permission of the court, be presented
as a counterclaim by supplemental pleading."
O. C. G.A. § 9-11-13 (e). Here, the pleader is
Defendants and they have not requested
this
request
be
converted
to
a
counterclaim.
March 29 Order (p. 2) (Emphasis added).
Thus, with no counterclaim pending against Plaintiff,
Defendants have no means to recover litigation
expenses on this contractual theory in this Court. The
March 29 Order (p. 2) also stated in relevant part:
Assertion of a counterclaim arising under the
Franchise Agreements would have been at
odds with their argument that all claims
arising from the Franchise Agreements,
including the arbitrability of the claims, are
subject to arbitration.
(Emphasis added).
Defendants point to no authority to recover on
their “request.” Theirs cannot be a motion for
If Plaintiff’s understanding is right, the March 29 Order
solved the “final disposition” problem more efficiently than the
Emergency Motion had proposed.

6

83a
summary judgment on the “request” where no
counterclaim has been presented, nor merits
discovery allowed. 7 “Cases heard on contract where an
issuable defense is filed require trial by jury unless
waived.” Redding v. Commonwealth of America, Inc.,
143 Ga. App. 215 (1977) (reversing the trial court for
holding bench trial on disputed contract claim). The
Verified Complaint (Count I) ¶¶ 1-116 chronicles in
detail why the parties entered into no enforceable
contracts at all. 8 And, critically, Plaintiff demanded a
trial by jury.
I.

PROCEDURAL BACKGROUND
A. Plaintiff’s initial Florida case is only
relevant to show that Defendants
believed litigation in Georgia was
appropriate.

Ignoring the big picture, the Defendants fault
Plaintiff for the initial Florida case where it had
different counsel. But Defendants leave out how they
Under O.C.G.A. 9-11-12(j), merits discovery was automatically
stayed for 90 days upon Defendants’ motion to compel arbitration
on August 5, 2016. The stay was set to expired on November 3,
2016. After defendant moved to continue the stay, the first trial
judge, Hon. Shawn Ellen LaGrua, initially denied Defendants’
motion to stay in an Order dated October 27, 2016. (See
EXHIBIT 1 HERETO). However, one week later, in an Order
dated November 3, 2016, said trail judge recused herself due to
Defendants’ general counsel being her campaign treasurer. In
the same order, without explanation, the trial judge reinstated
the stay as to merits discovery, but allowed venue discovery. (See
EXHIBIT 2 HERETO).
8
Any theoretical counterclaim by Defendants stood
automatically denied under O.C.G.A. § 9-11-12(a).
7

84a
deceived Plaintiff concerning a franchise investment
in that state. Defendants took $350,000 of Plaintiff’s
money, and then wrecked its investment by failing
and refusing to transfer any enforceable franchise
rights. 9 Defendants’ bad faith and misconduct were
the exclusive cause that compelled Plaintiff’s legal
action.
Defendants should have compensated
Plaintiff long ago without a fight either in Florida or
here.
Plaintiff is a “mom & pop” Florida company. 10
The franchise investment and key witnesses were in
Florida. 11 The loss happened in that state. Moreover,
as alleged in the present case, 12 Florida has remedial
investor and consumer protection laws that are not
subject to waiver. 13 Hence, barring special
circumstances, Defendants had reason to expect that
they would be called into a Florida court. In any event,
Defendants cannot seek fees and expenses in this
Verified Complaint (Count I) ¶ 1-116.
The owners are Arnaldo Gonzalez and his wife, Carolina
Troccola Ballester. Verified Complaint ¶ 1.
11 Verified Complaint (Count I) ¶ 1-116.
12 Verified Complaint (Counts III-V).
13 Florida has its own Deceptive and Unfair Trade Practices Act,
Fla. Stat. §§ 501.201 – 501.213 and franchise act, Flat. Stat. §
817.416. Choice of venue and law provisions could not waive
these remedial rights. Management Computer v. Perry
Construction, 743 So. 2d 627 (Fla. 1st DCA 1999); Voicestream
Wireless v. U.S. Communications, 912 So.2d 34 (4th DCA 2005)
(waiver of protections of remedial statute of Florida Franchise
Act, Fla. Stat. § 817.416, was void); accord, Moon v. CSA-Credit
Solutions of America, 304 Ga. App. 555, 696 S.E.2d 486, 488
(2010) (Texas choice of law and venue invalid in so far as they
deprived Georgia residents of statutory protections of O.C.G.A.
§§ 18-5-1 et seq. relating debt adjustment agreements).
9

10

85a
for what happened in Florida, even if venue in
that state was challenged. 15
Yet if the Florida case is relevant, it is to show
Defendants’ own belief that the forum selection
clause (“Forum Selection Clause”) of the Assignment
& Assumption Agreement 16 required litigation in
Georgia. Defendants’ motion to dismiss the Florida
case even quotes the Forum Selection Clause and
states:
Plaintiff's claims in this case against the
Cellairis Defendants are unquestionably
covered by the above forum selection and
arbitration clauses. These clauses, to which
Plaintiff agreed, broadly require the
adjudication of all claims under the
Agreements or arising out of either the
contracts or the relationship between the
parties to be pursued only in Georgia, either
in arbitration or litigation in a Georgia
court (depending on the agreement and
the type of claim).
case 14

Defendants’ Motion (Exh. B, ¶ 20) (Emphasis
added).
If arbitration, and not litigation, was the only
means for deciding this case, Defendants would have
taken a categorical position that arbitration was
inescapable. But they did not.
O.C.G.A. § 9-15-14(a) applies only to “civil actions to any court
of record of this state.”
15
Defendants shows no attempt whatsoever to seek attorney’s
fees in Florida. Plus, the Florida court never ruled on the issue
of venue.
16
Verified Complaint, Exh. 1 (p. 5) (Sec. 11)
14

86a
The arbitration provisions in this case were
anything but “straightforward” 17 At a hearing on
February 25, 2016 in Florida, Defendants’ lead
counsel, Ron T. Coleman, Jr., reiterated Defendants’
candid equivocation:
MR . COLEMAN : Your Honor, may it please
the Court, I'm Ron Coleman. First, let me
thank the Court for me having the
opportunity to appear pro hac vice in this case.
I represent Cellairis and Global. The case
involves one franchisee of my client selling to
another franchisee and a dispute arising out
of that transaction. Our motion originally was
to dismiss because of their forum selection
clauses and arbitration agreements and all of
the relevant agreements that my client has
signed. And although February is a wonderful
time to be here in Miami, we think the case
clearly needs to be litigated or arbitrated,
as the case may be, in Georgia.
(Transcript of Hearing on February 25, 2016, a copy
of which is attached as EXHIBIT “3” HERETO)
(Emphasis added).
Therefore, even in the mind of Defendants’ lead
counsel, there was the distinct prospect that the “case
clearly needs to be litigated” in Georgia. Thus, the
Court should reject Defendants’ contrived indignation
that arbitration was uncontestable. 18
See Defendants’ Motion (p. 10): stating that Defendants
were required “to incur substantial fees to enforce their
straightforward arbitration rights in an action that never should
have been brought in the first place.” (Emphasis added).
18
If Defendants’ had been so certain this case was subject to
arbitration, they could have omitted their Answer (or obtained
17

87a
B. Plaintiff’s lawsuit was objectively
reasonable and compelled exclusively
by Defendants’ bad faith.
In filing this action in Georgia, Plaintiff took a
reasonable and well-founded position. Both
Defendants are Georgia corporations with registered
offices in Fulton County. The Forum Selection Clause
making this Court the “exclusive” 19 forum and venue,
was drafted by Defendants. 20 And Defendants even
agreed 21 not to challenge it. 22 (But they did so
another extension) and only moved to dismiss for lack of
jurisdiction and venue under O.C.G.A. § 9-11-12(b)(1) and (3).
Majeed v. Randall, 279 Ga. App. 679, 681 (2006) (grant of motion
to dismiss obviates need for timely filed answer). That they did
not do so, speaks volumes.
19
The Assignment & Assumption Agreement which contains
the Forum Selection clause was the document with the latest
effective date (September 1, 2014) of all the documents signed by
the parties. The supposedly incorporated arbitration provisions
had effective dates in blank for future negotiation and
conclusion, events that never happened.
20 See Affidavit of Arnaldo Gonzalez, First Amendment to
Complaint and Verification filed September 2, 2016.
21 After filing this action on June 5, 2016, undersigned counsel
had a telephone conversation with Defendants’ counsel, Jared
Miller. In that conversation, on July 14, 2016, Mr. Miller asked
the undersigned counsel what his position was on arbitration.
Undersigned counsel stated the Forum Selection Clause
superseded the arbitration provisions and that the arbitration
provisions were not enforceable. Mr. Miller reacted by saying
“OK, that’s a reasonable argument” or words to that effect.
22 The Forum Selection Clause states in pertinent part: “…the
parties further agree that, in the event of litigation arising out of

88a
anyway). As confirmed by Mr. Coleman’s statements
in open court, this case was not obviously and perforce
required to go to arbitration. Thus, Plaintiff had no
obligation to blithely waive its rights to sue in this
Court.
II. ARGUMENT AND CITATION OF
AUTHORITIES
A. Defendants claim for litigation
expenses must be denied.
1. Defendants are judicially estopped
from seeking disputed attorney’s
and expenses fees in this Court.
Defendants’ self-contradiction is extraordinary.
Defendants are judicially estopped from seeking fees
or expenses anywhere other than in arbitration. This
applies to both claims under the disputed June 30
Franchise Agreements and O.C.G.A. § 9-15-14.
[T]he essential function and justification of
judicial estoppel is to prevent the use of
intentional self-contradiction as a means of
obtaining unfair advantage in a forum
provided for suitors seeking justice. The
primary purpose of the doctrine is not to
or in connection with this Agreement, in these courts, they will
not contest or challenge the jurisdiction or venue of these courts.
The parties expressly consent and submit to the jurisdiction and
venue of these courts, and the parties waive any defenses of lack
of personal jurisdiction, improper venue and forum non
conveniens.” Assignment & Assumption Agreement (Sec. 11)
(emphasis added) (italics in original).

89a
protect the litigants, but to protect the
integrity of the judiciary. The doctrine is
directed against those who would attempt to
manipulate the court system through the
calculated assertion of divergent sworn
positions in judicial proceedings and is
designed to prevent parties from making a
mockery of justice through inconsistent
pleadings.
(Footnote omitted.) Nat. Bldg. Maintenance
Specialists v. Hayes, 288 Ga. App. 25, 26-27 (2007).
Defendants secured the Court’s ruling that
questions of arbitrability are for an arbitrator to
decide. (Order p. 5). Defendants cannot now have it
both ways. Under the doctrine of judicial estoppel, the
Court must deny Defendants’ Motion in its entirety.
See Yates Paving & Grading Co. v. Bryan County, 265
Ga. App. 578, 584 (2004) cert. denied 6/7/2004
(attorney fee counterclaim arising from contract with
arbitration provision was also subject to arbitration).
Defendants’ alternative claim under § 9-15-14 for fees
and expenses would also raise an issue of
arbitrability. 23
Relied on by Defendants, the arbitration provision of Section
13D(1) of the disputed June 30 Franchise Agreements covers:
“all controversies, claims or disputes between
[Cellairis/Global] and FRANCHISEE arising out of or
relating to …[t]his agreement.” …[or] the relationship
between FRANCHISEE and the [Cellairis/Global];
The asserted O.C.G.A. § 9-15-14 attorney’s fees incurred
“relat[e]”to the June 30 Franchise Agreements. Thus, by
judicial estoppel, their arbitrability must be decided by an
arbitrator, not this Court.
23

90a
a) Defendants
are
not
the
“prevailing party” under the
June 30 Franchise Agreements.
But even if Court had decided the June 30
Franchise Agreements were valid, Defendants
cannot recover under Section 13(K), which states:
In any arbitration or litigation to enforce the
terms of this Agreement, all costs and all
attorney’s fees (including those incurred on
appeal) shall be paid to the prevailing party
by the other party. Attorney’s fees include a
charge for the service of in-house counsel at
the market rate for independent counsel of
similar experience.
(Defendants’ Motion p. 5.) (Emphasis added).
The Order did not make Defendants the
“prevailing party.” Rather, it held that “[t]he question
of arbitrability of claims should be submitted to an
arbitrator.” (Order p. 5). In other words, the Court
did not hold the case was actually subject to
arbitration, or that Defendants prevailed on any
substantive claim.
In Foot Solutions, Inc. v. Washio, No. 1:09-cv01207-JOF, 2009 WL 4261213, at *2 (N.D. Ga. Nov.
24, 2009), franchisees invoked the following
contractual provision in seeking attorney’s fees from

91a
franchisor whose declaratory judgment action was
dismissed in favor of arbitration: 24
In the event of any legal or administrative
proceeding between the Franchisor and
Franchisee arising under this Agreement, the
prevailing party shall be entitled to recover
reasonable attorney [sic] fees and court costs
from the other.
Referring to the concept of “prevailing party” in
Sole v. Wyner, 551 U.S. 74 (2007), the court held there
was no “prevailing party” on an order compelling
arbitration. Thus, no attorney’s fees were warranted
because, "[w]hile Defendants here have succeeded in
having Plaintiff's claims turned to arbitration, there
is no information yet on whether Defendants have
achieved more than this procedural victory." See also,
Frazier v. Johnson, 2009 WL 331372 (M.D. Fla. 10,
2009) (Order granting motion to compel on
arbitrability denied attorney’s fees to defendants
because they were not prevailing parties as term
normally used because arbitrator had still not decided
merits of the case).
Defendants’ Motion studiously omitted any
reported cases. Instead, they point to a private
arbitrator award and court orders in a confirmation or
default setting. 25 Defendants do not even bother to
show or discuss the underlying facts of these cases.

As distinguished from our case, Foot Solutions did not indicate
a challenge to the validity of the agreement containing the
arbitration clause.
25
Defendants’ Motion p. 7, Exhibits E, F, G. H, and I. None of
these documents are authenticated. Nor do they show the specific
text of the fee shifting agreements.
24

92a
b) The
June
30
Franchise
Agreements are unenforceable
agreements to agree, lacking
essential material terms.
Plaintiff incorporates by reference the Verified
Complaint (Count I) showing the June 30
Franchise
Agreements
are
unenforceable
agreements-to-agree. Unless and until there is
mutual assent to all essential terms, there is no
complete and enforceable contract. TransSouth
Financial Corp. v. Rooks, 269 Ga. App. 321, 324
(2004). Moreover, “[i]f the contract is unenforceable
for lack of mutual assent, an arbitration clause
contained within the contract is likewise
unenforceable.” Extremity Healthcare, Inc. v. Access
to Care Am, LLC, (A16A1990, Ga. App. Oct. 28, 2016)
citing TransSouth 269 Ga. App. at 324. Thus, any
purported attorney fee provision in the June 30
Franchise Agreement is also unenforceable.
c) Even assuming the June 30
Franchise
Agreements
are
enforceable, the subsequently
effective
Assignment
&
Assumption Agreement controls
and requires that each party bear
its own litigation expenses.
The Assignment & Assumption Agreement,
was made effective September 1, 2014, that is,
subsequent to the June 30 Franchise Agreements.
Under
the
Assignment
&
Assumption

93a
each party 27 agreed to pay its own
respective litigation expenses. Section 13 states:
Agreement, 26

Each party shall bear its own costs and
expenses, including attorney’s fees and
expenses of litigation, in connection with this
[Assignment & Assumption] Agreement.
When the intention of the parties is clear, it shall be
enforced. O.C.G.A. § 13-2-3. There can be no doubt
this phase of the litigation concerned the Assignment
& Assumption Agreement. Further, any ambiguity
in an agreement, must be construed against the
drafter. O.C.G.A. § 13-2-2(5). 28 Defendants were the
exclusive drafters of the Assignment & Assumption
Agreement. They are bound by its terms. They
cannot now seek fees and expenses for the parties’
litigation in connection with said agreement.
Verified Complaint, Exh. 1 (p. 5) Of course, Plaintiff
contends that no enforceable agreements were reached at all in
this case. And it invoked the Forum Selection Clause as an
independent provision. Verified Complaint § 7 n. 1. Equity
Trust Co. v. Jones (A161A0813 (Oct. 19, 2016 Ga. App.).
27
Since Global is also relying on the June 30 Franchise
Agreements for an award of attorney’s fees, it must also bear
the benefits and burdens of the Assumption & Assignment
Agreement. Global is expressly a third-party beneficiary of the
latter. O.C.G.A. § 9-2-20(b), and is an alter ego of Cellairis.
(Verified Complaint ¶§ 6, 13, 14).
28
Affidavit of Arnaldo Gonzalez, attached to First
Amendment to Complaint and Verification filed September
2, 2016. Defendants drafted the Assignment & Assumption
Agreement, the June 30 Franchise Agreements and the
June 30 Sub-License Agreements.
26

94a
2. Defendants motion under O.C.G.A. § 9-15-14
is patently meritless.
a) Plaintiff’s
assertion
of
jurisdiction and venue in this
Court was firmly grounded in
law and fact.
Apart from being judicially estopped (Part III,
A. 1, supra) (pp. 10-11), Defendants’ Motion under
O.C.G.A. § 9-15-14 has no basis whatsoever. Plaintiff’s
claims asserting jurisdiction and venue in this Court
are objectively reasonable. As shown above, until
recently, even Defendants’ counsel could only
equivocate on whether the Forum Selection Clause or
the arbitration provision would apply. Arbitration
was by no means the only and incontestable forum for
deciding this case. And any confusion on the proper
forum was created exclusively by Defendants who
drafted the conflicting documents.
Separately, Defendants, not Plaintiff, had the
burden of showing that jurisdiction and venue lay
elsewhere. “In Georgia, a defendant who files a motion
to dismiss for lack of personal jurisdiction has the
burden of proving lack of jurisdiction.” Home Depot
Supply v. Hunter Management, LLC, 289 Ga. App.
286 (2008). Also, any disputed facts are resolved in
favor of the party asserting the existence of personal
jurisdiction. Alcatraz Media, LLC, v. Yahoo! Inc., 290
Ga.App. 882, 883-4 (2008). Further, jurisdiction,
venue and arbitration are waivable. O.C.G.A. §§ 9-118(c) and 12(b); SunTrust Bank v. Lilliston, 338 Ga.
App. 738, 791 S.E.2d 614 (2016) (arbitration waivable)
Moreover, having agreed to the Forum
Selection Clause, Defendants were required to show
that “enforcement would be unreasonable under the

95a
circumstances.” Laibe Corp. v. Gen. Pump & Well,
Inc., 317 Ga. App. 827, 832 (2013). To boot, the Forum
Selection Clause “should be upheld absent a
compelling reason such a fraud, undue influence, or
overweening bargaining power.” Constructores
Asociados de Vivienda y Urbanización S.A. de C.V. v.
Bennet Motor Express, 308 Ga. App. 67, 69 (2011)
(emphasis added).
If that were not enough, the question of
arbitrability required that Defendants show by “clear
and unmistakable evidence that the parties agreed
to arbitrate the issue of arbitrability.” Extremity
Healthcare, Inc. v. Access to Care Am., LLC,
(A16A1900) (Oct. 28, 2016) n. 1 citing Panhandle Fire
Protection v. Batson Cook Co., 288 Ga. App. 194,
197(1)(b). (2007) (emphasis added). 29
With these exacting requirements for
objections to venue -- not to mention the contradictory
transaction documents that Defendants themselves
drafted -- the motion for litigation expenses under
O.C.G.A. § 9-15-14 is no less than startling.
b) Plaintiff did nothing to expand
this proceeding or take any
other unreasonable position.
Lacking affidavits about the specific conduct at
issue, Defendants’ Motion (p. 10) recites seven
examples, labeled “(i) – (vii),” of supposedly frivolous
litigation. Because Defendants do not support these
Respectfully, this is one important part of the Order with error
that shall be addressed in Plaintiff’s appeal. The Order (p. 5)
erroneously placed the burden on Plaintiff to show “a clear
expression of the parties” that the Forum Selection Clause
“supersede[d]” the arbitration provisions.
29

96a
disputed assertions with any factual detail, the Court
should disregard them entirely. 30
Yet, taking the first five in order, Plaintiff
responds to each one:
(i)
Defendants’ protests about the length of
the complaint are contrived. 31 The Verified
Complaint involves complex and fatally defective
transaction documents consisting of approximately
1,000 pages drafted by Defendants. Because these
concern a franchise investment, the transaction is
intricately regulated by federal law. 32 Georgia courts
have only recently started to develop experience with
the tort aspects of federal franchise regulation. See
Legacy Academy v. Mamilove, LLC, 761 S.E.2d 880,
892 (Ga. App. 2014) rev’d on other grounds, 297 Ga. 15
(2015). This Court recognized the complexity when it
granted Plaintiff’s motion to transfer the action to the
Business Case Division. (See Order Transferring
Case to Business Case Division entered December
20, 2016). 33
Defendants make their § 9-15-14 motion solely against Plaintiff
and not its counsel. This is scant consolation. Professional
reputations are fragile and can be easily tarnished even by
scurrilous associated claims.
31
Given Defendants professed certainty on the arbitration
provisions, they should have forgone the answer and only moved
to dismiss for lack of jurisdiction and venue under O.C.G.A. § 911-12(b)(1) & (3).
32
16 Code of Federal Regulations Part 436, provides a basis for
tort claims under O.C.G.A. § 51-1-6. Legacy, supra.
33
Defendants’ Motion essentially asks this Court to sanction
Plaintiff for reasonably opposing a transfer of this case to
arbitration. If this is sufficient reason for sanctions, then
Defendants must be sanctioned as well for their failed opposition
30

97a
(ii)
Plaintiff’s refusal to consent to
arbitration was reasonable. Plaintiff incorporates by
reference its argument from Part III, A, 2 a) (pp. 1517).
(iii) Plaintiff
pursued
discovery
appropriately, and Defendants’ vague suggestion to
the contrary is simply unsubstantiated and false. Any
merits discovery was served on July 23, 2016 34 before
Defendants moved to compel arbitration on August 5,
2016. And Plaintiff did not pursue merits discovery
during the stay.
(iv) Plaintiff’s Motion & Brief to Strike
filed October 7, 2016 was granted in part, although on
different grounds. The Order (p. 6 n. 1) disregarded
the two affidavits submitted with the Defendants’
late-filed reply brief 35 on their motion to compel
arbitration. Importantly, Defendants’ objectionable
21-page reply brief came 62 days after their opening
brief. They did not seek leave of court to exceed the
briefing provided in Uniform Superior Court Rules
(USCR) 1.5, 6.1 and 6.2. Interpreting USCR 25.1, the
Supreme Court of Georgia teaches that the USCR
must be read restrictively. See Post v. Fripp 298 Ga.
241, 252 n. 2 (2015) (Because USCR 25.1 does not
provide for amending an affidavit to recuse, no such
amendment is permitted). Briefs beyond what is
to Plaintiff’s motion to transfer this case to the Business Case
Division. See Defendants’ and Global’s Opposition to
Motion to Transfer Case to the Business Case Division
filed November 28, 2016.
34
See Plaintiff’s Certificates of Service of Discovery filed on
said date.
35
See Defendants Cellairis’ and Global’s Reply in Support
of Motion to Dismiss Complaint and to Compel
Arbitration filed October 6, 2016.

98a
permitted in USCR 6.1 & 6.2 require leave of court. It
is that simple, and it makes sense. 36
(v)
However, Defendants’ most disturbing
accusation is that Plaintiff somehow acted improperly
when on November 2, 2016 the initial trial judge
disclosed without advance notice to Plaintiff a
potential conflict. (See Hearing Transcript dated
November 2, 2016 filed on February 21, 2017). 37 This
conflict was that Defendants’ general counsel, Jason
Adler 38 was, and had been for several years, the
If any party unnecessarily expanded these proceedings, it was
Defendants who believed they were entitled to endless and
redundant briefing on every issue. See Defendants filed multiple
briefs regarding Defendants’ Motion to Stay Discovery filed
October 20, 2016, before the order on October 27, 2016 denying
their effort to extend the automatic stay of discovery. See Reply
in Support of Defendants’ Cellairis’ and Global’s Motion
to Stay Discovery and for Protective Order filed Oct. 25,
2016 and Defendants Cellairis’ and Global’s Response to
Plaintiff’s Objection to Reply Brief filed Oct. 26, 2016.
37
The disclosure occurred 147 days after Defendants accepted
service of the complaint on June 6, 2016; see Stipulation
Regarding Acceptance of Service filed June 8, 2016; and 89
days after Defendants moved to compel arbitration on August 5,
2016.
38
Shown in Defendants’ billing records starting June 6, 2016 (Exhibit 1 to
Mr. Coleman’s affidavit, Defendants Motion, Exh. J), Defendants’
counsel was in regular communication with Mr. Adler about this
case. Thus, Defendants should have known of the trial judge’s
potential conflict before the judge first disclosed it to Plaintiff on
November 2, 2016. See electronic mail by Jared Miller dated
October 25, 2016 attached as EXHIBIT 5 HERETO advising the
judge’s staff attorney, Elizabeth Baum: “Mr. Adler would also
like to attend the hearing [on November 2, 2016].” Thus, at
least by October 25, Mr. Adler knew of the potential conflict, and
36

99a
judge’s re-election campaign treasurer. The next day,
without moving to recuse, Plaintiff informed the judge
and all parties by electronic mail of the Supreme
Court of Georgia’s decision in Post v. (State) Fripp 298
Ga. 241 (2015) (judge was required to recuse from case
involving his re-election campaign treasurer). A true
and correct copy of Plaintiff’s counsel’s email is
attached as EXHIBIT 4 HERETO. After receiving
this information, the initial judge voluntarily recused.
See Order of Recusal entered November 3, 2016.
(EXHIBIT 2 HERETO)
And Defendants want this Court to impose
attorney’s fees and expenses on Plaintiff even when
its position is supported by the judge and the Georgia
Supreme Court. 39

neither he nor Defendants disclosed it to Plaintiff before the
November 2, 2016 hearing. Had Plaintiff learned of this conflict
at the start of the case, Plaintiff would have asked for the initial
trial judge’s recusal, which was entirely justified under Post v.
Fripp 298 Ga. 241 (2015). Then, Plaintiff would have
immediately sought transfer to the Business Case Division to
expedite this case. Any delay in this case was Defendants’ fault.
39
The last two are hardly worth mentioning: (vi) Involves
Plaintiff having twice amended its complaint, as was its right
under O.C.G.A. Sec. 9-11-15(a). Defendants offer no explanation
about why this was improper. (vii) Refers to Plaintiff’s Motion
& Brief to Strike Portions of Defendants Cellairis’ and
Global’ Opposition to Motion to Transfer Case to Business
Case Division filed December 21, 2016. Plaintiff rightfully
objected to Defendants’ redundant argument about arbitration
included in opposition to Plaintiff’s Motion to Transfer Case
to Business Case Division filed November 7, 2016, a motion
that was granted. See Order Transferring Case to Business
Division entered December 20, 2016.

100a
Respectfully, Defendants’ O.C.G.A. § 9-15-14
motion is disappointing and unworthy of the talent
and experience of Defendants’ counsel.
B. Defendants claimed fees and expenses
are excessive and not allocated to the
time spent on the arbitration provision
or the supposedly offending conduct
under O.C.G.A. § 9-15-14.
Defendants’ claimed litigation expenses of $67,000.78
are clearly excessive and mostly unpaid. 40 Defendants
overstaffed this case with three attorneys when it
supposedly involved a “straightforward” arbitration
provision. 41 Also, Defendants make no showing
whatsoever of the attorney’s fees and expenses
attributable to enforcing arbitration provisions. 42 And
they do not allocate expenses to the specific conduct
that supposedly justifies any award under O.C.G.A. §
9-15-14. Duncan v. Cropsey, 210 Ga. App. 814, 815816, 437 S.E.2d 787 (1993).
Notably, Defendants have apparently paid only $25,352.99
and balked in paying the rest of their attorneys’ invoices. See p.
3 of invoice dated December 31, 2016 (showing payments of
$25,352.99) and p. 2 of invoice dated February 28, 2017 (showing
$48,984.50 due) attached as Exhibit 1 to Mr. Coleman’s affidavit
(Defendants’ Motion, Exh. J).
41
Plaintiff is represented by one attorney in this action.
42
Defendants do not distinguish between Cellairis and Global
regarding the latter’s participation in the disputed June 30
Franchise Agreements provisions. Since Defendants maintain
that Global and Cellairis are legally separate, no contractual
basis is shown for Global’s recovering any fees. Thus, at least half
the claimed fees have no basis.
40

101a
A cursory review of Mr. Coleman affidavit
(Defendants’ Motion, Exh. J p. 5) shows that
Defendants even seek to recover fees and expenses for
“(xix) attending an in-person settlement meeting with
counsel for [Plaintiff]” 43 as well as on matters in which
Plaintiff “prevailed.” 44
If Cellairis is entitled to any litigation expenses as
a putative “prevailing party” (a status Plaintiff
denies), these are limited to the time spent only on its
opening motion and brief to dismiss field on August 5,
2016. 45 Time spent on the Answer, excessive follow-up
briefing, and any other collateral matters not
concerning the enforcement of the arbitration
provision must be denied. 46
Defendants’ counsel even seek more than $2,000 in fees for
time on November 2, 2016 (See Exhibit 1 to Coleman affidavit)
for discussions with Jason Adler concerning the initial judge’s
recusal, a matter that they could have avoided by Defendants’
making an early disclosure in the case. Given the conflict that
Defendants knew existed with the initial trial judge (which they
should have immediately disclosed), the delay and extra
proceedings are attributable to Defendants.
44
See Order entered October 27, 2016 denying Defendants’
motion to extend stay of discovery, and Order entered December
20, 2016 granting Plaintiff’s motion to transfer this case to
Business Case Division.
45
This amount would be something less than $5,320 (1/2 of
$10,640), the total amount allegedly incurred through August 5,
2016 by Cellairis that may relate to the motion to compel
arbitration. Global’s portion is unrecoverable since Defendants
cite no contract document and maintain that Global is a separate
entity.
46
The time entries attached to Mr. Coleman’s affidavit are
hopelessly redacted. A table showing the entries with identifiable
43

102a
Lastly, Plaintiff requests the right to crossexamine Mr. Coleman and any other relevant witness
on Defendants’ Motion.
III.

CONCLUSION

The Court should deny Defendants’ Motion.
This 3d day of
April, 2016.

D. R. MARTIN, LLC
By: /s/ David R. Martin
David R. Martin
Georgia Bar # 474761
5200 Peachtree Road, Suite
3116
Atlanta, Georgia 30341 Tel.
(770) 454-1999
*** COUNSEL FOR
PLAINTIFF
SAMACA, LLC

litigation expenses that may concern Defendants’ opening
motion to compel arbitration and the remaining unidentifiable
and/or unrelated fees is attached as EXHIBIT 6 HERETO.

103a
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
_________
CIVIL ACTION NO. 2016 CV 276036
VERIFICATION
I, David R. Martin, counsel to Plaintiff in the
above action, make these statements based on
personal knowledge and under oath. The facts alleged
in PLAINTIFF’S VERIFIED RESPONSE AND
REPLY BRIEF TO DEFENDANTS CELLAIRIS’
AND GLOBAL’S MOTION FOR ATTORNEY’S
FEES AND EXPENSES are true and correct.
/s/ David R. Martin
David R. Martin
Sworn and subscribed before me
This 3d day of April 2017
/s/ Martha Rodriguez
_________________________
(SEAL)
NOTARY PUBLIC

104a
APPENDIX V
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
_________
SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
_________
CIVIL ACTION NO. 2016 CV 276036
[Filed: November 6, 2017]
PLAINTIFF’S REQUEST FOR HEARING ON
DEFENDANTS MOTION FOR ATTORNEY’ S
FEES & EXPENSES
Plaintiff Samaca, LLC requests a hearing on
Defendants Cellairis’ and Global’s Motion for
Attorney’s Fees and Expenses filed on March 24,
2017 (“Defendants’ Motion”). The last written
submission on this motion was filed on April 19,
2017. 1 Hence, the matter has been pending without
decision or hearing for 201 days. 2

1

See Plaintiff’s Conditional Sur-Reply to Defendants’

Reply in Support of Motion for Attorney’s Fees &
Expenses.
2

By letter to the Court dated June 1, 2017, Plaintiff’s counsel

requested a hearing on the motion at the “earliest opportunity.”
(A copy of said letter without enclosures is attached as EXHIBIT

105a
While Plaintiff Samaca appealed the order
dismissing the action on February 7, 2017 3 the Court
continues to have jurisdiction to decide Defendants’
Motion under O.C.G.A. § 9-15-14. Fairburn Banking
Co. v. Gafford, 263 Ga. 792, 794 (1994). Deciding this
matter without further delay comports with the
Georgia Supreme Court’s stated preference for
deciding motions under O.C.G.A. § 9-15-14 "while the
trial court's memory of events is still fresh." Fairburn
Banking Co., 263 Ga. at 794. Further, Defendants’
Motion casts a pall on Plaintiff and its counsel, who
will prove that Defendants’ Motion itself frivolous,
vexatious, and presented for an improper purpose. 4
Regarding the part of the Defendants’
Motion that seeks attorney’s fees under the disputed
June 30 Franchise Agreements, 5 the Court lacks
jurisdiction

“A” HERETO). Generally, motions should be decided within 90
days “after the same have been argued…or submitted...without
argument.” O.C.G.A. § 15-6-21(b).
See Notice of Appeal filed February 27, 2017. The appeal was
docketed to the August 2017 term with a decision expected on
March 16, 2018. Georgia Court of Appeals Docket # A17A1715.
http://www.gaappeals.us/docket

3

A notice of abusive litigation served on Defendants’ counsel is attached
as EXHIBIT “B” HERETO.

4

Defendants’ Motion pp. 1-8. To be sure, Defendants admitted,
and the Court affirmatively decided that this portion of
Defendants’ Motion did not constitute a counterclaim in this
action. See Order Denying Plaintiff’s Verified Emergency
Motion and Brief for Court to Treat “Request” for
5

106a
and authority on the same because it dismissed this
action 6 See Montgomery v. Morris, 322 Ga.App. 558,
560 & n. 2 (2013) (“The dismissal of a lawsuit
generally deprives the trial court of jurisdiction to
take further action in a case. An exception…exists for
attorney fee motions pursuant to OCGA § 9-15-14.”
[footnote partially subsumed in quote]. On the merits,
Defendants’ Motion is frivolous as well.
WHEREFORE, Plaintiff Samaca respectfully
requests that Defendants’ Motion under O.C.G.A. §
9-15-14 be set for a hearing at the next available
hearing date.
Respectfully submitted, this 6th day of November
2017.
D. R. MARTIN, LLC
By: /s/ David R. Martin
David R. Martin
*****
COUNSEL FOR
PLAINTIFF
SAMACA, LLC
*******

Attorney’s Fees and Expenses as Counterclaim and
Dismiss the Same (p. 2) dated March 29, 2017 and Defendants
Cellairis' And Global's Reply in Support of Motion for
Attorneys’ Fees and Expenses (pp. 3-4) filed April 12, 2017.
This is independent from any lack of jurisdiction because of the
supersedeas effect of Plaintiff’s appeal of the February 7 Order.
O.C.G.A. § 5-6-46(a).

6

107a
APPENDIX X
IN THE SUPERIOR COURT OF FULTON
COUNTY
BUSINESS CASE DIVISION
STATE OF GEORGIA
-----------SAMACA,
LLC,
Plaintiff,
v.
CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC., and
CELL PHONE MANIA, LLC, Defendants
_________
Civil Action File No. 2016CV276036
Bus. Ct. Div. 1
[Date: December 5, 2017]
ORDER ON PLAINTIFF'S REQUEST FOR
HEARING
The above styled matter is before the Court on
Plaintiffs Request for Hearing on Defendants [sic]
Motion for Attorney's Fees and Expenses ("Plaintiffs
Request for Hearing"). Therein Plaintiff asks the
Court to schedule a hearing at the next available
hearing date on Defendants Cellairis' and Global's
Motion for Attorneys' Fees and Expenses (Defendants'
"Motion for Fees").
On Feb. 7, 2017, the Court entered an order
granting Defendants' Motion to Dismiss Complaint
and to Compel Arbitration. Thereafter, on Feb. 27,
2017, Plaintiff filed a Notice of Appeal of that order.
On Mar. 24, 2017, Defendants filed their Motion for
Fees, seeking an award of their attorneys' fees and
expenses incurred in connection with this action
pursuant to: (1) a “prevailing patty" provision of the

108a
Franchise Agreements at issue in this action 1; or (2)
alternatively, pursuant to O.C.G.A. §9-15-14. On Apr.
28, 2017, the record was transmitted to the Court of
Appeals of Georgia and the appeal was docketed on
May 18, 2017.
Given the current procedural posture of this
case as under appellate review and the grounds upon
which Defendants contend they are entitled to their
fees and expenses as stated in their Motion for Fees,
including the "prevailing party" provision in the
subject Franchise Agreements, the Court hereby
RESERVES RULING on Defendants' Motion for Fees
and, at this time, DENIES Plaintiff's Request for
Hearing until the conclusion of the appeal.
SO ORDERED this 5th day of December, 2017.
Signature
JOHN J. GOGER, JUDGE ON BEHALF OF ALICE
D. BONNER, SENIOR JUDGE
Superior Court of Fulton County
Business Case Division
Atlanta Judicial Circuit

1

See Franchise Agreements, § 13(K).

109a
APPENDIX Y
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
_________
SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
_________
CIVIL ACTION NO. 2016 CV 276036
[Filed: November 26, 2018].
PLAINTIFF’S MOTION TO COMPEL
ARBITRATION
OF DEFENDANTS CELLAIRIS’ AND
GLOBAL’S MOTION FOR ATTORNEYS’ FEES
AND EXPENSES
Plaintiff Samaca, LLC (“Plaintiff” or “Samaca”)
moves to compel arbitration of Defendants
Cellairis’ and Global’s Motion for Attorney’s
Fees and Expenses filed on March 24, 2017.
(“Defendants’ Motion”).
In addition to the arguments made herein,
Plaintiff incorporates by reference the arguments and
authorities raised in Defendants' Motion to
Dismiss Complaint and to Compel Arbitration
And Memorandum of Law in Support filed
August 5, 2016 and Defendants Cellairis' and
Global's Reply in Support of Motion to Dismiss
Complaint and to Compel Arbitration filed
October 6, 2016.

110a
SUMMARY
Now that the Georgia Court of Appeals has
ruled that an arbitrator must decide questions of
arbitrability in this case, this court is bound by this
ruling under O.C.G.A. 9-11-60(h). Thus, an arbitrator,
not the Court, must decide whether “all controversies,
claims or disputes” raised by Defendants’ Motion
are arbitrable. Defendants are otherwise judicially
estopped from having this Court and not an arbitrator
decide the arbitrability of Defendants’ Motion.
I.
BACKGROUND AND DISCUSSION
A. Samaca’s lawsuit filed in this Court.
On June 3, 2016, Plaintiff filed a complaint
against Defendants concerning a botched franchise
transaction. Asserting eight counts and the right to
trial by jury, 1 Samaca contends that no valid
agreement at all exists between the parties.
In its original complaint, Plaintiff expressly
invoked the forum selection clause (“Forum
Selection Clause”) in the Assignment &
Assumption Agreement 2 “as a separate and
severable provision” without ratifying the validity of
any agreement between the parties. Complaint ¶ 7
& fn 1. The Forum Selection Clause stated in
pertinent part as follows:
The parties acknowledge and agree that
the Georgia State Courts for Fulton
County, Georgia, or if such court lacks
Plaintiff amended the complaint on November 8, 2016 to add
the eight count for equitable rescission based on nonperformance.

1

Unless otherwise specified, capitalized bold terms have the
same meaning used in Plaintiff’s Complaint filed June 5, 2016.

2

111a
jurisdiction, the U.S. District for the
Northern District of Georgia, shall be the
sole and exclusive venue and sole and
exclusive proper forum in which to
adjudicate any case or controversy
arising either, directly or indirectly,
under or in connection with this
Agreement and the parties further agree
that, in the event of litigation arising out
of or in connection with this Agreement
in these courts, they will not contest or
challenge the jurisdiction or venue of
these courts. The parties expressly
consent and submit to the jurisdiction
and venue of these courts, and the
parties waive any defenses of lack of
personal jurisdiction, improper venue
and forum non conveniens.[3]
B. Defendants original motion to compel
arbitration.
On August 5, 2016, Defendants moved to
compel arbitration by citing arbitration provisions in
the June 30 Franchise Agreements and June 30
Sub-License Agreements. These arbitration
provisions respectively read in relevant part:
(1) Claims subject to arbitration. Subject to
Paragraph 13.D.2, the parties
agree that all controversies, claims, or
disputes between [Cellairis] and
[Samaca] arising out of or relating to:
Assignment & Assumption Agreement, Sec. 11,
Complaint, Exhibit 1. Samaca’s limited invocation of the
Forum Selection Clause preserved its claims for rescission
and its contention that no valid agreement exists at all.

3

112a
a. This Agreement or any other
agreement between [Cellairis] and
[Samaca];
b. The relationship between
[Cellairis] and [Samaca];
c. The scope and validity of this
Agreement or any other agreement
between [Cellairis] and [Samaca],
specifically including whether
any specific claim is subject to
arbitration at all (arbitrability
questions); and/or
d. The offer or sale of the franchise
opportunity
will be subject to arbitration to be
administered by the American Arbitration
Association (“AAA")….
June 30 Franchise Agreements, Sec. 13 D.
Complaint, Exhibits 18, 19, 20, 21 (pp. 65-66)
(Emphasis added).
Claims Subject to Arbitration. Except as
otherwise provided herein, the parties
agree that all controversies, claims, or
disputes between [Global] and [Samaca]
arising out of or relating to:
a. This Agreement or any other
agreement between [Global] and
[Samaca];
b.
The
relationship
between
[Samaca] and [Global];
c. The scope and validity of this
Agreement or any other agreement
between [Global] and [Samaca],
specifically including whether
any specific claim is subject to

113a
arbitration at all (arbitrability
questions); and/or
d. Any agreement relating to the
purchase of products or services by
[Samaca] from [Global]
will be subject to arbitration to be
administered by the American Arbitration
Association (“AAA")….
June 30 Sub-License Agreements, Complaint
Exhibits 22, 23, 24, 25 (pp. 9-10) (Emphasis added).
After noting that each arbitration
provision contained a “Delegation Provision,” the
court held: “[t]he question of arbitrability of the
claims raised against [Defendants] should be
submitted to an arbitrator.” 4 Thus, without
deciding the merits, trial court granted
Defendants’ motion to compel arbitration and
dismissed the complaint. The trial court
subsequently ruled that no counterclaim by
Defendants is pending in this case. 5
On February 28, 2018, the Court of Appeals
affirmed the trial court. Samaca, LLC v. Cellairis
Franchise, Inc., 813 S.E.2d 416, 345 Ga. App. 368
4

Order dated February 7, 2017 pp. 2, 5.

Order dated March 29, 2017 pp. 2-3. This is an important
ruling. Otherwise the Court of Appeals would not have had
jurisdiction in Samaca’s direct appeal. O.C.G.A. § 5-6-34(a). In
addition, a pending counterclaim would have given Samaca
rights to discovery under O.C.G.A. § 9-11-26 and a trial by jury
under O.C.G.A. § 9-11-38 in this fact-intensive case. As noted
below, the portion of Defendants’ Motion founded on Section
13(K) of the disputed June 30 Franchise Agreements is
procedurally and jurisdictionally flawed.
5

114a
(2018) (physical precedent only). The Court of Appeals
held in pertinent part:
[T]he arbitration agreements at issue in
this case include a "delegation provision"
e.g., an agreement to arbitrate threshold
issues concerning the arbitration
agreement. The delegation provision
clearly
assigns
responsibility
for
resolving "whether any specific claim is
subject to arbitration at all (arbitrability
questions)" to the arbitrator. "[J]ust as
the arbitrability of the merits of a
dispute depends upon whether the
parties agreed to arbitrate that dispute,
so the question who has the primary
power to decide arbitrability turns upon
what the parties agreed about that
matter."
Id. 420. (Citations omitted)
On October 22, 2018, the Supreme Court of
Georgia denied Samaca’s petition for certiorari.
Hence, under O.C.G.A. 9-11-60(h), 6 the Court of
Appeals’ ruling concerning the arbitrability
“delegation provision” binds this Court. Moreover,
Defendants are judicially estopped from submitting
questions of arbitrability to this Court. See Nat. Blg.
Maintenance Specialists v. Hayes, 288 Ga. App. 25,
26-27 (2007) (“[T]he essential function and
justification of judicial estoppel is to prevent the use

Stating in pertinent part: “any ruling by the Supreme Court or
the Court of Appeals in a case shall be binding in all subsequent
proceedings in that case in the lower court….”
6

115a
of intentional self-contradiction as a means of
obtaining an unfair advantage….”)
C. Defendants’ Motion for attorneys’ fees.
Defendants’ Motion was filed after Samaca’s
notice of appeal on February 27, 2017. It seeks legal
expenses under Section 13(K) of the disputed June 30
Franchise Agreements (the “Section 13(K)
Request”) 7 and, alternatively, under O.C.G.A. § 9-1514.
Both grounds for Defendants’ Motion raise
arbitrability questions that only an arbitrator, not a
court, must decide.
1. The Section 13(K) Request.
Regarding the Section 13(K) Request, 8
Defendants’ right to recover depends on the validity of
the June 30 Franchise Agreements. If these
agreements are invalid, then Defendants cannot
Citing Montgomery v. Morris, 322 Ga. App. 558, 560 (2013).
Samaca has already noted that the Court lacks jurisdiction over
the Section 13(K) Request since the trial court dismissed the case
on February 7, 2017. See Supplement To Plaintiff’s Verified
Motion [sic] And Reply To Defendants Cellairis’ And
Global’s Motion For Attorney’s Fees And Expenses (p. 2)
filed October 24, 2018. Not knowing how this Court will rule on
jurisdiction, Samaca moves to compel arbitration regarding this
portion of Defendants’ Motion as well.
7

Section 13(K) of the June 30 Franchise Agreements states:
“In any arbitration or litigation to enforce the terms of this
Agreement, all costs and all attorney’s fees (including those
incurred on appeal) incurred as a result of the legal action shall
be paid to the prevailing party by the other party. Attorneys’ fees
include the charge of in-house counsel at the market rate for
independent counsel of similar experience.”
8

116a
recover anything under their terms. 9 Hence, this
concerns a dispute “arising out of or relating to…The
scope and validity of this Agreement or any other
agreement [between the parties], specifically
including whether any specific claim is subject to
arbitration at all (arbitrability questions)” At
Defendants’ behest, the trial court and now the Court
of Appeals have compelled arbitrability questions to
an arbitrator. Since the Section 13(K) Request also
raises arbitrability questions, it, too, must be
compelled to arbitration. 10
2. The O.C.G.A. § 9-15-14 request.
Similarly, Defendants’ statutory request under
O.C.G.A. § 9-15-14 for abusive litigation against
Samaca also raises arbitrability questions. It, too,
concerns a dispute “arising out of or relating to…The
scope and validity of this Agreement or any other
agreement [between the parties], specifically
including whether any specific claim is subject to
arbitration at all. (arbitrability questions).”
The procedural absurdity of Defendants’ Section 13(K) Request
should be evident. How can Defendants with no counterclaim
pending recover by “motion” under a disputed contract when its
validity has not been adjudicated? And how can Defendants do
so while ignoring the opposing party’s right to discovery and a
jury trial in this fact-intensive case?
9

Defendants may argue that their Section 13(K) Request falls
under an exception for claims “based on FRANCHISEE’s failure
to pay any money due under this Agreement, any agreement
with Global Cellular, or any unpaid invoices owed to Global
Cellular when due.” June 30 Franchise Agreements, Section
13(D)(2)(v). See similar provision in June 30 Sub-License
Agreement, Sec. 13 p. E-10. Of course, this argument must also
be remitted to an arbitrator since Samaca challenged the validity
all agreements with Defendants. Complaint (Counts I – VIII).
10

117a
A court’s duty to “rigorously enforce”
arbitration provisions extends to claims based on
statutory rights. Shearson/Am. Express Inc. v.
McMahon, 482 U.S. 220, 226 (1987); Mitsubishi
Motors Corporation v. Soler Chrysler, 473 U.S. 614
(1985) (compelling arbitration of statutory antitrust
claims even though these were not mentioned in
arbitration provision).
Hence, this Court may not decide whether
Defendants’ abusive litigation motion under O.C.G.A.
§ 9-15-14 is arbitrable. Under the arbitrability
“delegation provision,” only an arbitrator may decide
this question.
II.
CONCLUSION
The Court must compel arbitration of
Defendants’ Motion to decide whether “all
controversies, claims or disputes” raised therein are
arbitrable.
This 26th day of
November 2018.

D. R. MARTIN, LLC
By: /s/ David R. Martin
David R. Martin
***** FOR PLAINTIFF
SAMACA, LLC

118a
APPENDIX Z
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
_________
SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
_________
CIVIL ACTION NO. 2016 CV 276036
[Filed: January 11, 2019]. [EXCERPT]
PLAINTIFF’S REPLY TO DEFENDANTS’
OPPOSITION TO SAMACA’S
MOTION TO COMPEL ARBITRATION
As permitted by the Court’s Amended
Scheduling Order Setting Post-Appeal Briefing
and Hearing Schedule dated December 7, 2018,
plaintiff Samaca, LLC (“Plaintiff” or “Samaca”) replies
to Defendants’ Opposition to Samaca’s Motion to
Compel Arbitration filed January 3, 2019
(“Defendants’ Opposition”).
*****
Moreover, prior to filing its motion to compel
arbitration, Samaca inquired by email to the Court
and Defendants whether Samaca’s motion to compel
was even necessary:
*****

119a
David Martin dmartin@abogar.com Fri, Nov
16, 2018 at 11:21 AM
To: "Jimenez, Lynette"
<lynette.jimenez@fultoncountyga.gov>
Cc: "Ronald T. Coleman, Jr."
<RTC@phrd.com>, "Jared C. Miller"
<jcm@phrd.com>, "Justin P. Gunter"
<jgun@phrd.com>
Bcc: SAMACA LLC <samacallc@gmail.com>,
Arnaldo Gonzalez <arnagon11@gmail.com>
Ms. Jimenez,
Good morning and hopes that you are well. To
update you, the Supreme Court of Georgia
denied
Samaca,
LLC's
motion
for
reconsideration of its petition for certiorari. A
copy is of yesterday's order attached.
The remittitur should follow in the near term.
As you know, still pending is Cellairis
Franchise, Inc. and Global Cellular, Inc.'s
motion for attorneys' fees under the disputed
franchise documents and O.C.G.A. Sec. 9-1514.
Given the affirmance of the trial court's order
compelling issues of arbitrability to the
American Arbitration Association, there is no
question now that defendants' claim for
attorneys' raises an issue of arbitrability that
can only be decided by an arbitrator. This is
apart from the Court's lack of jurisdiction
regarding defendants' effort to seek attorneys'
fees under Section 13(K) of the disputed
franchise documents.

120a
I would like to avoid taking up the Court's
time with a motion to compel arbitration, if
one is necessary. As you know, Samaca has
already raised this arbitrability issue.
After the remittitur is received, a brief
conference call with the Court may be useful
to save everyone's time and resources from
being consumed with further litigation.
Thank you for your attention to this matter.
Best regards,
David Martin
for Samaca, LLC
See EXHIBIT “A” HERETO. Only after not
receiving a response did Samaca file its motion.
*****
Separately,
Defendants’
concern
with
practicality and efficiency seems to matter only when
it suits them. If they truly had this concern, they
should have never filed their own motion to compel
arbitration. At any rate, the U.S. Supreme Court in
Henry Schein, Inc., et al. v. Archer & White Sales,
Inc., 586 U.S. ___ (Jan. 8, 2019) expressly rejected this
as a basis for not enforcing an arbitrability delegation
provision. In Schein, the party resisting arbitration
argued that “as a practical and policy matter, it would
be a waste of the parties’ time and money to send the
arbitrability question to an arbitrator if the argument
for arbitration is wholly groundless.” Slip. Op. p. 7.
The Court disagreed: “The short answer is that the
[Federal Arbitration] Act contains no ‘wholly

121a
groundless’ exception, and we may not engraft our
own exceptions onto the statutory text.” Id.
This 11th day of
January 2019.

D. R. MARTIN, LLC
By: /s/ David R. Martin
*****
COUNSEL FOR
PLAINTIFF
SAMACA, LLC
*****

122a
APPENDIX AA
[p. 1]
IN THE SUPERIOR COURT OF FULTON
COUNTY
BUSINESS CASE DIVISION
STATE OF GEORGIA
Fulton County Superior Court
***EFILED***TAW
Date: 3/1/2019 6:05 AM
Cathelene Robinson, Clerk
SAMACA, LLC,
Plaintiff,
v.

CIVIL ACTION
FILE NO.
2016CV276036

CELLAIRIS
FRANCHISE, INC.,
GLOBAL CELLULAR,
INC., and
CELL PHONE MANIA,
LLC,
Defendants.

Bus. Ct, Div. 1

HEARING BEFORE
THE HONORABLE ALICE BONNER
February 12, 2019
10:15 a.m.
136 Pryor Street, SW
Atlanta, Georgia
[p. 2]

123a
Heather Brown, CCR
CCR-4759-4284-5258-1376
APPEARANCES OF COUNSEL
On behalf of the Plaintiff:
DAVID MARTIN, Esquire
D.R. MARTIN, LLC
5200 Peachtree Road
Suite 3116
Atlanta, Georgia 30341
(770) 454-1999
(770) 458-5709 (facsimile)
dmartin@abogar.com
On behalf of the Defendants:
JARED C. MILLER, Esquire
PARKER, HUDSON, RAINER & DOBBS
303 Peachtree Street NE
Suite 3500
Atlanta, Georgia 30308
(404) 420-5564
(404) 420-5564 (facsimile)
jmiller@phrd.com
Also Present for the Defendants:
Justin Gunter, Esquire
Jason Adler, Esquire

124a
[p. 3]
Exhibit· ·

Description· · · · ·

Page

(No exhibits were marked during this hearing.)
INDEX
Description· · · · · · · · · · · · · · · · · · ·Page
Proceedings..........................................4
INDEX OF DOCUMENTS READ INTO THE
RECORD
Proposed Order on Plaintiff's Objection #1
Proposed Order on Plaintiff's Objection #2
(Attached for reference purposes only.)
[p. 4].

P-R-O-C-E-E-D-I-N-G-S
·February 12, 2019

THE COURT:· We're here for the argument in
the case of Samaca, LLC.· versus Cellairis Franchise,
Inc, et al.· And I'm ready to hear the argument on
the motion for an award of attorney's fees.· Yes, sir.
MR. MARTIN:· Your Honor, may it – my name
is David Martin and I represent Samaca, LLC. I'd
like to preserve my -THE COURT:· I'm sorry.· I can't hear you.
MR. MARTIN:· May I approach the podium?
THE COURT:· Yes.

125a
MR. MARTIN:· Yes.· Thank you.· My name is
David Martin for Samaca, LLC.· I'd like to preserve
my objection to the consideration and ruling on the
motion for attorney's fees, based on our pending
motion to compel arbitration.· And I have a specific
order that I'd like to propose to the Court, and -THE COURT:· Well, you can talk about that
when it's your turn to respond to the argument.
MR. MARTIN:· Just want to make sure I'm
not waiving it.
THE COURT:· All right.
MR. MARTIN:· Thank you, Your Honor.
THE COURT:· If you will make sure that the
microphones are working, I need to hear you.
MR. MILLER:· Okay.· It sounds like it's on,
Your Honor.· I'll speak loudly.
THE COURT:· Please do.
MR. MILLER:· Okay.
THE COURT:· Important.
MR. MILLER:· Good morning, Your Honor. My
name is Jared Miller.· I'm here on behalf of the
defendants, Cellairis Franchise, Inc. and Global
Cellular, Inc., and allow me to introduce you to who's
with me here today.· Justin Gunter is my colleague,
and has helped out on briefs in this case; Jason Adler
is the general counsel for my clients, Cellairis and
Global; and also in the courtroom is Erik Badia, he's
not participating on the case, but he's a first-year
associate and just here to observe.
THE COURT:· Okay.

126a
MR. MILLER:· We're here today, as Your
Honor's aware, on an important motion, which is my
clients' motion to recover attorney's fees and expenses
incurred in this case.
We move for attorney's fees in this case
[p. 6]
on two grounds. One is the contract between the
parties.· There's actually multiple different contracts,
all with attorney's fees provisions.· They provide that,
in any action to enforce a term of the contract, that the
prevailing party recovers all of its fees, including on
appeal.· And I'll get into that a little more. The second
and separate independent basis is under O.C.G.A. 915-14, for the litigation conduct of the defendant,
Samaca, in this case. We think this is the
quintessential case where attorney's fees should be
awarded.· Samaca has forced us to litigate now for
nearly four years, and we've not even really started to
litigate the merits of this case even after four years.·
This entire action, meaning in this court, has been
unnecessary.· And all of this has been solely because
Samaca has refused to honor the binding arbitration
clauses in the eight different contracts it's signed with
my client requiring arbitration of any disputes arising
from the relationship between the parties.
None of the fees incurred by my side in this
action in this court would have been necessary, had
Samaca adhered to that contract and filed its claims
in the proper form.· And for that reason, we
[p. 7]
think attorney's fees are appropriate in this case.
These fees have been a major expense to my client and

127a
the inability to litigate this case in the proper form in
arbitration has been a serious issue.
I'm sure the Court is aware of some of the
history of the litigation in this case, but since it's been
a fairly long process to get here, I'd like to present a
handout to sort of remind the Court of the history.
THE COURT:· That's fine.
MR. MILLER:· May I approach, Your Honor?
THE COURT:· Yes.
MR. MILLER:· I'd like to direct the Court, in
particular, to the first timeline handout, which is
entitled, Samaca's Expansive Litigation Conduct.·
This timeline here shows -- lists only Samaca's filings
in this case, and it's nearly three pages long, before we
even get to litigating the merits of this case. Initially,
Samaca filed this action in state court in Florida
before we even got there -- got here back in 2015.· We
filed a motion to dismiss that action, asserting that it
needed to be in arbitration.· We also noted that there
was a Georgia forum-selection clause making the
action in Florida
[p. 8]
wholly inappropriate.· Samaca forced us to litigate in
Florida for more than a year before voluntarily
dismissing that action.· We even had to go down to
Florida for a hearing on that motion, which Samaca
canceled at the last minute before they voluntarily
dismissed that action.· We are not seeking fees on this
motion for the Florida action because it's not part of
this action, but that's important context for the Court
to be aware.· That was a full year before we even got
here.

128a
Then, in June 2016, Samaca filed this action in
this court with a lengthy complaint of 42 pages, 104
footnotes, over 1,000 pages considering exhibits.· We
advised Samaca immediately, as they were already
aware, all of the claims in the complaint were subject
to binding arbitration.· We asked them to dismiss the
complaint and submit it to arbitration.· They refused
to do so and elected to proceed in this action.· We
informed them at that time there was an attorney's
fees provision and we were going to seek fees.· And
here we are, nearly three years later, and we've just
gotten to the point of finally getting final
confirmation.· We do, in fact, need to go to
arbitration.· We prevailed on that issue, and we have
a lot of fees incurred
[p. 9]
because of Samaca's refusal on that issue.
Even in addition to our motion to compel
arbitration, Samaca filed a litany of pleadings in this
court.· The second page of this motion, of this
handout, is all of Samaca's filings. They filed motions
to strike, reply briefs, objections that they contested.·
Every little thing. As a result, the fees were -- were
much higher.
Then, once we finally got the order from this
Court confirming the arbitration clause, they
appealed the case to the Court of Appeals, as it was
their right to do, but that resulted in more fees.· When
they lost in the Court of Appeals, they filed a motion
to reconsider in the Court of Appeals. They lost on
that.· Then they filed a petition for certiorari at the
Georgia Supreme Court.· They lost on that.· Then
they filed a motion to reconsider the Supreme Court's
denial of cert, which I think is a rare thing to do, and

129a
they lost on that.· And so, the fees in this action are a
result of Samaca filing it here, and then aggress ively
[sic] pursuing litigation at every possible step, when
we should have been in arbitration from the
beginning.
The arbitration clause in this contract could not
be more clear.· And that's on one of the
[p. 10]
handouts I've given up to the Court.· Samaca signed
eight separate contracts requiring the arbitration of
all claims.· That's the handout entitled, Mandatory
Arbitration Clauses.· Four copies of the franchise
agreement relating to four locations, four sublicense
agreements.· Those provisions required the
arbitration of all claims, controversies, or disputes
relating to the agreement, relating to the relationship
between the parties, including – and this is important
-- including any dispute as to arbitration.· Meaning,
all of the arguments Samaca raised as to whether
arbitration could be – whether the arbitration clauses
were enforceable and whether they applied, those
were not even issues this Court could consider, and
the law on that is crystal clear. These arbitration
provisions could not be clearer. This Court found
that.· The Court of Appeals found that as well.
The prevailing party fee provision in this case
is equally crystal clear.· That's the other handout I've
given Your Honor.· It's section 13(k) of the franchise
agreement that provides:· In any arbitration or
litigation to enforce the terms of this agreement, all
costs and attorney's fees, including those incurred on
appeal, incurred as a
[p. 11]

130a
result of the legal action shall be prevaid – shall be
paid to the prevailing party by the other party.
It unquestionably applies here.· We were
enforcing the terms of the contract in this case.
Samaca filed claims, we enforced the terms of the
contract, meaning the arbitration requirement. That's
what this Court found.· We are the prevailing party in
this action.· The only relief that we sought in this
action, enforced in the arbitration clause, we
recovered.· The Court dismissed Samaca's claims in
its entirety.
You'll hear Samaca argue that there is no
adjudication on the underlying merits of Samaca's
claims.· That's not relevant because we're not seeking
fees for adjudicating the merits of the claims.· We're
seeking fees in this action in which we've prevailed on
every issue asserted in this action.
So we think the contractual attorney's fees
provision requires the Court to award all the fees that
we've incurred in this action.· It's a simple matter of
contractual interpretation and application.
The other basis, as I mentioned, is 9-15-14, for
which we've sought our fees.· We timely
[p. 12]
brought that motion.· The statute allows us to bring
that motion within 45 days of the dismissal, the final
adjudication, and we did that.· The statute allows any
party to recover fees with respect to which any issue
was asserted where there lacked any reasonable basis
for the side to believe that they could prevail on their
issue.

131a
As I mentioned, the delegation clause here is
crystal clear.· The case law on this is very strong, both
from the U.S. Supreme Court and the Georgia
Supreme Court.· The arbitration clauses, delegation
clauses, must be enforced.· Samaca presented no
reasonable argument, at any time in this proceeding,
why the arbitration clause should not be enforced.·
And, in fact, it was.· So we think this is the
quintessential case for fees under 9-15-14.
We also think there's a basis to recover fees
under Section B of 9-15-14, which allows the recovery
of fees for expansive litigation conduct and for any
litigation conduct resulted in delay and unnecessary
expense.· And here, the handout I presented up to
Your Honor shows just that.
Even if Samaca elected to try to bring these
claims in this court, it was not necessary for nearly
three, four years of filings, moving to strike
[p. 13]
every brief.· This whole action has been just an
attempt to delay adjudication of the merits.· Just as
one example, we filed a reply brief on our motion to
compel arbitration.· Samaca moved to strike that
reply brief claiming, without a basis, that you can't file
a reply brief in the Superior Court when there is no
rule saying that, and when it's commonly done.
And then, throughout this action and on
appeal, Samaca continued to file its own reply briefs
and supplemental briefs.· Just another indication of
Samaca saying one thing, and then when that
argument didn't work, trying something else.
Samaca persisted in pursuing discovery on
merits issues in this court before waiting for a ruling

132a
on the arbitration issue.· Samaca has flip-flopped on
its arguments.· Samaca resisted us trying to take this
case to arbitration for years. And then, when it was
crystal clear from all three levels of courts in this
state, claims had to be arbitrated, Samaca reversed its
arg ument, [sic] and now is trying to, itself, file its own
motion to compel arbitration, the attorney's fees
issues, when it took the opposite position for years and
when there's no legal support for that argument.
Samaca filed a request for a hearing
[p. 14]
upon our motion back in 2017 for attorney's fees, and
then recently tried to have that hearing canceled, and
argued, actually the Court should not hear any of
these issues.· Samaca file -- conceded to filing this
Court has jurisdiction over our 9-15-14 claim, as it
clearly does, but now has filed papers saying, well,
actually the Court should not hear the 9-15-14 claim.
So Samaca has continued to switch its position as it's
been convenient for it and over litigate every single
issue, to the point where the fees for this type of case
are higher than they should have been with a
reasonable opposition.· And, for that reason, we think
9-15-14 fees should be awarded.
Samaca tries to raise a number of procedural
arguments for why the Court should not hear our
motions today.· But those are outlined in our briefs in
detail.· I'm happy to answer any questions the Court
has and I will, of course, request the opportunity to
rebut any argument Mr. Martin makes.
But, in short, Samaca has raised no valid
reason why this Court does not have authority.
Motions for attorney's fees are commonly filed.

133a
There's clearly jurisdiction in this case.· We presented
case law supporting the Court's ability to
[p. 15]
award fees here today.· We don't believe Samaca's
presented any case law showing any otherwise -otherwise. And just from a common sense and policy
standpoint, where Samaca has spent three years in
this court trying to avoid arbitration, the issue could
not have been clearer.· There needs to be some
sanction for that type of conduct to discourage that
type of litigation conduct.· Otherwise, we don't think
there would be any effective penalty for doing that.·
The procedure that Samaca is going to argue here for
today to decide things in a very piecemeal fashion will
be highly inefficient, just add to more fees, and it's not
required by the law.
So, unless the Court has any further questions
about our position, I will stand on our briefs, and I
request the opportunity to rebut any argument made
by Samaca.
THE COURT:· You'll have that opportunity.·
Thank you.
MR. MILLER:· Thank you, Your Honor.
THE COURT:· Mr. Martin?
MR. MARTIN:· Thank you, Your Honor.
I'm David Martin.· I represent Samaca, LLC, in
this case.· Can you hear me well?
[p. 16]
THE COURT:· Barely.

134a
THE COURT:· I don't know what's wrong with
the microphones.
MR. MARTIN:· I don't what's going – is this one
better?· Or is this one -THE COURT:· That's better.
MR. MARTIN:· This is better.· I'm going to
stand real close.
THE COURT:· Thank you.
MR. MARTIN: Yes.· Again, I'm here to
represent Samaca, LLC. Today in the courtroom, I
have Samaca's co-owner, Mr. Arnaldo Gonzalez, here
to my right, and he was elegantly attired to request
permission to sit next to me in counsel's table, but he
had a snafu with the bottom part of his wardrobe
while getting into an Uber car on his way to my office
this morning.· So I think he feels more comfortable
there, so I won't request permission for him to sit
with me on this.
I also have my legal assistant, Martha
Rodriguez, in the courtroom.· She may have to leave
in a few minutes to run an errand.· I just don't want
that to constitute a disruption in the court.· I just
wanted to give you some -- some notice about that.
And, of course, we have the court reporter, Heather

[p. 17]
Brown, who I've engaged.· I saw that my friend, Mr.
Miller, handed her his card.· I don't think we have
an agreement about who's going to share the cost for

135a
the -- for the takedown, but maybe we can cover that
later.
I'd like to present a -- and as I stood up -- and
I'm sorry for the -- for the preemptory objection, but I
think that, procedurally, I need to protect the record
on two points.· And I'd like to read this order, which
I've specifically drafted for this hearing, and that I ask
to be made part of the record, so that the wording is
clear.
Under judicial estoppel, the law of the case in
Samaca, LLC v. Cellairis Franchise, 345 Ga. App.
368(2018), and American General Financial Services
v. Jape, 291 Ga. 637(2012), Plaintiff Samaca makes a
continuing objection to any consideration and ruling
by the Court on the arbitrability or the merits of
Defendants Cellairis' and Global's Motion for
Attorney's Fees and Expenses filed March 24th,2017
as supplemented.
I'll refer to that motion as the motion for
attorney's fees.· In the line of this proposed order -- in
another line of this proposed order, I say that, If
denied, Plaintiff shall have no duty to
[p. 18]
renew its objection to preserve error. I have a copy of
the proposed order for Mr. Miller, and I would ask for
permission to either approach the bench or hand this
to the Court's deputy.
THE COURT:· You may approach.
MR. MARTIN:· Thank you, Your Honor. And I
would ask that the Court, after reviewing the
objection, rule on the -- on the objection.

136a
THE COURT:· I'm not going to rule at the
moment.
MR. MARTIN:· Okay.· And -- and – Your
Honor -THE COURT:· You may argue, and you don't
waive whatever objection, or you may not argue.· It's
up to you.
MR. MARTIN:· Yes, ma'am.
THE COURT:· I'm not going to -MR. MARTIN:· Thank you.
THE COURT:· -- follow your orders.
MR. MARTIN:· Thank you, Your Honor.
The second objection, and, again, it's worded for
today in a proposed order, is that under section -O.C.G.A. Section 9-11-6(d), O.C.G.A. 24-603(a) [sic],
and Rule 6.1 of the Uniform Superior
[p. 19]
Court Rules, Samaca makes a continuing objection to
any unsworn allegations of unstipulated fact by
defendants' counsel in this hearing or as presented in
the Motion for Attorney's fees. So we'd include a
motion to strike all the factual assertions made by
counsel that weren't -- that weren't supported by
affidavit in the record or by sworn testimony.
·

And if I may, again, approach the bench --

THE COURT:· You may.
MR. MARTIN:· -- with a proposed order.
Thank you.

137a
And, I'm sorry, Your Honor, I just need to request that
the Court rule on the objection. I understand the
Court's position.
THE COURT:· I'll decline to do that.
MR. MARTIN:· Thank you, Your Honor.
THE COURT:· Defer a ruling.
MR. MARTIN:· I would also like to make that
apply to -- on the paper that Cellairis' counsel
tendered to the Court called, Samaca's Expansive
Litigation Conduct.· It's neither sworn, nor
authenticated, nor key to any court filing in the
record.· And I would request The Court's ruling on
[p. 20]
the motion to exclude this -THE COURT:· I'll defer a ruling.
MR. MARTIN:· Thank you, Your Honor.
MR. MILLER:· And on that note, Your Honor,
that's merely a demonstrative exhibit.
THE COURT:· Why don't you wait for
rebuttal.
MR. MILLER:· Thank you, Your Honor
MR. MARTIN:· My client, Samaca, LLC,
pursued an investment opportunity in 2014, the first
half of 2014, with the purpose of qualifying the
owners, Mr. Gonzalez who's here today, and his wife,
to immigrate to this country.· That investment
opportunity had to have a minimum of five years of
lifespan.· They learned about a franchise opportunity
from Cellairis Franchise and Global Cellular, and

138a
they reached a point where my client, in exchange for
$350,000, was to acquire franchise rights to operate a
cellphone repair business in Dolphin Mall in Miami,
Florida.
To summarize what happened in this case is
that no rights, no enforceable, valid rights, were ever
conveyed to Samaca.· Indeed, as we allege in our
complaint, and was alleged in the original complaint,
no agreement was ever concluded.· The material
terms
[p. 21]
of an agreement were never concluded.· That was
something that I think was -- was missed here.· But I
will get to that later. After giving this money to
Cellairis and Global, my client occupied these certain
spaces in this mall for just a matter of a few weeks,
and was kicked out by the owner of the mall, saying
that Cellairis never acquired these rights.· And he
didn't learn about this from Cellairis.· He learned
about it from the mall.· When I say, he, I'm referring
to Mr. Gonzalez, who was operating the business.·
And my client went to Cellairis to look for relief, and
Cellairis made promises that they would fix the
situation.· And time began to run and then months
began to run.
My client engaged counsel.· It wasn't me, it was
Florida counsel, who then proceeded to file suit in
Miami Circuit Court in March of 2015. Further
negotiations continued, but immediately were -- a
couple of months after my client filed suit in Miami,
Cellairis filed a motion to dismiss the complaint in
Miami.· Not a motion to compel arbitration, but a
motion to dismiss.· This motion to dismiss is found in

139a
Cellairis's motion for attorney's fees dated March
24th, 2017, as Exhibit B.· I have
[p. 22]
copies of the motion to show the Court that may help,
in my presentation, for you to understand the point
I'm making.· If you'd like to see them, I can give you
this.
THE COURT:· I'll -- I'll take it, but I would hope
that you would focus on the point of this argument.
MR. MARTIN:· Yes.
THE COURT:· I'm very aware of the history of
the case.
MR. MARTIN:· Okay.
while.

THE COURT:· I've been handling it for a good
MR. MARTIN:· Okay.

THE COURT:· So I know the background. And
this is not about the merits of your claim, this
hearing.· It's about the arbitrability of the question of
attorney's fees.
MR. MARTIN:· Oh, I am so encouraged by that,
Your Honor, because that's what I wanted to get to.
you.

THE COURT:· Well, I wish you would. Thank

MR. MARTIN:· Okay.· The only person that
can determine whether the attorney's fees motion is
[p. 23]

140a
arbitrable is an arbitrator.· That's what this Court
held in its February 7th, 2017 order.· That is what the
Court of Appeals held in its February 28th, 2008
order.· The remittitur filed November 26th, 2018,
establishes the law of the case.· The parties and the
Court are now bound to follow that order, and the only
thing that the Court can do, with regard to this motion
for attorney's fees, is refer it to an arbitrator to
determine whether it's arbitrable. There is more.
On June 6th, 2019 [sic], the United States
Supreme Court said that what they -- that, when
there is an enforceable arbitrability delegation
provision, even if the Court thinks that the question
of arbitrability is, quote, wholly groundless, it must
still refer the matter to an arbitrator to determine
arbitrability.· In that case, Your Honor – pardon me - it's Henry Schein, Inc. vs. Archer and White. There
is no U.S. report or page number yet, but that's found
at 586 U.S., and the date of the opinion, which is cited
in my -- in my motion to compel, is January 6th, 2019
[sic].
So the way I see it here, Your Honor, is there's
nothing else to do in this case other than refer
Cellairis and Global's motion to an arbitrator
[p. 24]
to determine whether it is arbitrable. That's the entire
motion.· Unless the Court wants me to address, pointby-point, the factual assertions that we've objected to
and that we believe need to be stricken, I don't have
anything else to say.
THE COURT:· Let me hear whatever rebuttal
Mr. Miller has, and then I will decide whether you
need to have surrebuttal.· How is that?

141a
MR. MARTIN:· That's fine, Your Honor.
THE COURT:· All right.· Now, I wish you
would address the issue of arbitrability of attorney's
fees.· I did not mean to imply that that was decided,
but I do think that's the key to the argument today.
MR. MILLER:· Sure.· Certainly, Your Honor.
THE COURT:· Not the behavior of the plaintiff
so much, but the -- even though it may be
reprehensible, but the question of who decides.
MR. MILLER:· Your Honor, we don't think
there is any inconsistency in our position at all. The
arbitration clause in this case requires arbitration of
any claims or disputes between the parties, if a party
seeks to enforce that clause.
Here, Samaca is relying on the
[p. 25]
delegation clause, arguing that because there is a
question of arbitrability, the arbitrator needs to
decide that. But there is no dispute as to arbitrability
of the attorney's fees claims.· What I mean by that is,
we believe the attorney's fees claims should be heard
in this court, of course, because we filed the motion
here.· We believe the case law supports that, and it
just makes practical sense for the judge who presided
over the case to adjudicate the conduct, as opposed to
an arbitrator on a cold record.
Samaca, we believe, likewise, has no intent of
arbitrating the attorney's fees issue. Samaca has
never said, in any filing in this case or in an e-mail,
that they believe the substance of the attorney's fees
claims should be heard in arbitration.· Instead, it's
our belief that what Samaca wants to do, is Samaca

142a
wants this Court to refer the fee issue to arbitration
so Samaca can go to the arbitrator and argue the fee
issue, along with everything else, should be heard
back in this court.
There's no law, and the contract does not
require the Court to refer this matter to arbitration,
where neither party wants to arbitrate. We sent Mr.
Martin an e-mail, after he filed his
[p. 26]
motion to compel arbitration, asking that question.
You say there's a question as to arbitrability.· Do you
-- is it your position the fee claim should be
arbitrated?· He refused to respond to that question.
His answer was, that's immaterial.· And I have a copy
of that e-mail here, if Your Honor would like to see it.·
It's also attached to one of our filings.
THE COURT:· I don't need to see it.
MR. MILLER:· We believe that is not
immaterial and irrelevant; that's the key question
here.· If Samaca was saying the attorney's fees issue
needs to be adjudicated by an arbitrator, the merits of
that, the attorney's fees claim, that might be a
different matter.· Samaca's not taking that position.
We said to Samaca, we think what you're trying
to do here is to go to an arbitrator to just argue that
issue should come back to court.· That's not supported
by the law, and that makes no sense.
Samaca did not deny that.· Their response was,
even if it's inefficient, that's irrelevant.
Our argument is completely supported by, both
the text of the contract, and by the law.· The parties'
arbitration agreement, on the handout I presented to

143a
the Court, requires the arbitration of all controversies,
claims, or disputes, including
[p. 27]
disputes as to whether any specific claim is subject to
arbitration.· There's no dispute about the attorney's
fees claim being subject to arbitration because we
want it in court, and we believe Samaca wants it
heard in court.· If Your Honor were to ask Samaca on
the record today where it ultimately wants the merits
of the fee claim determined, I'd be interested to hear
the answer on that.
Similarly, the governing law here does not
require the Court to refer this matter to arbitration
for an arbitrability decision, whether their dispute is
to arbitrability.· I would refer to Court to the text of
the Federal Arbitration Act itself.· The FAA,
specifically 9 U.S.C., Section 4, which is recited in the
briefs, that's the provision -- the governing provision
that governs the issue here today before the Court.·
The contract and the parties have all agreed that the
FAA applies.
That provision allows a party to file a motion to
compel arbitration only where a party is aggrieved by
the alleged failure, neglect, or refusal of another to
arbitrate.· But nobody wants to arbitrate the
substance of the attorney's fees claims.· And, if that
were the case, Samaca can seek an order directing
that the arbitration proceed on
[p. 28]
the merits of the attorney's fees claims.· They've not
done that.· They're merely asking for an arbitrator to
decide -- there's no dispute on this issue because
everyone wants to come back to court. Undoubtedly, if

144a
we waited to bring our fee claim in arbitration, you
would've -- we would have heard Samaca say in
arbitration, well, you should have brought the
attorney's fee issue in court because that's what the
governing law provides, and because the judge is more
familiar with the conduct.
The other issue I would point out is that
Samaca, itself, clearly did not believe that the
attorney's fees claim should be arbitrated.· We filed
our motion for attorney's fees back in March of 2017.
Samaca filed multiple response briefs to our motion,
none of which requested arbitration, and even
requested a hearing in this court, and did not request
arbitration until after more than a year. Went up on
appeal, came back down, now Samaca says, oh, it
needs to be arbitrated.
To the contrary, Samaca filed an emergency
motion to treat our attorney's fees claim as a
counterclaim, and said Samaca -- this is a quote from
Samaca's motion filed on March 27, 2017: Plaintiff
shall have the right to raise defenses,
[p. 29]
conduct discovery, and have a trial before a jury.
We don't believe the law supports that on a
motion for attorney's fees, that's a separate issue.·
But the point is, Samaca made filings to this Court
asking for the attorney's fees actions to be heard in -the attorney's fees motion to be heard in this court.
THE COURT:· Mr. Miller, I am not so
interested in the parties' positions as I am in the
Court of Appeals' positions and the Supreme Court's
position.· I want to do what the law requires.· And I
don't think it's a persuasive argument that a party did

145a
or did not ask for something.· You might say more that
would persuade me, but you understand, I'm not
taking sides.· I'm trying to do the legally correct thing.
MR. MILLER:· Well, I understand that, Your
Honor.· And so I would then just refer the Court then
to the governing contract and law. The arbitration
agreement itself only requires disputes as to whether
something is arbitrated to go to court. And the
governing law says that the Court should enforce
arbitration clauses, like any other contract, as they
are written.· And so, where there is no dispute as to
arbitration, we think the law does not
[p. 30]
require referral to the arbitration -- to an arbitrator,
merely to decide that everyone agrees to come back
to court.
And then, I would rely on the text of the
Federal Arbitration Act itself, which applies. That's
the governing authority for the issue before the
Court.· It's really as simple as those two authorities.
The only other point I would make before I sit
down, Your Honor, is we do not believe, regardless of
what the Court finds on that issue, that the 9-15-14
claim needs to go to the arbitrator. We cited case law
in our brief that 9-15-14, which is, of course, a
statutory claim, can be decided by this Court, even if
the substantive claims must be arbitrated. There's
two claims in our brief on that. That's a Georgia
statute designed to give the courts of this state
authority to protect the parties against unsupported
positions, like Samaca's here, and expansive
litigation.· The statute talks about courts deciding.·
We don't know where else that motion would be

146a
heard.· That motion provides the courts to make that
decision, and not arbitrators. And Samaca itself, as I
mentioned, has admitted in a brief that the Court has
jurisdiction to decide that
[p. 31]
motion.
So regardless of what the Court decides on the
contract claim, we think the 9-15-14 claim should be
heard in this court separately.
THE COURT:· Thank you.
MR. MILLER:· Thank you, Your Honor.
THE COURT:· One more thing:· Be careful
what you ask for.· Because, you know, if I decide in
your favor, there is sure to be appeals and motions for
reconsiderations, and I'm just wanting to make sure
what your client wants.
MR. MILLER:· We
appreciate that, Your Honor.

understand.·

And

I

THE COURT:· All right.
MR. MILLER:· Thank you.
THE COURT:· Mr. Martin, do you wish to have
the final word?
MR. MARTIN:· I do, Your Honor. I'm sorry if I
am disturbed by Mr. Miller's factual assertions to this
Court.· We reiterate the sworn and verified facts in
our – in our reply papers to the motion for attorney's
fees. I just want to focus on one.
Mr. Miller stated that there's no dispute from
Samaca that this must go to an

[p. 32]

147a

arbitrator on the question of arbitrability.· In the first
response to the motion for attorney's fees that Samaca
filed on March 3rd, 2017, second page, judicial
estoppel bars the Court from hearing these claims
because they also raise questions of arbitrability.· And
we have paragraph, after paragraph, after paragraph
expanding on that statement.· What Mr. Miller came
up here and told the Court is simply false, and I'm
disturbed -THE COURT:· Where do you believe the correct
forum is to decide on the question of attorney's fees?
MR. MARTIN:· Take this -- this matter needs
to be combined with their claims for attorney's fees
and decided in tandem. They say there's no dispute
about arbitrability.· Well, they – of attorney's fees on
the motion. They spent two years contradicting
themselves saying that their motion is not subject to
arbitrability.· When, on the other hand, they said -THE COURT:· I don't really understand what
you're saying.· My question was:· What is the forum
for the decision on the question of attorney's fees?
MR. MARTIN:· It should all be in the
[p. 33]
same forum, whether it's arbitration or litigation, but
only an arbitrator can decide that. So that, if we all go
to the arbitrator, even on this motion, we're going to
argue in front of the arbitrator, whether the Cellairis'
motion for attorney's fees is subject to arbitration and
whether our motion for attorney's fees is subject to
arbitration, because we'll have one. They also
frivolously expanded this case by contradicting

148a
themselves for the last two years and bringing this
motion for attorney's fees, which we could also assert
on the same grounds that they bring here today. An
arbitrator has to decide that as well.
But I want to say this, and I don't -- it should
not sound evasive:· My mental impressions and
litigation strategy are not subject to disclosure.· I
have a plan for this, but it's irrelevant.· The only
relevant question here is who decides whether this
motion for attorney's fees by Cellairis is arbitrable.·
And the Court of Appeals has spoken and the United
States Supreme Court has spoken as well.· I don't see
any way around it.· And if there is a way around it,
then I'd like to learn it.· But I haven't heard anything
here that would create an exception.· His only
statement is, there's
[p. 34]
no dispute about the attorney's fees being arbitrable?·
What are we doing here today?· Why are we in this
courtroom?· We're disputing the specific question and
issue of whether there is an arbitrability question that
needs to go to an arbitrator.· And the Court of Appeals
says it does.
THE COURT:· Thank you.
MR. MARTIN:· Thank you.
THE COURT:· All right.· I'll take the matter
under advisement.· I hope to render a decision
shortly.
MR. MARTIN:· Thank you, Your Honor.
THE COURT:· Thank you for your argument.
MR. MILLER:· Thank you, Your Honor.

149a
(Proceedings concluded at 10:56 a.m.)
*****

[p. 35]

CERTIFICATE
[p. 36]

*****
DISCLOSURE OF NO CONTRACT
*****

[p. - unnumbered]
WORD INDEX
*****
[p. – unnumbered; proposed orders on objections]
*****

150a
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
SAMACA, LLC,
Plaintiff,
vs.
CIVIL ACTION NO.
CELLAIRIS
FRANCHISE, INC.,
2016 CV 276036
GLOBAL CELLULAR,
INC., and
CELL PHONE MANIA,
LLC,
Defendants.

ORDER ON PLAINTIFF'S OBJECTION # 1.
Under judicial estoppel, the law of the case in
Samaca, LLC v. Cellaris Franchise, Inc., 345 Ga. App.
368 (2018), and Am. Gen. Fin. Servs. v. Jape, 291 Ga.
637, 644 n. 3 (2012), Plaintiff Samaca, LLC makes a
continuing objection to any consideration and ruling
by the Court on the arbitrability or the merits of
Defendants Cellairis' and Global's Motion for
Attorney's Fees and Expenses filed on March 24,
2017 as supplemented. (Hereinafter the "Motion for
Attorney's for Attorney's Fees and Expenses filed on
March 24, 2017 as supplemented. (Hereinafter the
“Motion for Attorney's Fees”).
THE OBJECTION IS HEREBY ___
GRANTED ___ DENIED.
[IF DENIED,] Plaintiff shall have no duty to
renew its objection to preserve error.

151a
IT IS SO ORDERED and filed, in open court
on February 12, 2019.
____________________________________
ALICE D. BONNER, SENIOR JUDGE
Superior Court of Fulton County
Business Case Division
Atlanta Judicial Circuit

152a
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
SAMACA, LLC,
Plaintiff,
vs.
CIVIL ACTION NO.
CELLAIRIS
FRANCHISE, INC.,
2016 CV 276036
GLOBAL CELLULAR,
INC., and
CELL PHONE MANIA,
LLC,
Defendants.
ORDER ON PLAINTIFF'S OBJECTION# 2.
Under O.C.G.A. § 9-11-6(d), O.C.G.A. § 24-6603(a), and Rule 6.1 of the Uniform Superior Court
Rules, Plaintiff Samaca, LLC makes a continuing
objection to any unsworn allegations of unstipulated
fact by defendants' counsel in this hearing or as
presented in the Motion for Attorney's Fees.
THE OBJECTION IS HEREBY
____GRANTED ____ DENIED.
[IF DENIED,] Plaintiff shall have no duty to
renew its objection to preserve error.
IT IS SO ORDERED and filed, in open court
on February 12, 2019.
____________________________________
ALICE D. BONNER, SENIOR JUDGE
Superior Court of Fulton County
Business Case Division
Atlanta Judicial Circuit

153a
APPENDIX BB
IN THE COURT OF APPEALS
STATE OF GEORGIA
SAMACA, LLC,
Petitioner-Appellant,
vs.
CELLAIRIS FRANCHISE, INC., GLOBAL
CELLULAR, INC., and CELL PHONE MANIA,
LLC,
Respondents-Appellees.
Application No. A19D0372
*****
APPLICATION FOR DISCRETIONARY
REVIEW WITH O.C.G.A. § 5-6-35(j) REQUEST
[Filed March 11, 2019] [EXCERPT]
D.R. Martin, LLC
David Martin
Georgia Bar No. 474761
5200 Peachtree R., Ste 3116
Atlanta, GA 30341
Tel. 770-454-1999
Fax 770-459-5709
Email: dmartin@abogar.com
Counsel for Samaca, LLC
Petitioner-Appellant
*****

154a
I.
INTRODUCTION.
(1)
The main question in this appeal is
whether a party’s motion for sanctions under O.C.G.A.
§ 9-15-14 is exempt from arbitration under the
Federal Arbitration Act, 9 U.S.C. §§ 1 et seq. This case
would establish precedent.
(2)
Petitioner Samaca, LLC (“Samaca” or
“Petitioner”) submits that the trial court erred in
ruling that the matter is not arbitrable. Further, the
trial court possessed no power to even rule on the
arbitrability of any part of a motion for attorneys’ fees
by respondents Cellairis Franchise, Inc. and Global
Cellular,
Inc.
(collectively
“Cellairis”
or
1
“Respondents”).
(3)
This result follows from judicial estoppel,
the law of the case in Samaca, LLC v. Cellairis
Franchise, Inc., 345 Ga. App. 368, 813 S.E.2d 416
(2018) (Case No. A17A1715), and Henry Schein, Inc.
v. Archer & White Sales, Inc., 139 S.Ct. 524; 586 U.S.
___ (2019).

(4) If needed, Petitioner also shows
reversible error on the merits of the trial court’s 9-1514(b) award.

A. Procedural Background
(5)
As noted, the parties have already been
to this Court on direct appeal in Samaca, LLC v.
Cellairis Franchise, Inc., 345 Ga. App. 368, 813 S.E.2d
416 (2018) (Case No. A17A1715) (physical precedent
only) (“Samaca I”).
(6)
In that case, this Court affirmed the trial
court’s order of February 7, 2017 (the “Final Order”)
that granted Respondents’ own motion to compel
arbitration of Samaca’s complaint on the issue of
Cell Phone Mania, LLC never appeared in the action
and suffered default judgment.
1

155a
arbitrability and dismissed the case. Because certain
relevant documents to this petition are already in the
record of Case No. A17A1715, Samaca also cites to
this record when needed. 2
(7)
The central ruling secured by Cellairis in
Samaca I is that the parties are bound by a so-called
arbitrability “delegation provision.” This provision
grants an arbitrator the power to decide arbitrability
questions regarding “threshold issues” such as
“whether any specific claim is subject to arbitration at
all.” Samaca, 813 S.E.2d at 420.
(8)
In other words, in this case, an
arbitrator, not the trial court, must determine in the
first instance whether any claim must be decided by
arbitration or by a court. Hence, until an arbitrator
decides arbitrability, no one can determine the merits
of any claim.
(9)
Nonetheless, despite having successfully
advocated for the enforcement of the arbitrability
“delegation provision,” Cellairis filed a motion for
attorneys’ fees against Samaca. Samaca’s first argued
judicial estopped because Cellairis’ motion also raised
arbitrability questions. After the remittitur, Samaca
asserted the law of the case and moved to compel
arbitration on the question of arbitrability. Cellairis
turned around and fought Samaca every step of the
way. Despite Cellairis’ self-contradiction, the trial
court decided arbitrability as well as merits questions.
It then sanctioned Samaca under 9-15-14(b) for
References to the volume and record page from Case No.
A17A1715 are denoted as [V-_ ; R-___]. The Final Order, the
abbreviation for Order on Defendants’ Motion to Dismiss
Complaint and Compel Arbitration filed February 7, 2017,
attached as EXHIBIT 5 HERETO also appears at [V-4; R-1389].

2

156a
having opposed Cellairis’ own motion to compel
arbitration on arbitrability questions.
B. The Order for Which Appeal is Sought
(10) Samaca seeks permission to appeal from
the Amended Order on Defendants’ Motion for
Attorneys’ Fees and Expenses and Plaintiff
Samaca, LLC’s Cross Motion to Compel
Arbitration of Defendants’ Motion for Legal
Expenses dated March 6, 2019 (the “Amended
Order”) 3 of the Superior Court of Fulton County,
Georgia, Honorable Alice D. Bonner, presiding, in the
case styled Samaca, LLC v. Cellairis Franchise, Inc.
Before the Amended Order, the Order on Defendants’ Motion
for Attorneys’ Fees and Expenses and Plaintiff Samaca, LLC’s
Motion to Compel Arbitration of Defendant’s [sic] Motion for
Legal Expenses entered February 27, 2019 (“Initial Order”)
deferred awarding the amount of fees and expenses until the
“merits of the case” were arbitrated, which has not occurred. A
copy of the Initial Order is attached as EXHIBIT 10 HERETO.
To the extent the Initial Order has legally effect, this petition
applies to the Initial Order as well. In response, Samaca
presented Plaintiff’s Urgent Request for Certificate of Immediate
Review Under O.C.G.A. § 5-6-34(b) and Alternative Motion to Set
Aside filed February 28, 2019 (“Request for Certificate”), a copy
attached as EXHIBIT 11 HERETO. Then, Cellairis filed
Defendants’ Opposition to Samaca’s Request for Certificate of
Immediate Review and Alternative Motion to Set Aside filed
March 4, 2019, a copy attached as EXHIBIT 12 HERETO. On
p. 3, Cellairis “suggest[ed]” that the trial court proceed to award
fees, which the trial court did in the Amended Order on March 6.
On the same day, the trial court entered Order Denying Request
for Certificate of Immediate Review and Alternative Motion to
Set Aside and Plaintiffs’ Motion for Leave to File Reply Brief filed
March 6, 2019, a copy attached as EXHIBIT 14 HERETO.
3

157a
Global Cellular, Inc. and Cell Phone Mania, LLC,
Case No. 2016CV276036.
(11) A copy of the Amended Order is attached
as EXHIBIT 1 HERETO.
(12) The Amended Order granted $59,983.78
in legal expenses under 9-15-14(b) pursuant to
Defendants Cellairis’ and Global’s Motion for
Attorneys’ Fees and Expenses and Brief in Support
filed March 24, 2017 (“Motion for Attorneys’ Fees”)
attached as EXHIBIT 2 HERETO.
(13) The Motion for Attorneys’ Fees was
based on a “prevailing party” provision in the disputed
franchise documents. “Alternatively,” Cellairis sought
legal expenses under 9-15-14.
(14) The Amended Order granted and
denied in part Plaintiff Samaca, LLC’s Motion to
Compel Arbitration (“Motion to Compel
Arbitration”) filed November 26, 2018, a copy of
which is attached as EXHIBIT 3 HERETO.
(15) The trial court correctly compelled
arbitration of the “prevailing party” provision claim
but should not have decided that the claim was in fact
arbitrable. Regarding 9-15-14, the trial court was
wrong on three counts: It should not have decided
arbitrability. It should not have decided the merits.
And it should not have awarded fees.
II.
JURISDICTIONAL STATEMENT WITH
5-6-35(j) REQUEST
(1)
As it pertains to the Motion to Compel
Arbitration, Samaca submits that the Amended
Order is a final order for purposes of a direct appeal
under O.C.G.A. § 5-6-34(a)(1). This is so because “the
case is no longer pending in the court below, except as
provided in Code Section 5-6-35(b).”
(2)
Although O.C.G.A. § 5-6-35(b)(10)
identifies “awards of attorneys’ fees or expenses of

158a
litigation under Code Section 9-15-14” as among the
“cases” subject to discretionary review, 5-6-35 does not
identify orders denying a motion to compel arbitration after a final
disposition. 4
(3)
As Justice Nahmias said in a special
concurrence in American General Financial Services
v. Jape, 291 Ga. 367, 645 (2012):
[P]arties who cannot obtain an immediate
appeal of the denial of a non-frivolous motion to
compel arbitration will remain entitled to a
direct appeal of the issue when their case is final,
see OCGA § 5–6–34(a)(1)[.]
This is such a case. The entire action has finally
terminated, and nothing remains pending. See
Georgia Arbitration Code, O.C.G.A. § 9-9-16 (“Any
judgment or any order considered a final judgment
under this part may be appealed pursuant to Chapter
6 of Title 5.”); Cf. Torres v. Piedmont Builders, Inc.,
300 Ga. App. 872, 873 (2009) (direct appeal allowed
from motion compelling arbitration where trial court
dismissed the case).
(4)
Since the Amended Order is a final
order in this regard, Samaca requests that this Court
grant this application under O.C.GA. § 5-6-35(j). 5
Under the “firm direction” of American General Financial
Services v. Jape, 291 Ga. 637, 644 n. 3 (2012), the trial court was
“urge[d]” to defer ruling on Cellairis’ motion for attorneys’ fees
until an interlocutory appeal was attempted. (J. Nahmias,
specially concurring). The Amended Order did not follow the
direction and decided the entire Motion for Attorneys’ Fees
before ruling on Samaca’s Motion to Compel Arbitration.
4

5

O.C.G.A. 5-6-36(j) states:
When an appeal in a case enumerated in subsection (a) of
Code Section 5-6-34, but not in subsection (a) of this Code

159a
(5)
Alternatively, because the Amended
Order also made an award of attorneys’ fees and
expenses under 9-15-14, this discretionary application
lies under O.C.G.A. § 5-6-35(a)(10).
III. THE ERRORS: WHY THIS APPEAL
SHOULD BE GRANTED.
(1)
This appeal should be granted because
the trial court should have granted Samaca’s entire
Motion to Compel Arbitration. The standard of
review is de novo. Cash In Advance of Florida v.
Jolley, 272 Ga. App. 282 (2005). After the remittitur
in Samaca I, the enforceability of the arbitrability
“delegation provision” became the law of the case. 6 A
copy of the remittitur is attached as EXHIBIT 4
HERETO. There is no conceptual difference between
Cellairis’ motion to compel arbitration in Samaca I,
and Samaca’s own motion. Both concern disputed

section, is initiated by filing an otherwise timely
application for permission to appeal pursuant to
subsection (b) of this Code section without also filing a
timely notice of appeal, the appellate court shall have
jurisdiction to decide the case and shall grant the
application. Thereafter the appeal shall proceed as
provided in subsection (g) of this Code section.
The Amended Order, as it pertains to 9-15-14 award for
attorneys’ fees, would also become directly appealable. Haggard
v. Board of Regents, 257 Ga. 524 (1987).
O.C.G.A. § 9-11-60(h) states: “[A]ny ruling by the Supreme
Court or the Court of Appeals in a case shall be binding in all
subsequent proceedings in that case in the lower court and in the
Supreme Court or the Court of Appeals as the case may be.”
6

160a
claims between the parties. Both raise questions of
arbitrability that only an arbitrator may decide.
(2)
This appeal should be granted because
judicial estoppel barred the trial court from deciding
the arbitrability of any part of the Motion for
Attorneys’ Fees. The standard of review is de novo.
Jolley, supra. The doctrine of judicial estoppel states:
[T]he essential function and justification of
judicial estoppel is to prevent the use of
intentional self-contradiction as a means of
obtaining unfair advantage in a forum provided
for suitors seeking justice. The primary purpose
of the doctrine is not to protect the litigants, but
to protect the integrity of the judiciary. The
doctrine is directed against those who would
attempt to manipulate the court system through
the calculated assertion of divergent sworn
positions in judicial proceedings and is designed
to prevent parties from making a mockery of
justice through inconsistent pleadings.
(Footnote omitted.) Nat. Bldg. Maintenance
Specialists v. Hayes, 288 Ga. App. 25, 26-27 (2007).
For more than two years, Cellairis litigated to cement
a ruling that the arbitrability “delegation provision”
was enforceable. The trial court could not decide
arbitrability at all in this case.
(3)
This appeal should be granted because
the trial court disregarded binding precedent of the
United States Supreme Court brought to its attention
before issuing the Amended Order. Henry Schein,
Inc. v. Archer & White Sales, Inc., 139 S.Ct. 524, 529;
586 U.S. ____ (January 8, 2019) held:
We must interpret the [Federal Arbitration] Act
as written, and the Act in turn requires that we
interpret the contract as written. When the
parties' contract delegates the arbitrability

161a
question to an arbitrator, a court may not
override the contract. In those circumstances,
a court possesses no power to decide the
arbitrability issue. That is true even if the
court thinks that the argument that the
arbitration agreement applies to a
particular dispute is wholly groundless.
139 S. Ct. at 529 (2019) (emphasis added). Notably,
the Amended Order did not cite Henry Schein, Inc. or
discuss any Federal Arbitration Act authority to
justify not following this precedent. The trial court
should have granted Samaca’s entire Motion to
Compel Arbitration.
(4)
This appeal should be granted because,
even if the trial court had the power to adjudicate the
9-15-14(b) claim, the existence of a legitimate dispute
removed its authority to award fees. Plus, no evidence
supports the award. The standard of review is abuse
of discretion. Lee v. Park, 341 Ga. App. 350 (1) (2017).
IV. BACKGROUND AND ARGUMENT.
(1)
Although a background summary
appears in this Court’s published opinion in Samaca
I, Samaca provides certain clarifications.
(2)
Samaca sought to acquire franchise
rights to operate a cell phone repair business in
Dolphin Mall in Miami, Florida for a minimum period
of five years.
(3)
In June 2014, Samaca signed papers
drafted exclusively by Cellairis. Although Samaca
paid Cellairis $350,000 for the franchise rights,
Samaca’s complaint shows it acquired no valid and
enforceable rights at all and that the parties never
concluded an agreement with all the essential terms.
Cf. Samaca I, 813 S.E.2d at 817. After briefly
occupying the franchise spaces at Dolphin Mall,
Samaca was forced to leave because Cellairis never

162a
acquired the necessary rights. To be sure, it was
Cellairis, not Dolphin Mall, who refused to
acquire/renew the license rights to operate in the
mall. 7 Cf. Samaca I, 813 S.E.2d at 418.
(4)
In March 2015, represented by other
counsel, Samaca filed suit in Florida. Cellairis
disputed venue and filed a motion to dismiss, not a
motion to compel arbitration. Cellairis did not seek to
compel
arbitration because
the
transaction
documents contained both forum selection and
arbitration clauses that required the case to be heard
in Georgia.
(5)
The forum selection clause (the “Forum
Selection Clause”) was contained within the
Assignment & Assumption Agreement (“AA
Agreement”). The AA Agreement had an effective
date of September 1, 2014. It was pursuant to the AA
Agreement that Samaca paid Cellairis the $350,000
for the franchise rights. The Forum Selection Clause
states as follows:
The parties acknowledge and agree that the
Georgia State Courts for Fulton County,
Georgia, or if such court lacks jurisdiction, the
U.S. District for the Northern District of
Georgia, shall be the sole and exclusive
venue and sole and exclusive proper forum
in which to adjudicate any case or
controversy arising either, directly or
indirectly, under or in connection with this
Agreement and the parties further agree that,
in the event of litigation arising out of or in
connection with this Agreement in these courts,
they will not contest or challenge the jurisdiction
7

Complaint ¶¶1-116 [V-3; R-7-35].

163a
or venue of these courts. The parties expressly
consent and submit to the jurisdiction and venue
of these courts, and the parties waive any
defenses of lack of personal jurisdiction,
improper venue and forum non conveniens.[8]
(6)
Meanwhile, certain franchise and sublicense documents (the “June 30 Franchise
Agreements” and “June 30 Sub-License
Agreements”), each with an effective date June 30,
2014, contained arbitration clauses.
(7)
The June 30 Franchise Agreements
arbitration clause read as follows:
(1) Claims subject to arbitration. Subject to
Paragraph 13.D.2, the parties agree that all
controversies, claims, or disputes between
[Cellairis] and [Samaca] arising out of or relating
to:a. This Agreement or any other agreement
between [Cellairis] and [Samaca]; b. The
relationship between [Cellairis] and [Samaca]; c.
The scope and validity of this Agreement or any
other agreement between [Cellairis] and
[Samaca], specifically including whether any
specific claim is subject to arbitration at all
(arbitrability questions); and/or d. The offer
or sale of the franchise opportunity

Quoted at 813 S.E.2d at 418; also found at [V-3; R-9,
R-53] Assignment & Assumption Agreement, Sec. 11,
Complaint, Exhibit 1. (Emphasis added). This
document was between Samaca, Cellairis, and Cell
Phone Mania, LLC with Global Cellular, Inc. named
expressly as the party receiving the $350,000
payment.
8

164a
will be subject to arbitration to be
administered by the American Arbitration
Association (“AAA")….
June 30 Franchise Agreements, Sec. 13 D.
Complaint, Exhibits 18, 19, 20, 21 (pp. 65-66)
(Emphasis added). 9
(8)
The
June
30
Sub-License
Agreements said as follows:
Claims Subject to Arbitration. Except as
otherwise provided herein, the parties agree that
all controversies, claims, or disputes between
[Global] and [Samaca] arising out of or relating
to: a. This Agreement or any other agreement
between [Global] and [Samaca];
b. The relationship between [Samaca] and
[Global]; c. The scope and validity of this
Agreement or any other agreement between
[Global] and [Samaca], specifically including
whether any specific claim is subject to
arbitration at all (arbitrability questions); and/or
d. Any agreement relating to the purchase of
products or services by [Samaca] from [Global]
will be subject to arbitration to be administered
by the American Arbitration Association
(“AAA")….
June 30 Sub-License Agreements, Complaint,
Exhibits 22, 23, 24, 25 (pp. 9-10) (Emphasis added). 10
(9)
In the Florida motion to dismiss,
Cellairis argued by brief as follows:
Plaintiff's claims in this case against the
Cellairis Defendants are unquestionably covered
9

10

Quoted at Samaca I, 813 S.E.2d at 418.
Quoted at Samaca I, 813 S.E.2d at 418.

165a
by the above forum selection and arbitration
clauses. These clauses, to which Plaintiff agreed,
broadly require the adjudication of all claims
under the Agreements or arising out of either the
contracts or the relationship between the parties
to be pursued only in Georgia, either in
arbitration or litigation in a Georgia court
(depending on the agreement and the type of
claim).
See Exhibit B ¶ 20 to Motion for Attorneys’
Fees (Exh. 2) (Emphasis added).
(10) If arbitration, not litigation, was the only
means for deciding this case, Cellairis would have
taken this categorical position in the Florida case. But
it did not. Then, at a hearing in Florida on February
25, 2016, Cellairis’ lead counsel Ron T. Coleman Jr.
reiterated Cellairis’ candid equivocation:
MR . COLEMAN : Your Honor, may it please the
Court, I'm Ron Coleman. First, let me thank the
Court for me having the opportunity to appear
pro hac vice in this case. I represent Cellairis and
Global.
…..
Our motion originally was to dismiss because of
their forum selection clauses and arbitration
agreements and all of the relevant agreements
that my client has signed. And although
February is a wonderful time to be here in
Miami, we think the case clearly needs to be
litigated or arbitrated, as the case may be, in
Georgia. [Emphasis added].
(See Hearing Transcript of February 25, 2016 in
Florida case, a copy of which is attached as Exhibit 3
(p. 5:2-17) to Plaintiff’s Verified Response and Reply
Brief to Defendants Cellairis and Global’s Motion for
Attorneys’ Fees and Expenses (“Plaintiff’s Verified

166a
Response”) filed April 3, 2017, a copy of which is
attached as EXHIBIT 6 HERETO.
(11) Therefore, even in the mind of Cellairis’
lead counsel, because of the Forum Selection Clause,
there was a distinct prospect that the “case clearly
needs to be litigated” in Georgia.
(12) Samaca voluntarily dismissed the
Florida suit in March 2016 and filed this action in
Georgia in June. In its original complaint, 11 Samaca
invoked the Forum Selection Clause as a separate
and severable agreement contained within the AA
Agreement while challenging the validity of the
transaction documents as a whole. 12
(13) Cellairis answered the complaint and
moved to compel arbitration based on the arbitration
clauses in the June 30 Franchise Agreements and
the June 30 Sub-License Agreements.
(14) Samaca argued that no arbitration
agreement existed because the Forum Selection
Clause superseded and was inconsistent with the
arbitration provisions. 13 Cellairis argued that the
arbitration provisions controlled. Cellairis later
The Amended Order (p. 2) and Samaca I, 813 S.E.2d at 819,
state that Samaca amended its complaint to assert the “choice of
law” (sic) provision to argue that this had superseded the
arbitration clauses. Instead, Samaca’s original complaint on
June 3, 2016 asserted the Forum Selection Clause as the basis
for venue. Complaint ¶¶ 6-7 [V-3; R-9]. The only relevant
amendment on September 2, 2016 was to state that Global was
also bound by the Forum Selection Clause. [V-4; R-1184].
11

12

13

[V-3; R-9] Complaint ¶¶ 6-7 fn. 1.
[V-4: R-1191-1199].

167a
argued that the provision remitting “arbitrability
questions” to the arbitrator required that an
arbitrator decide questions of arbitrability and that
the arbitration agreements were “incorporated” into
the AA Agreement. 14
(15) On February 7, 2017, relying on case law
that none of the parties cited or briefed, the trial court
ruled in favor of Cellairis, stating in relevant part:
Absent a clear expression that the parties
intended the AA Agreement to supersede the
previous agreements, it cannot be said that
the AA Agreement is inconsistent with the
previous agreements as it required the
execution of new arbitration agreements and
incorporated the previous agreements by
reference. Thus, the Court finds the merger rule
does not apply and the arbitration agreements
were not superseded. The question of
arbitrability of the claims raised against
[Defendants] should be submitted to an
arbitrator.
See Final Order (Exh. 5) (p. 5) (emphasis added). 15
The later arguments by Cellairis arrived in a 21-page reply
brief [V-4-1221] 62 days after their opening motion. In this Court
and any other court that allows reply briefs, these arguments
would have been waved. Samaca unsuccessfully moved to strike
Cellairis’ reply brief. [V- 4; R-1240-1245]. While Samaca
appealed the denial of the motion to strike as an error, this Court
in Samaca I did not decide the issue. Still, Samaca refuted
Cellairis’ additional arguments in this first appeal, but these
arguments were also not addressed in Case No. A17A1715.
14

15

[V-4; R-1393].

168a
(16)

The trial court then dismissed the case. 16

(17) Notably, the trial court misunderstood
Samaca’s arguments. Samaca argued that the Forum
Selection Clause (not the AA Agreement)
superseded and was inconsistent with the arbitration
clauses. 17 Like an arbitration clause, the Forum
Selection Clause is treated as a distinct contract
severable from the agreement in which it is contained.
Equity Trust Co. v. Jones, 339 Ga. App. 11, 12 (2016).
Respectfully, this oversight was repeated when
Samaca I, 813 S.E.2d at 419-420, viewed the
transaction documents as a whole, instead of
examining the Forum Selection Clause and
arbitration provisions as distinct contracts.
(18) The Forum Selection clause had an
effective date of September 1, 2014, involved all four
parties, and was supported by the $350,000 payment
by Samaca. In contrast, the arbitration clauses were
effective June 1, 2014 and did not apply to all of the
parties in the transaction and were not expressly
supported by Samaca’s payment. Meanwhile the
alleged “incorporated” arbitration clauses involved
franchise documents that were never signed. Samaca
I, 813 S.E.2d at 418. (“However, those new
On December 30, 2016, prior to this dismissal, the trial court
entered a default judgment in favor of Samaca against defendant
Cell Phone Mania, LLC, which judgment was certified as final
under O.C.G.A. § 9-11-54(b). [V-4; R-1386-7].
16

[V-4; R- 1194-1199] Plaintiff's Response and Reply
Memorandum to Motion to Dismiss Complaint and to Compel
Arbitration (pp. 8-12 fn 20) (“Plaintiff’s Response”). [V-3; R-9 fn.
1].
17

169a
agreements within the AA Agreement were not
signed.”). (See also Final Order (Exh. 5 p. 5). 18
(19) Nevertheless, in affirming the trial
court, this Court ruled in relevant part:
[T]he arbitration agreements at issue in this
case include a "delegation provision" e.g., an
agreement to arbitrate threshold issues
concerning the arbitration agreement. The
delegation
provision
clearly
assigns
responsibility for resolving "whether any specific
claim is subject to arbitration at all (arbitrability
questions)" to the arbitrator. "[J]ust as the
arbitrability of the merits of a dispute depends
upon whether the parties agreed to arbitrate
that dispute, so the question who has the
primary power to decide arbitrability turns upon
what the parties agreed about that matter."
Samaca I, 813 S.E.2d at 420. (italics added; citations
omitted).
(20) While the appeal was pending, on March
24, 2017, Cellairis filed the Motion for Attorneys’
Fees. For its main argument, Cellairis asserted a
“prevailing party” provision in the disputed June 30
Franchise Agreements. In the “alternative,”
Cellairis sought attorneys’ fees under 9-15-14,
claiming that Samaca’s opposition to the motion to
compel arbitration was frivolous. (pp. 8-10). Cellairis
did not submit affidavits regarding the allegedly
frivolous conduct by Samaca. 19
18
[V-4; R-1391]. “[T]he parties never executed new franchise or
sub-license agreements…”

Cellairis included an unsworn list of seven “(i) – (vii”)
supposedly improper acts in the case. Motion for Attorneys’ Fees
(Exh. 2 p. 10). Samaca refuted each with sworn statements in

19

170a
(21) On April 3, 2017, Samaca filed
Plaintiff’s Verified Response (Exh. 6). Samaca’s
lead argument was: “Judicial estoppel bars the Court
from hearing these claims because they also raise
questions of arbitrability.” (p. 3). Regarding the 9-1514 claim, Samaca objected to the lack of affidavits
concerning the allegedly abusive conduct. (p. 17).
(22) After the remittitur on November 26,
2018, Samaca asserted the law of the case in its
Motion to Compel Arbitration (Exh. 3 p. 5 fn. 6),
filed the same day.
(23) Samaca showed that both the “prevailing
party” attorney fee claim 20 and the 9-15-14 claim also
raised questions of arbitrability. Regarding the latter,
Samaca showed that statutory rights, such as 9-15-14,
also raise an issue of arbitrability. Motion to
Compel Arbitration (Exh. 3) (pp. 6-8).
(24) On January 3, 2019, Cellairis filed
Defendants’ Opposition to Samaca’s Motion to
Compel Arbitration, a copy of which is attached as
EXHIBIT 7 HERETO. In relevant part, Cellairis

Plaintiff’s Verified Response (Exh. 6 p. 21-23). As shown at
the end of this brief, Cellairis’ putative affidavit by Ronald T.
Coleman Jr. was not sworn and was limited to trying to
authenticate and lay a business records foundation for invoices
without allocating expenses as required for 9-15-14 claims.
Samaca also showed that the trial court lacked jurisdiction
over the “prevailing party” claim because the case had been
dismissed. Montgomery v. Morris, 322 Ga. App. 558, 560 (2013).
Motion to Compel Arbitration (Exh. 3 p. 6 fn. 7). In addition,
Samaca showed that without having asserted a counterclaim,
Cellairis’ motion on this disputed provision had no legal basis.
Plaintiff’s Verified Response (Exh. 6 pp. 4-6).
20

171a
argued: “Here, no controversy over arbitrability exists
to be decided.” (p. 5).
(25) On January 11, 2019, Samaca filed
Plaintiff’s Reply to Defendants’ Opposition to
Samaca’s Motion to Compel Arbitration, a copy of
which is attached as EXHIBIT 8 HERETO. In this
reply, Samaca disputed Cellairis’ assertion that there
was no controversy about arbitrability. It then cited
the U.S. Supreme Court’s decision on January 8, 2019
in Henry Schein, Inc. 139 S.Ct. 524, which mandates
that an arbitrator decide arbitrability issues, even if
the trial believes these issues are “wholly groundless.”
(pp. 2, 5).
A. The trial court should have granted the
entire Motion to Compel Arbitration.
(26) On February 12, 2019, the trial court
jointly heard the Motion for Attorneys’ Fees and
the Motion to Compel Arbitration. Again citing
judicial estoppel and the law of the case, Samaca
made a continuing objection to the trial court’s
considering and ruling upon the arbitrability or the
merits of the Motion for Attorneys’ Fees. Samaca
also made a continuing objection to any unsworn
allegations by Cellairis’ counsel or as presented in the
Motion for Attorneys’ Fees. See Hearing
Transcript (pp. 4:15-21, 17:6-19:19), attached as
EXHIBIT 9 HERETO.
(27) Samaca again cited the U.S. Supreme
Court’s decision in Henry Schein, Inc., informing the
trial court that only an arbitrator may decide
questions of arbitrability “even if the Court thinks
that the question of arbitrability is, quote, wholly
groundless.” See Hearing Tr. (Exh. 11) (pp. 23:1022).
(28) Nevertheless, on February 27, 2019, the
trial court issued the Initial Order (Exh. 10), saying

172a
that Samaca was liable under 9-15-14 but deferred the
award. Then, on March 6, 2019, it issued the
Amended Order that awarded money damages of
$59,983.78. It did not explain the calculation, the
allocation, or the proof on which the award is based.
The trial court had no authority to decide the
arbitrability, much less the merits, of the 9-15-14
claim. Henry Schein, Inc., 139 S. Ct. at 529
(29) The trial court also ruled that the
“prevailing party” provision in the disputed June 30
Franchise Agreement is arbitrable:
Insofar as the parties' agreements expressly
state that "[a]II controversies, claims, or
disputes ... arising out of or relating to ... [the]
agreement ... (and/or] "[t]he scope and validity of
th[e] Agreement" and "specifically including
whether any specific claim is subject to
arbitration at all (arbitrability questions)" must
be decided by an arbitrator. [sic]. The Court
therefore finds that Defendants' request for fees
under the "prevailing party" provision arises out
of or is related to the agreement and thus must be
decided by an arbitrator.
Amended Order (p. 4). (Emphasis added). The trial
court had no authority to rule on its arbitrability. Only
an arbitrator did. Henry Schein, Inc., 139 S. Ct. at
529.
(30) These arbitrability rulings create other
problems. The Amended Order arguably altered the
Final Order (Exh. 5) 21 that dismissed the case and
compelled arbitration on arbitrability. It usurped and
revoked the arbitrator’s exclusive power to decide
21

[V-4; R-1389-1395]

173a
arbitrability as to the above described matters. This
has implications for other transaction provisions in
future arbitration. For instance, Section 13 of the AA
Agreement states: “Each party shall bear its own
costs and expenses, including attorneys’ fees and
expenses of litigation, in connection with this
Agreement.” 22 In turn, as we know, the Forum
Selection Clause in Section 11 of the AA Agreement
says the trial court is the “sole and exclusive” forum
for “any case or controversy”. Therefore, until the
Amended Order is reversed, the parties cannot
proceed to arbitration on a proper basis.
(31) The Amended Order did not mention
judicial estoppel, the law of the case from Samaca I or,
even, Henry Schein, Inc. Samaca cited each of these
before the trial court’s rulings. As held in Henry
Schein, Inc., when the parties have delegated
arbitrability questions to an arbitrator, “a court
possesses no power to decide the arbitrability
issue. This is true even if the court thinks that the
argument that the arbitration agreement applies to a
particular dispute is wholly groundless.” 139 S.Ct. at
529. (Emphasis added).
(32) This Court of Appeals has expressed a
similar view. When a matter is referable to
arbitration, it “deprive[s] the court of the
authority to conduct” further proceedings on the
matter. GF/Legacy Dallas, Inc. v. Juneau
Construction Co., LLC, 282 Ga. App. 14, 17 (2006).
(33) In our case, the trial court could do
nothing except refer the entire Motion for

[V-3; R-53] Section 13 of AA Agreement attached as Exh. 1 to
Complaint.
22

174a
Attorneys’ Fees to an arbitrator. Hearing Tr. (Exh.
9 p. 23:23-24:2).
B. The trial court abused its discretion in
awarding fees under 9-15-14(b).
(34) If the above does not warrant reversal,
the trial court abused its discretion and was not
authorized to make an award under 9-15-14(b). The
Forum Selection Clause provided firm grounds for
Samaca to file suit in the trial court.
No [one] is bound to forego litigation at
the expense of yielding rights
apparently well founded.... Where there
is a bona fide controversy for the
tribunals to settle, and the parties
cannot adjust it amicably, there should
be no burdening of one with the counsel
fees of the other, unless there has been
wanton or excessive indulgence in
litigation.
Estate of McNair v. McNair, 343 Ga. App. 41 805
S.E.2d 655, 659 (2017) (citations and punctuation
omitted).
(30) Moreover, a court is barred from awarding
fees under 9-15-14(b) when there is a factual or legal
dispute.
[A] court is not authorized to
award attorney fees under OCGA §
9-15-14(b) where a ruling on the
claim at issue is dependent upon
the resolution of a factual or legal
dispute.
Lee v. Park, 341 Ga. App. 350 (1), 800 S.E.2d. 29, 33
(2017) (emphasis added) (citations omitted).

175a
(31) The Amended Order (p. 6) made the
following findings regarding the Section 9-15-14
motion:
Based on the clear and unambiguous
language of the parties' agreements,
specifically the delegation clause which
noted that whether any specific claim is
subject to arbitration is itself a [sic]
subject to arbitration, and the express
incorporation of the arbitration clauses
into the Assignment & Assumption
Agreement, the Court finds that
Plaintiff's arguments to the contrary
lack substantial justification, and that
Plaintiff’s conduct in the litigation of the
claims before this Court was interposed
for delay or harassment. [Emphasis
added].
(32) “[I]t is incumbent upon the court to
specify the conduct upon which the award is made.”
Hall v. Monroe County, 271 Ga. App. 895, 897
(2005). 23 Without any textual analysis of the Forum
Selection Clause, the trial court’s findings are
untenable. Neither Cellairis nor even the trial court
initially saw “clear and unambiguous language [in]
The Amended Order (p. 7) also says: “[T]he Court has also
found that Plaintiff’s tactics during the pendency of this case
were meant to delay the disposition of the case and to harass and
expand these proceedings for almost three years, thus justifying
an award of attorneys’ fees under O.C.G.A. § 9-15-14(b).” The
reference to “tactics” is not explained. This appears to refer solely
to Samaca’s reliance on the Forum Selection Clause because no
other “tactics” are described.
23

176a
the parties’ agreements”. In moving to dismiss the
case in Florida, Cellairis did not seek to compel
arbitration. Instead, due to the Forum Selection
Clause, Cellairis admitted the prospect that “the case
clearly needs to be litigated” in Georgia.
(33) Regarding the arbitrability “delegation
provision,” this was not a matter of Samaca having to
show a “clear expression” that the AA Agreement
superseded the arbitration clauses. Final Order
(Exh. 5 p. 5). Rather, Cellairis (not Samaca) had the
inescapable burden to prove the existence of an
agreement to arbitrate arbitrability by “clear and
unmistakable evidence.” First Options of Chicago, Inc.
v. Kaplan, 514 U.S. 938, 944 (1995). Given the Forum
Selection Clause, this was a tall order. In this regard,
the Forum Selection Clause had a “delegation
provision” 24 of its own:
[The trial court] shall be the sole and
exclusive venue and sole and exclusive
proper forum in which to adjudicate any
case or controversy arising either, directly
or indirectly, under or in connection with
this Agreement. [Emphasis added].
(34) The
term
“controversy”
includes
arbitrability. Rent-A-Center W., Inc. v. Jackson, 561
U.S. 63, 68 (2010). In contrast to arbitrators, courts
are presumed to have authority to decide
arbitrability. First Options, 514 U.S. at 939. At a
minimum, there is an ambiguity in this case. But
“clear and unmistakable evidence” tolerates no
The term “delegation provision” has no universal meaning. It
was a term adopted by the parties in the U.S. Supreme Court
case addressing an agreement to arbitrate arbitrability. Rent-ACenter W., Inc. v. Jackson, 561 U.S. 63, 68 (2010).
24

177a
ambiguity. Even if both the Forum Selection and
arbitration clauses stood together, courts are not
allowed to prefer arbitration over litigation. “[F]ederal
law places arbitration clauses on equal footing with
other contracts, not above them.” Janiga v. Questar
Capital Corp., 615 F.3d 735, 740 (7th Cir. 2010). In
sum, there was no “clear and unambiguous language”
about who would decide arbitrability.
(35) Even after the law of the case, the trial
court was unclear about who decides arbitrability. In
the Amended Order, the trial court decided the
arbitrability of the 9-15-14 motion saying it was not
arbitrable. It reasoned as follows:
Importantly, awards under 9-15-14 are not
‘claims’ subject to arbitration but rather
constitute sanctions of the Court intended to
recompense litigants and to punish and deter
litigation abuses. See Long v. City of Helen, 301
Ga. 120, 121, 799 S.E.2d 741, 742 (2017);
Riddell v. Riddell, 293 Ga. 249, 250, 744 S.E.2d
793, 794 (2013).
Amended Order (p. 7).
(36) But Long and Riddell do not support
this. To the contrary, Long shows that “the origins of
OCGA § 9-15-14…arose out of torts of malicious use
and malicious abuse of the judicial process.” Id. at 120
n. 2. In other words, 9-15-14 is a codification of a state
law tort claim. To be sure, Georgia’s other abusive
litigation statute, O.C.G.A. § 51-7-85, shows this as
well:
On and after April 3, 1989, no claim other than
as provided in this article or in Code Section
9-15-14 shall be allowed, whether statutory or
common law, for the torts of malicious use of
civil proceedings, malicious abuse of civil
process, nor abusive litigation, provided that

178a
claims filed prior to such date shall not be
affected. This article is the exclusive remedy for
abusive litigation. [Emphasis added].
(37) The trial court cited no authority under
the Federal Arbitration Act, 9 U.S.C. §§ 1 et seq., that
would exempt “sanctions of the Court” under 9-15-14
from arbitration. Samaca finds none. Indeed, “[w]hen
state law prohibits outright the arbitration of a
particular type of claim, the analysis is
straightforward: The conflicting rule is displaced by
the [Federal Arbitration Act].” AT&T Mobility, LLC v.
Concepcion, 563 U.S. 333, 341 (2011).
(38) Respectfully,
the
trial
court’s
misapprehension of Samaca’s arguments carried over
to Samaca I, 813 S.E.2d at 420. The Forum Selection
Clause should have been treated as a distinct
contract, separate from the AA Agreement. 25 The
Forum
Selection
Clause
“clearly
dealt
comprehensively with the same subject matter [of the
arbitration clauses] – the circumstances and
conditions under which claims between [all the
parties] would be subject to [dispute resolution].
Waffle House, Inc. v. Pavesi, 343 Ga. App. 102, 105
(2017) (applying the contract merger doctrine).
(39) Also, let us not forget that Cellairis was
the exclusive drafter of the documents in this case. 26
The Forum Selection Clause appeared in the
specially-typed AA Agreement. This contrasts with
the pre-printed forms of the June 30 Franchise
Agreements and the June 30 Sub-License
Agreements. Even if doubts are not construed
[V-3; R-1194-96] Plaintiff’s Response pp. 8-10 fn. 20. [V-3:
R-9] Complaint ¶¶ 6-7 fn 1.
25

26

[V-4; R-1186] Affidavit of Arnaldo Gonzalez.

179a
against Cellairis under O.C.G.A. § 13-2-2(5) (as they
should be), the Forum Selection Clause in the
specially-typed AA Agreement is “entitled to most
consideration” over the pre-printed arbitration
clauses. O.C.G.A. § 13-2-2(7); Authentic Arch.
Millworks v. SCM Group, 262 Ga. App. 826, 831
(2003) (contradictory typed provision overrides preprinted language). And let us not forget that when
Cellairis moved to dismiss Samaca’s first suit in
Florida, it did not even seek to compel arbitration
because, under the Forum Selection Clause, it
acknowledged the distinct prospect that the “case
clearly needs to be litigated.” 27
(40) Notably, this Court’s decision in Samaca
I, was a nonbinding physical precedent. Rule
33.2(a)(1). Therefore, one of the panel judges of this
Court had reservations. Moreover, “[a] prevailing
party is not perforce entitled to an award of attorney
fees [under 9-15-14(b)].” Campbell v. The Landings
Assn., 311 Ga. App. 476, 483 (2011). Cellairis should
have been satisfied with its qualified victory. But the
9-15-14 motion was overreach. 28
(41) After Samaca canvassed the nation for
other cases in which the parties’ transaction
As a matter of contract, the AA Agreement (Section 11) states:
“Each party shall bear its own costs and expenses, including
attorneys’ fees and expenses of litigation, in connection with this
Agreement.” This would bar the 9-15-14 motion. Plaintiff’s
Response to Defendants’ Supplemental Brief in Support Of
Motion for Attorneys’ Fees and Expenses filed Jan. 11, 2019,
EXH. 13 HERETO. (p. 13).
27

Reputations are fragile. Motions for sanctions should not be
brought except in the clearest cases based on evidence.
28

180a
documents contained both a mandatory forum
selection and an arbitration provision, Samaca I
appears to stand alone in having ordered arbitration.
See Arizon Structures Worldwide, LLC v. Global Blue
Techs. -Cameron, LLC, 481 S.W.3d 542, 548 (Mo.
App., 2015): (“A court cannot simultaneously give
effect to an arbitration agreement stating that ‘any
dispute ... shall be ... resolved by binding Arbitration’
…. and a contractual provision requiring ‘[a]ny
controversy or claim ... be settled exclusively in
…Court....’"); Goldman, Sachs & Co. v. Golden Empire
Sch. Fin. Auth., 764 F.3d 210, 214 (2d Cir. 2014) ("[A]n
agreement to arbitrate is superseded by a laterexecuted agreement containing a forum selection
clause if the clause ‘specifically precludes' arbitration,
but there is no requirement that the forum selection
clause mention arbitration"); Applied Energetics, Inc.
v. NewOak Capital Markets, LLC, 645 F.3d 522, 525
(2d Cir. 2011) (Prior arbitration clause “stands in
direct conflict” with subsequent forum selection clause
stating “[a]ny dispute arising out of this Agreement
shall be adjudicated in the Supreme Court, New York
County or in the federal district court for the Southern
District of New York."); Hyundai Merch. Marine Co.
v. ConGlobal Indus., LLC, 2016 WL 695649, at *1
(N.D. Tex. Feb. 22, 2016) (Where arbitration clause
read “[a]ny dispute between the parties hereto shall
be resolved by arbitration and litigation in Dallas
County, Texas,” the court denied a motion to compel
arbitration and held: “[T]he provision cannot
reasonably be interpreted as expressing a clear and
unambiguous intent of the parties to submit to
binding arbitration”); PDX Pro Co., Inc. v. Dish
Network, LLC, 2013 WL 3296539, at *3, *4 (D. Colo.
July 1, 2013) (“The forum selection clause states that
the state and federal courts of Colorado ‘shall have

181a
exclusive jurisdiction to hear and determine any
claims, disputes, actions, or suits.’ …. Similarly, the
arbitration clause states that ‘any and all disputes,
controversies or claims…shall be resolved solely and
exclusively by binding arbitration.’… “These
provisions are all-inclusive, mandatory, and neither
admits the possibility of the other.”); Beumer Corp. v.
Bloom Lake Iron Ore Mine Ltd., 2014 WL 2619676
(N.D. Ohio, June 12, 2014) (“[T]he Court Provision
plainly states that ‘[a]ny disputes arising out of or in
conjunction with this Agreement shall be adjudicated
in the local, state or federal courts of Cleveland, Ohio.
. . .’ This language is broad and mandatory, and
[movant] offers no meaningful argument as to why the
phrase ‘any dispute’ does not include the ‘substantive
merits of their dispute,’ nor does it explain how the
phrase ‘shall be adjudicated’ leaves any room for
arbitration”); GKD-USA, Inc. v. Coast Machinery
Movers, 126 F.Supp.3d 553, 556-7 (D. Md., 2015)
(Forum selection clause with subsequent “effective”
date supersedes prior “effective” date arbitration
clause.); Sharpe v. Ameriplan Corp.,769 F.3d 909, 918
(5th Cir., 2014) (Because forum selection clause
allowed litigation, it could not be harmonized with
arbitration clause; thus, plaintiffs could not be
compelled to arbitrate their claims); Union Elec. Co.
v. Aegis Energy Syndicate 1225, 713 F.3d 366, 368
(8th Cir., 2013) (forum selection clause “supplants”
arbitration clause where parties agreed to “submit to
the jurisdiction of the Courts….”; even if contract
construed as a whole, ambiguity is construed against
drafter).
C. The 9-15-14(b) award is excessive,
unallocated and unsupported by
evidence.

182a
(42) Even if this Court disagrees with
Samaca on the existence of a bona fide dispute, the
award constitutes an excessive lump sum award that
is unsupported by evidence. The Amended Order
“fails to show the complex decision making process
necessarily involved in reaching a particular dollar
figure and fails to articulate why the amount awarded
was [$59,983.79] as opposed to another amount.”
Fedina v. Larichev, 322 Ga. App. 76, 81 (2013).
(43) Plaintiff’s Verified Response (Exh. 6
pp. 17, 21-23) specifically objected to the absence of
affidavits needed to prove the allegedly abusive
conduct and to allocate fees as required by Duncan v.
Cropsey, 210 Ga. App. 814, 8-15-16 (1993). Further, at
the February 12, 2019 hearing, Samaca made a
continuing objection under O.C.G.A. § 24-6-603(a)29 to
unsworn allegations by Cellairis’ counsel or as
presented in the Motion for Attorneys’ Fees.
Hearing Tr. (Exh. 9 pp. 18:21-20:3) The Court did
not direct oral testimony under O.C.G.A. § 9-11-43(b),
and no one testified under oath at the hearing. See all
45 pages of Hearing Tr. (Exh. 9).
(44) Ronald T. Coleman Jr.’s purported
affidavit for Cellairis attempted to authenticate and
lay a business records foundation for legal invoices
but did not allocate fees. However, the affidavit was
not sworn before a notary, but only attested: “Signed,

29

O.C.G.A. § 24-6-603(a) states:
Before testifying, every witness shall be required to
declare that he or she will testify truthfully by oath or
affirmation administered in a form calculated to awaken
the witness's conscience and impress the witness's mind
with the duty to do so.”

183a
sealed, and delivered.” O.C.G.A. § 45-17-1(1). 30
Despite page 1 of Exhibit J stating that Mr. Coleman
had taken an oath, the notarial signature on the 9th
unnumbered page does not state that the illegible
notary actually administered an oath to Mr. Coleman.
See Exhibit J (unnumbered 9th page) to Motion for
Attorneys’ Fees (Exh. 2). A notary’s signature is not
evidence of a document’s other contents. O.C.G.A. §
45-17-8(f). 31 Cellairis had long notice of the failure to
present sworn statements in support of their
motion. 32 The record is closed and no second chance
should be afforded to Cellairis.
V. CONCLUSION.
The trial court lacked power to decide the
arbitrability of the entire Motion for Attorneys’
Fees. Under judicial estoppel, the law of the case, and
30

31

O.C.G.A. § 45-17-1(1) states:
"Attesting" and "attestation" are synonymous and mean
the notarial act of witnessing or attesting a signature or
execution of a deed or other written instrument, where
such notarial act does not involve the taking of an
acknowledgment, the administering of an oath or
affirmation, the taking of a verification, or the certification
of a copy. [Emphasis added].
O.C.G.A. 45-17-8(f) states:
The signature of a notary public documenting a notarial
act shall not be evidence to show that such notary public
had knowledge of the contents of the document so signed,
other than those specific contents which constitute the
signature, execution, acknowledgment, oath, affirmation,
affidavit, verification, or other act which the signature of
that notary public documents…. [Emphasis added].

Given the damage that 9-15-14 sanctions motions threaten to
an attorney’s professional reputation, even when the motion is
only against his client, the importance of sworn evidence is
especially critical.
32

184a
Henry Schein, Inc., only an arbitrator may decide
issues of arbitrability, including whether the 9-15-14
claim is arbitrable in this case. Until the Amended
Order is reversed and Samaca’s Motion to Compel
Arbitration is granted in its entirety, the parties
cannot proceed to arbitration on a proper basis.
Separately, if this issue must be reached, the
trial court was not authorized to sanction Samaca
under 9-15-14 for resisting Cellairis’ motion to compel
arbitration. The Forum Selection Clause provided
Samaca with solid grounds for suing in the trial court.
Even Cellairis believed this when Samaca first filed
suit in Florida. Finally, the excessive lump sum award
of $59,983.78 was neither properly allocated nor
supported by admissible evidence.
WHEREFORE, Samaca respectfully requests
that this appeal be allowed.
Respectfully submitted
this 11th day of March
2019.

*****
D. R. MARTIN, LLC
/s/David Martin
David Martin
*****
ATTORNEY
FOR
PETITIONERAPPELLANT
SAMACA, LLC.

185a
APPENDIX CC
IN THE COURT OF APPEALS
STATE OF GEORGIA
SAMACA, LLC,
Petitioner-Appellant,
vs.
CELLAIRIS FRANCHISE, INC., GLOBAL
CELLULAR, INC., and CELL PHONE MANIA,
LLC,
Respondents-Appellees.
Case No. A19D0372
*****
RESPONSE IN OPPOSITION TO
APPLICATION FOR DISCRETIONARY
REVIEW
[Filed: March 21, 2019] [EXCEPT]
PARKER, HUDSON, RAINER & DOBBS LLP
Ronald T. Coleman, Jr.
Georgia Bar No. 177655
Jared C. Miller
Georgia Bar No. 142219
Justin P. Gunter
Georgia Bar No. 969468
*****
Counsel for Respondents Cellairis Franchise, Inc.
and Global Cellular, Inc.
******

186a
INTRODUCTION
This Court should deny Samaca’s Application
for Discretionary Review because Samaca fails to
meet its burden of showing any of the four
justifications for a discretionary review under Georgia
Court of Appeals Rule 31. 1
In its application for appeal, Samaca claims the
trial court erred by awarding sanctions against
Samaca pursuant to O.C.G.A. § 9-15-14. As outlined
below, Samaca’s conduct in this case made this the
quintessential case for an award of sanctions under
O.C.G.A. § 9-15-14. Samaca challenges the sanctions
award against it by making a technical argument
that, where there is an arbitration clause requiring
the arbitration of substantive claims, the trial court
lacks authority to sanction litigants under O.C.G.A. §
9-15-14. Not surprisingly, Samaca’s novel argument is
unsupported by the applicable case law.
This case comes back to this Court after an
almost three-year long history of litigation during
which Samaca unjustifiably opposed its clear and
unambiguous agreement to arbitrate. Moreover,
during this lengthy litigation (which included a prior
appeal and motion for reconsideration to this Court
The day before Defendants’ response was due, Samaca filed an
Amended Application for Discretionary Review. For an unknown
reason, Samaca filed the amended application to explain that the
trial court denied Samaca’s request for a certificate of immediate
review of the trial court’s interim order almost immediately after
the trial court issued its final order sanctioning Samaca.
Defendants maintain that this addition in Samaca’s amended
application is of no consequence. Accordingly, this Response
responds to both Samaca’s initial Application for Discretionary
Review and Samaca’s Amended Application for Discretionary
Review.
1

187a
and a petition for certiorari and motion for
reconsideration to the Supreme Court of Georgia),
Samaca repeatedly engaged in overly-litigious
conduct that delayed and unnecessarily expanded the
litigation. As a result, the trial court correctly
sanctioned Samaca, finding that Samaca’s arguments
in this case “lack substantial justification” and that
Samaca’s “tactics during the pendency of this case
were meant to delay the disposition of the case and to
harass and expand these proceedings for almost three
years.”
Despite its sanctionable conduct, Samaca
contends that the trial court could not impose
sanctions without first allowing an arbitrator to
decide whether the trial court had authority to impose
sanctions pursuant to Section 9-15-14 of the Georgia
Code. But, as the trial court correctly found, it should
hardly need stating that a court’s own procedural
rules are not legal claims subject to arbitration.
Neither the parties nor an arbitrator can divest a
Georgia court of its authority to regulate litigation
and sanction litigants pursuant to Georgia statutes.
Samaca can cite no precedent supporting its farfetched argument, and Defendants likewise have
located no such authority. To the contrary, the
decisions of this Court and courts around the country
directly contradict Samaca’s argument by affirming
sanctions on parties that unjustifiably oppose
arbitration.
Even Samaca’s own recent trial court filing
directly contradicts Samaca’s arguments in its
Application. In this appeal Samaca claims that the
trial court lacked authority to grant Defendants’
Motion for Attorneys’ Fees and impose sanctions
under O.C.G.A. § 9-15-14 given an arbitration clause.
Today, however, Samaca filed its own copycat “Motion

188a
for Attorney’s Fees & Expenses under O.C.G.A. § 915-14” in the trial court. 2 Samaca’s own request that
the trial court impose sanctions pursuant to O.C.G.A.
§ 9-15-14 entirely undermines its Application to this
Court. Moreover, Samaca’s inconsistent conduct
demonstrates that the purpose of Samaca’s
Application is to delay Defendants’ recovery of their
attorneys’ fees. Accordingly, because Samaca’s own
actions demonstrate that its Application is patently
meritless, this Court should deny Samaca’s
Application and not provide Samaca a platform to
perpetuate its campaign of delay and harassing
litigation. Samaca’s remaining arguments rehash
issues already resolved in Samaca’s prior appeal and
quibble with certain aspects of the trial court’s Order.
Samaca contends this Court’s prior opinion was
incorrectly decided and, therefore, that Samaca’s legal
positions were actually justified. But, Samaca’s
arguments still fail to squarely address the controlling
and severable “delegation provision” in which Samaca
agreed to arbitrate the “scope and validity of this
Agreement specifically including whether any specific
claim is subject to arbitration at all (arbitrability
questions).” Samaca also contends that Defendants
did not submit any sworn affidavits supporting the
trial court’s sanction. That position is directly
contradicted by the two affidavits submitted by

Samaca’s copycat motion seeks sanctions against Defendants
related to a different portion of the same Motion for Attorneys’
Fees by Defendants that is the subject of Samaca’s Application.
Samaca confusingly filed today its motion under O.C.G.A. § 9-1514 in the trial court, but then in the same motion “object[ed] to
the Court’s considering and ruling upon th[e] motion until an
arbitrator decides whether it is arbitrable.”
2

189a
Defendants in which the notaries specifically stated
that the affiant had been “duly sworn.”
Samaca’s Application is just the latest volley in
Samaca’s now well established history of abusive
litigation. As a result of Samaca’s conduct, this case
has already been pending for almost three years
without the parties commencing litigation on the
merits of Samaca’s claims. Over this time, Defendants
have been forced to expend over $120,000 in attorneys’
fees with no end in sight. Just in regards to
Defendants’ request for sanctions, Samaca has
multiplied Defendants’ expenses by filing: (1) an
emergency motion to dismiss; (2) an opposition; (3) a
sur-reply; (4) a request for hearing; (5) a supplemental
brief; (6) a motion to compel arbitration; (7) a response
to Defendants’ response to Plaintiff’s supplemental
brief; (8) a response to Defendants’ evidence of
attorneys’ fees and expenses; (9) a reply brief; (10) a
motion for reconsideration and request for a
certificate of immediate review; (11) a motion to set
aside the trial court’s order; (12) an initial application
for discretionary review; and (13) an amended
application for discretionary review—not even
counting the plethora of unnecessary email
communications Samaca sent to the trial court.
Accordingly, because Samaca shows no reversible
error, this Court should deny Samaca’s Application
and not provide Samaca with an additional platform
for continued delay and abusive litigation.
FACTUAL AND PROCEDURAL BACKGROUND
Instead of succinctly stating the material facts
relevant to its Application, Samaca’s background
statement focuses on its alleged merits claims, which
are not before this Court, and is filled with disputed
facts entirely irrelevant to the limited issues in the

190a
Application. Given the sheer number of irrelevant
allegations, Defendants will not belabor the Court by
rehashing every error in Samaca’s background
statement. Rather, Defendants will succinctly state
the relevant facts. Despite Samaca’s complicated
description, the transaction underlying this case
involves a straightforward assignment and sale of
four franchise units from one franchisee to another.
To complete this transaction, Samaca executed four
new Franchise Agreements and four new Sub-License
Agreements with Defendants. Compl. at ¶ 63 (Vol. 3,
R-21); Compl. at Exs. 18–25 (Vol. 3, R-558–R-1107). 3
Samaca’s claim that the parties never concluded an
agreement is false and belied by the allegations and
documents attached to Samaca’s own Verified
Complaint. See id. In these agreements, Samaca also
agreed to a “delegation provision” to arbitrate “[t]he
scope and validity of this Agreement … specifically
including whether any specific claim is subject to
arbitration at all (arbitrability questions).” Compl.,
Exs. 18–21 at § 13(D)(1) (Vol. 3, R-622–R-623, R-725–
R-726, R-829–R-830, R-923–R-924); Compl., Exs. 22–
25 at § 13 (Vol. 3, R-980, R-1017, R-1055, R-1091). In
March 2015, Samaca sued Cellairis and Global in
Florida state court seeking to rescind the Franchise
Agreements and Sub-License Agreements. Compl. at
¶ 106 (Vol. 3, R-33). Cellairis and Global moved to
dismiss that action based on the arbitration
agreements and because Florida was an improper
venue in any event. Answer at ¶ 107 (Vol. 4, R-1157).
Samaca selectively quotes Defendants’ motion to
create the misleading impression that Defendants did
In many instances, Samaca did not include supporting
documents in the Application Index, but rather cites to the record
of its previous appeal, docket number A17A1715.

3

191a
not raise the existence of the arbitration clauses. That
is false. Defendants identified the arbitration clauses
in the second sentence of the motion and repeatedly
referred to Samaca’s agreements to arbitrate
throughout the motion. Defs.’ Mot. to Dismiss for
Improper Venue and Failure to State a Claim at 1–12
(Appl., Ex. 2 at 30–42). Before the Florida court could
rule on that motion, Samaca voluntarily dismissed its
suit. Compl. at ¶ 108 (Vol. 3, R-33).
Instead of pursuing arbitration, Samaca then
initiated this suit in Georgia state court. Id. Appellees
once again moved to dismiss based on the arbitration
clauses (the “Arbitration Motion”). See generally
Arbitration Motion (Vol. 4, R- 1127–R-1136). The trial
court granted Appellees’ Arbitration Motion, and
Samaca appealed to this Court. See generally Order
(Vol. 4, R-1389–R-1395). This Court affirmed the trial
court’s order and denied Samaca’s motion for
reconsideration. See Samaca, LLC v. Cellairis
Franchise, Inc., 345 Ga. App. 368 (2018) (physical
precedent), reconsideration denied (Mar. 20, 2018),
cert. denied (Oct. 22, 2018). The Supreme Court of
Georgia likewise denied Samaca’s petition for
certiorari and also denied Samaca’s motion for
reconsideration. See id. Shortly after the trial court’s
Order granting the Arbitration Motion, Defendants
filed a Motion for Attorneys’ Fees pursuant to the
parties’ contracts and O.C.G.A. § 9-15-14 (the
“Sanctions Motion”). See generally, Sanctions Motion
(Appl., Ex. 2). As Defendants explained in the
Sanctions Motion, sanctions were appropriate under
O.C.G.A. § 9-15-14 because Samaca lacked any
substantial justification for opposing arbitration and
because Samaca’s overly litigious conduct was
designed to harass Defendants and expand the

192a
proceedings. Sanctions Motion at 8–10 (Appl., Ex. 2 at
8–10). Samaca opposed the Sanctions Motion on a
variety of procedural grounds. Then, over a year-anda-half later, Samaca filed a belated motion to compel
arbitration of the Sanctions Motion. See generally Pl.’s
Mot. to Compel Arbitration (Appl., Ex. 3). Samaca
contended that an arbitrator must first decide
whether the trial court could impose sanctions
pursuant to O.C.G.A. § 9-15-14. Id. Following full
briefing on the Sanctions Motion and Samaca’s motion
to compel arbitration, the trial court held a hearing on
the motions. See generally, February 12, 2019 H’rg Tr.
(Appl., Ex. 9). During that hearing, Samaca did not
cross-examine Defendants’ counsel or otherwise
contest the reasonableness or necessity of the
attorneys’ fees incurred by Defendants. Id.; see also
Order at 6 n.2. (Appl., Ex. 1 at 6 n.2). After the
hearing, the trial court entered an initial Order: (i)
holding that an arbitrator must determine the
arbitrability of Defendants’ request for attorneys’ fees
pursuant to the parties’ contracts (an issue that is not
before this Court), and (ii) sanctioning Samaca for
presenting arguments that lacked substantial
justification and for conduct that was interposed for
delay and harassment. Order at 6–7 (Appl., Ex. 10 at
6–7). At that time, the trial court reserved ruling on
the proper amount of sanctions. Id. The trial court
held that its imposition of sanctions under O.C.G.A. §
9-15-14 involved no arbitrability issue. Order at 7
(Appl., Ex. 1 at 7). The trial court later entered an
Amended Order imposing a sanction of $59,983.78 on
Samaca under O.C.G.A. § 9-15-14(b). Id. at 6 (Appl.,
Ex. 1 at 6).

193a
ARGUMENT AND CITATION OF
AUTHORITIES
This Court should deny Samaca’s Application
because Samaca cannot meet its burden to establish
the requirements for a discretionary appeal. Pursuant
to Rule 31(b), applications “will be granted only when:
(1) Reversible error appears to exist; (2) The
establishment of a precedent is desirable; (3) Further
development of the common law … is desirable; or (4)
[appeals of a judgment and decree of divorce].” Ga. Ct.
App. R. 31(b) (emphasis added). “The applicant bears
the burden of persuading the Court that the
application should be granted.” Id. As explained
below, the trial court correctly sanctioned Samaca for
taking positions lacking substantial justification and
for litigation interposed for delay and harassment.
Likewise, Samaca does not show that the
establishment of additional precedent on these issues
is desirable. In fact, Samaca’s Application largely
rehashes the same arguments already resolved by this
Court in Samaca’s previous appeal. Additional
precedent would be cumulative. Accordingly, this
Court should deny the Application.
I.
The Trial Court Correctly Held that
Samaca Raised No Arbitrability Issue.
This Court should deny Samaca’s request for
discretionary review because the trial court correctly
held that its imposition of sanctions pursuant to
Georgia’s civil practice statutes raised no issue of
arbitrability that the parties could arbitrate. The
propriety of that holding should be indisputable given
that Samaca has also now filed its own “Motion for
Attorney’s Fees & Expenses under O.C.G.A. § 9-1514” in the trial court. As the trial court explained,
“awards under 9-15-14 are not ‘claims’ subject to

194a
arbitration but rather constitute sanctions of the
Court ….” Order at 7 (Appl., Ex. 1 at 7). Although
Defendants agree with Samaca that any dispute as to
which claims must be arbitrated must itself be
arbitrated, Samaca’s argument assumes without any
explanation or support that the trial court’s
imposition of sanctions pursuant to Georgia’s civil
practice statutes raises a question of arbitrability.
Critically, Defendants’ request for sanctions raised no
arbitrability issue that the parties could be compelled
to arbitrate—that is no issue of whether a legal claim
is covered by an agreement to arbitrate.
As Samaca acknowledges, an “arbitrability”
issue is an issue of whether a legal claim is covered by
an agreement to arbitrate. Appl. at 2. The trial court’s
application of its own procedural rules to impose
sanctions pursuant to a statute in the Civil Practice
Title of Georgia’s Code raises no such issue. Samaca’s
argument mistreats O.C.G.A. § 9-15-14 as a
substantive legal claim, subject to an arbitrability
determination. It is not. Rather, the statute sets forth
the powers of a court to govern proceedings “in any
civil action in any court of record.” O.C.G.A. § 9-1514(b). The statute “does not create a tort claim” that
the parties could agree to arbitrate or be compelled to
arbitrate. See Deavours v. Hog Mountain Creations,
Inc., 207 Ga. App. 557, 558 (1993), disapproved on
other grounds, 213 Ga. App. 337 (1994) (emphasis in
original). Instead, O.C.G.A. § 9-15-14 merely makes
“procedural provision” for a trial court to award
“sanctions against certain enumerated abuses ….” Id.;
see also Century Ctr. at Braselton, LLC v. Town of
Braselton, 285 Ga. 380, 383 (2009) (describing
O.C.G.A. § 9-15-14 as a sanction available to a trial
court, not as a legal claim). Because O.C.G.A. § 9-1514 is not a legal claim, there can be no arbitrability

195a
determination. The trial court’s own rules and powers
cannot be compelled to arbitration. Georgia precedent
makes clear that this procedural rule “was made
applicable only to courts of record of this state.” Style
Craft Homes v. Chapman, 226 Ga. App. 634, 635
(1997) (quotation omitted). The statute precludes “any
non-court of record,” like an arbitration tribunal,
from imposing costs of litigation under O.C.G.A. § 915-14. Id. Although Samaca now flip-flops on its
position, Samaca previously acknowledged that
“O.C.G.A. § 9-15-14(a) applies only to ‘civil actions to
[sic] any court of record of this state.’” Pl.’s Resp. to
Mot. for Att’ys’ Fees at 7 n.14 (Appl., Ex. 6 at 7 n.14).
Moreover, even after the trial court’s Order
compelling arbitration, Samaca acknowledged that
“the Court continues to have jurisdiction to decide
Defendants’ Motion under O.C.G.A. § 9-15-14.” Pl.’s
Req. for Hr’g on Defs. Mot. for Att’y’s Fees and
Expenses at 2 (attached as Exhibit 1). 4 Today,
Samaca even filed its own “Motion for Attorney’s Fees
& Expenses under O.C.G.A. § 9-15-14” in the trial
court further illustrating that the trial court’s
imposition of sanctions pursuant to O.C.G.A. § 9-1514 raises no arbitrability issue.
For these reasons, Georgia courts routinely
impose sanctions pursuant to O.C.G.A. § 9-15-14 even
when the legal claims in a case must be arbitrated.
Plaintiff’s Application Index failed to attach the full briefing
and materials related to its Application. For example, Samaca
omitted Defendants’ Supplemental Brief in Support of Motion for
Attorneys’ Fees and Expenses, even though Samaca included its
own response to that brief. Given these omissions, Defendants
have attached the omitted briefing and materials to this
Response.
4

196a
See, e.g., Marchelletta v. Seay Const. Servs., Inc., 265
Ga. App. 23, 29 (2004) (affirming trial court’s grant of
O.C.G.A. § 9-15-14 motion despite substantive claims
being arbitrated); Harkleroad & Hermance, P.C. v.
Stringer, 220 Ga. App. 906, 906 (1996) (reversing trial
court’s denial of O.C.G.A. § 9-15-14 motion despite
substantive claims being arbitrated). Likewise, courts
outside of Georgia also hold that a court’s imposition
of sanctions is not a question of arbitrability. See, e.g.,
Cuna Mut. Ins. Soc. v. Office and Professional
Employees Intern. Union, 443 F.3d 556, 563 n.1 (7th
Cir. 2006) (noting that “even if there was a question of
arbitrability in this case, Rule 11 sanctions may still
apply”); Aveta Inc. v. Bengoa, 986 A.2d 1166, 1183–84
(Del. Ch. 2009) (rejecting argument that arbitration
agreement could strip the court of jurisdiction to hold
parties in contempt).
On the other hand, Samaca can cite no
authority supporting its incredible proposition that an
arbitrator must decide whether a court can enforce its
own rules. Plainly, parties cannot contract around a
court’s procedural rules. Likewise, an arbitrator
cannot strip a court of authority to enforce its own
procedural rules. Simply put, the trial court, not an
arbitrator, is responsible for enforcing its own rules
for proceedings before the trial court. Samaca’s
position seems to be that, if there is an arbitration
clause, the trial court has no authority to regulate
litigants and counsel before it during proceedings to
compel arbitration. This is not the law, and Samaca
has offered no legal authority to support that
surprising position. Accordingly, the trial court
correctly determined that Defendants’ request for
sanctions did not create any arbitrability issue.
II. The Trial Court Correctly Sanctioned
Samaca Pursuant to O.C.G.A. § 9-15-14.

197a
This Court should deny Samaca’s request for
discretionary review because the trial court correctly
sanctioned Samaca pursuant to O.C.G.A. § 9-15-14(b).
This Court reviews a trial court’s sanctions pursuant
to O.C.G.A. § 9-15-14(b) for an abuse of discretion.
Chadwick v. Brazell, 331 Ga. App. 373, 380 (2015).
Samaca cannot show that the trial court abused its
discretion either in finding that Plaintiff’s arguments
“lack substantial justification” or in finding that
Samaca’s conduct “was interposed for delay or
harassment.” Order at 6 (Appl., Ex. 1 at 6).
A. Samaca’s arguments lacked substantial
justification and were interposed for
delay and harassment.
Although Samaca quibbles with the trial court’s
Order and reargues the points raised in its prior
appeal, Samaca cannot establish that the trial court
abused its discretion in awarding sanctions based on
Samaca’s unjustified arguments and harassing
litigation. At the outset, Samaca’s brief ignores
altogether the trial court’s finding that sanctions were
appropriate because Samaca’s conduct was interposed
for delay and harassment. Order at 6 (Appl., Ex. 1 at
6-7). At minimum, this undisputed finding of the trial
court is not an abuse of discretion and warrants
denying Samaca’s Application. As the trial court
explained, “Plaintiff’s tactics during the pendency of
this case were meant to delay the disposition of this
case and to harass.” Id. at 7 (Appl., Ex. 1 at 7). As a
result of these harassing tactics, Plaintiff prevented
the expedient resolution of a straightforward motion
to compel arbitration and “expand[ed] these
proceedings for almost three years.” Id. (emphasis
added) (Appl., Ex. 1 at 7).
Turning to the trial court’s finding that
Samaca’s
arguments
“lacked
substantial

198a
justification,” Samaca once again has failed to present
any substantive response. In opposition to
Defendants’ request for sanctions, Samaca did not
address the controlling “delegation provision,” in
which Samaca indisputably agreed to arbitrate
questions of arbitrability. Instead, Samaca’s
opposition focused on a plethora of procedural
objections, almost all of which it has long since
abandoned. This Court should deny Samaca’s
Application, and not allow Samaca to make new
arguments that it failed to make nearly two years ago.
In any event, Samaca’s various arguments fail
to show any abuse of discretion. First, Samaca
quibbles that the trial court’s Order did not provide
“textual analysis” of its arguments. Appl. at 22.
Georgia law, however, contains no requirement that a
trial court provide detailed “textual analysis” of each
of Samaca’s arguments. And, Samaca cites no
authority for such a requirement. To the contrary,
Georgia law states that “the trial court need not cite
specific testimony, argument of counsel, or any other
specific factual reference in its order awarding fees
under O.C.G.A. § 9-15-14.” Heiskell v. Roberts, 342 Ga.
App. 109, 117 (2017). Even the case Samaca cites
explains that a trial court only needs to “specify the
conduct upon which the award is made” when
imposing sanctions. See Hall v. Monroe Cty., 271 Ga.
App. 895, 897 (2005). The point is to provide a clear
order, not a law review article. The trial court met this
standard by explaining how Samaca’s arguments
lacked substantial justification in light of the “clear
and unambiguous” delegation provision and the
delegation provision’s express incorporation into other
contractual documents.
Second, Samaca repeats its improper
arbitrability arguments and contends that this Court

199a
erred in resolving Samaca’s previous appeal.
Defendants will not respond to each of these
irrelevant arguments in order to avoid relitigating the
issues that this Court already decided in the previous
appeal. The controlling point is that Samaca agreed in
a delegation provision to arbitrate the “scope and
validity of this Agreement … specifically including
whether any specific claim is subject to arbitration at
all (arbitrability questions).” Compl., Exs. 18–21 at §
13(D)(1) (Vol. 3, R-622–R-623, R-725–R-726, R-829–R830, R-923–R-924); Compl., Exs. 22–25 at § 13 (Vol. 3,
R-980, R-1017, R-1055, R-1091). This delegation
provision is enforceable, severable, and not impacted
by any challenges to the contract or arbitration clause.
Arbitration Motion at 9 (citing Rent-A-Ctr., W., Inc. v.
Jackson, 561 U.S. 63, 69-72 (2010)) (Vol. 4, R-1135).
Plaintiff did not dispute that it agreed to the
delegation provision, that the delegation provision
was severable from the rest of the contract, and that
the delegation provision required an arbitrator—not a
court—to decide all questions of arbitrability.
Accordingly,
Samaca’s
remaining
arguments
necessarily “lacked substantial justification” because
they had to be presented to an arbitrator, not to a
court.
The only argument Samaca makes that could
be properly decided by the Court is Samaca’s frivolous
argument that Defendants did not show the existence
of an agreement to arbitrate arbitrability by “clear
and unmistakable evidence.” Appl. at 22–23. That
argument is patently false because Samaca’s own
verified Complaint acknowledged that Samaca
executed the agreements attached to
Samaca’s Complaint containing Samaca’s
agreement to arbitrate “whether any specific claim is
subject to arbitration at all (arbitrability questions).”

200a
Compl. at ¶ 63 (Vol. 3, R-21); Compl., Exs. 18–21 at §
13(D)(1) (Vol. 3, R-622–R-623, R-725–R-726, R-829–R830, R-923–R-924); Compl., Exs. 22–25 at § 13 (Vol. 3,
R- 980, R-1017, R-1055, R-1091). Moreover, since that
time, Plaintiff has alleged in its own misguided
Motion to Compel Arbitration that “an arbitrator, not
the Court, must decide whether ‘all controversies,
claims or disputes’… are arbitrable.” Pl.’s Mot. to
Compel Arbitration at 2 (Appl., Ex. 3 at 2).
Accordingly, the trial court correctly determined that
Samaca’s arguments lacked substantial justification
and were interposed for delay and harassment.
B. The trial court’s sanction was
supported by competent and uncontradicted
evidence.
Samaca cannot establish that the trial court
abused its discretion in setting an appropriate
amount for a sanction. In its Application, Samaca
contends that “no evidence supports the award” and
objects to “the absence of affidavits.” Appl. 9, 29.
These statements are simply false. As Samaca later
implicitly acknowledges, Defendants submitted two
affidavits from Defendants’ lead counsel Ronald T.
Coleman, Jr. setting forth in detail the rates charged
by Defendants’ counsel, the reasonableness of those
rates, and the work performed. See generally Aff. of
Ronald T. Coleman, Jr. (Appl., Ex. 2 at 73–114); 2d.
Aff. of Ronald T. Coleman, Jr. (attached as Exhibit 31). Each of these affidavits also attached billing
invoices containing narrative descriptions of each
time entry. Aff. of Ronald T. Coleman, Jr. at Ex. 1
(Appl., Ex. 2 at 83–114); 2d. Aff. of Ronald T. Coleman,
Jr. at Ex. 1 (attached as Exhibit 3-1 at 8–38). Samaca
contends that these affidavits were “not
- - sworn by a
notary,” but that allegation is also demonstrably false.
See Appl. at 30. At the beginning of each affidavit, the

201a
notary specifically states that “[b]efore me, the
undersigned authority, personally appeared Ronald
T. Coleman, Jr., who after being duly sworn, states
and deposes as follows….” Aff. of Ronald T. Coleman,
Jr. at 1 (Appl., Ex. 2 at 73) (emphasis added); 2d. Aff.
of Ronald T. Coleman, Jr. at 1 (attached as Exhibit 31 at 1) (emphasis added). Although its argument is not
clear, Samaca seemingly contends that the notary’s
statement that Mr. Coleman was “duly sworn” is
somehow invalid because it appears at the beginning
of the affidavit and not at the end. That argument
makes little sense because a witness is ordinarily
sworn before testifying, not afterwards. Moreover,
Samaca cites no authority for this argument.
Not only did Defendants submit sufficient
evidence, but the trial court’s Order also evidences
that the trial court carefully evaluated the evidence to
reach an appropriate sanction. Notably, Samaca did
not “cross examine Defense counsel or otherwise
object at the hearing to the reasonableness or
necessity of any portion of the requested fees and
costs.” Order at 6 n.2 (Appl., Ex. 1 at 6 n.2); see also
February 12, 2019 H’rg Tr. (Appl., Ex. 9).
Nevertheless, despite Samaca waiving any objection
to the reasonableness or necessity of the requested
fees, the trial court did not “rubber stamp”
Defendants’ request for fees. Instead, the Court
specifically analyzed what fees were “incurred … as a
result of Plaintiff’s sanctionable conduct.” Order at 6
(Appl., Ex. 1 at 6). The trial court ultimately
concluded that Defendants were only entitled to fees
through March 22, 2017, even though Defendants
requested fees from a larger time period. The trial
court also determined that Defendants were not
entitled to fees related to Defendants’ Motion to Stay
Discovery and for Protective Order. As a result, the

202a
trial court sanctioned Samaca for only $59,983.78 of
the $120,087.19 in fees and costs Defendants
requested.
III. Samaca Cannot Evade the Discretionary
Review Procedure.
Although Samaca filed an application for
discretionary review, Samaca also argues that this
Court has jurisdiction over this case as a direct appeal
from an order denying a motion to compel arbitration.
At the outset, the very fact that Samaca filed an
application for discretionary review evidences that
not even Samaca really believes that it is entitled to a
direct appeal. Otherwise, Samaca would have filed a
notice of direct appeal.
The critical problem with Samaca’s argument
is that the underlying subject matter of this appeal is
an award of attorneys’ fees under O.C.G.A. § 9-15-14.
This underlying subject matter requires an
application for a discretionary appeal. See O.C.G.A. §
5-6-35(a)(10). In cases procedurally covered by the
direct appeal statute (e.g., the denial of a motion to
compel arbitration), but where the underlying subject
matter is covered by the discretionary appeal statute
(e.g., an award of attorneys’ fees under O.C.G.A. § 915-14), “it is always the underlying subject matter
that will control.” Numanovic v. Jones, 321 Ga. App.
763, 764 (2013). As this Court has previously
explained:
When an appealed judgment or order is of
a type listed in OCGA § 5–6–34, but concerns
subject matter listed in OCGA § 5–6–35, both the
direct and discretionary appeal statutes are
implicated. In such cases, the Supreme Court of
Georgia has held that the underlying subject
matter prevails over the procedural judgment
and determines whether the appellant has a

203a
right to a direct appeal or whether the appellant
must seek discretionary review. In other words,
if the underlying subject matter of the relief
sought in the trial court is listed in the
discretionary appeal statute, the appellant must
obtain permission to file an appeal, even though
the judgment or order is listed in the direct
appeal statute.
Best Tobacco, Inc. v. Dep’t Of Revenue, 269 Ga. App.
484, 485 (2004) (internal citations omitted). Thus,
because this case involves an underlying award of
attorneys’ fees pursuant to O.C.G.A. § 9-15-14, “the
discretionary application procedure must be
followed, even when the party is appealing a
judgment or order that is procedurally subject to a
direct appeal under O.C.G.A. § 5-6-34(a).” Rebich v.
Miles, 264 Ga. 467, 468 (1994).
This approach comports with the plain text of
the appellate jurisdiction statutes, because the direct
appeal statute (O.C.G.A. § 5-6-34) specifically excepts
cases provided for in the discretionary appeal statute
(O.C.G.A. § 5-6-35). See O.C.G.A. § 5-6-34(a)(1). This
approach also serves an important practical purpose:
“Otherwise, any party could avoid the discretionary
review procedure by seeking relief, however
inappropriate, that would trigger the right to a direct
appeal.” Rebich, 264 Ga. at 468. That is exactly the
issue in this case. Samaca cannot evade the
discretionary appeal process by belatedly filing a
motion to compel arbitration. Otherwise, any party
could secure a direct appeal simply by filing a motion
to compel arbitration.
CONCLUSION
In sum, Samaca has failed to meet its burden to
show any reversible error or any need for additional
precedent. The trial court correctly determined that

204a
its own authority to sanction litigants raised no issue
of arbitrability. And, Samaca has failed to
demonstrate any way in which the trial court abused
its discretion by sanctioning Samaca. For these
reasons, this Court should reject Samaca’s
Application for Discretionary Review.
[Signature Block on Following Page]
I certify that this submission does not exceed
the word count limit imposed by Rule 24.
Respectfully submitted this 21st day of March,
2019.
PARKER, HUDSON, RAINER & DOBBS LLP
/s/ Jared C. Miller
Ronald T. Coleman, Jr.
Georgia Bar No. 177655
Jared C. Miller
Georgia Bar No. 142219
Justin P. Gunter
Georgia Bar No. 969468
*****
Counsel for Respondents Cellairis Franchise, Inc.
and Global Cellular, Inc.

205a
APPENDIX DD
IN THE SUPERIOR COURT OF FULTON
COUNTY
STATE OF GEORGIA
_________
SAMACA, LLC, Plaintiff, vs. CELLAIRIS
FRANCHISE, INC., GLOBAL CELLULAR, INC.,
and CELL PHONE MANIA, LLC, Defendants.
_________
CIVIL ACTION NO. 2016 CV 276036
[Filed: March 21, 2019]. [Excerpt]
PLAINTIFF’S VERIFIED MOTION AND BRIEF
FOR ATTORNEY’S FEES & EXPENSES UNDER
O.C.G.A. § 9-15-14
Subject to the objection below, Plaintiff
Samaca, LLC (“Samaca”) moves for attorney’s fees
and expenses under O.C.G.A. § 9-15-14(a) or (b)
against Cellairis Franchise, Inc. (“Cellairis”) and
Global
Cellular, Inc.
(“Global”) (collectively
“Defendants”).

*****

OBJECTION
TO
ARBITRABILITY
DETERMINATION BY THE COURT
Pursuant to the law of the case in
Samaca, LLC v. Cellairis Franchise, Inc.,
345 Ga. App. 368, 813 S.E.2d 416 (2018)
finding that the parties in this action are
bound by a valid arbitrability “delegation

206a
provision,” Samaca respectfully objects
to the Court’s considering and ruling
upon this motion until an arbitrator
decides whether it is arbitrable. See also
Henry Schein, Inc. v. Archer & White
Sales, Inc., 139 S.Ct. 524 (2019) (valid
arbitrability
“delegation
provision”
requires that arbitrator determine
arbitrability issue even if trial court
believes the issue is wholly groundless.)
This Court’s order 1 with a contrary
finding is currently the subject of a
petition for appellate review filed by
Samaca on March 11, 2019 in the
Georgia Court of Appeals, Case No.
19D0372.
*****

INTRODUCTION AND BACKGROUND.
Defendants should be held jointly and severally
liable to Plaintiff under O.C.G.A. § 9-15-14(a) or (b) for
attorney’s fees and expenses for having to defend
against their claim under Section 13(K) (the “Section
13(K) claim”) of the disputed June 30 Franchise
Agreements. 2 On February 27, 2019, the Court
Amended Order on Defendants’ Motion for
Attorneys’ Fees and Plaintiff Samaca, LLC’s
Cross Motion to Compel Arbitration of
Defendants’ Motion for Legal Expenses on March
6, 2019. (the “Amended Order”)
1

Unless otherwise shown herein, the bold, capitalized
defined terms in this motion have the same meaning
2

207a
compelled arbitration and denied the Section 13(K)
claim. 3 Defendants should have never presented the
Section 13(K) motion in this court proceeding.
*****

CONCLUSION.
In connection with any future hearing on this
motion under 9-15-14, Samaca will incur additional
fees and expenses. These fees and expenses will be
added to the $61,065.00 sought in this motion. Subject
to the proper authority deciding its arbitrability,
Samaca respectfully requests that this motion be
granted.
2019.

Respectfully submitted this 21st day of March
D. R. MARTIN, LLC
By: /s/ David R. Martin
*****
COUNSEL FOR
PLAINTIFF
SAMACA, LLC
*****

as those contained in the Complaint, (p. 2), Guide to
Terms & Abbreviations, filed June 3, 2016.
See Order on Defendants’ Motion for Attorneys’
Fees and Plaintiff Samaca, LLC’s Cross Motion
to Compel Arbitration of Defendants’ Motion for
Legal Expenses (pp. 4-5).
3

208a
APPENDIX EE
Court of Appeals
of the State of Georgia
________
Application No. A19D0539
Samaca LLC v. Cellairis Franchise, Inc., Global
Cellular, Inc., and Cell Phone Mania, LLC
[Filed July 1, 2019] [EXCERPT]
________
APPLICATION FOR DISCRETIONARY
REVIEW AND REQUEST TO ACCEPT AS
DIRECT APPEAL UNDER O.C.G.A. §
5-6-35(j)
David Martin
Georgia Bar No. 474761
D.R. Martin, LLC
5200 Peachtree R., Suite 3116
Atlanta, GA 30341
Tel. 770-454-1999
Email: dmartin@abogar.com
Counsel for Samaca, LLC
Petitioner-Appellant
*****
I. THE ORDER AND THE BRIEFING
On June 4, 2019, the Superior Court of Fulton
County, Georgia, Hon. Alice D. Bonner presiding,
denied a motion by appellant Samaca, LLC
(“Samaca”) for fees and expenses under O.C.G.A. § 915-14 against appellees Cellairis Franchise, Inc. and

209a
Global Cellular Inc. (collectively “Cellairis”). 1 A copy
of the Order is attached as EXHIBIT 1 HERETO.
The Order is a nullity because the trial court had no
power to rule on Samaca’s 9-15-14 motion. Only an
arbitrator had this power. Until this Order is
vacated or reversed, Samaca cannot proceed to
arbitration on the rest of its claims on a proper basis.
All claims between the parties must be decided in the
same forum, not by piecemeal adjudications yielding,
as here, inconsistent results. 2 The Order is otherwise
incorrect as Cellairis clearly filed a frivolous claim
against Samaca that consumed almost two years of its
time.
*****
II. JURISDICTION
The Court has jurisdiction because this case
does not fall within the cases reserved to the Supreme
Court of Georgia under the Georgia Constitution of
1983, Art. VI § 5, ¶ 3; Id. § 6, ¶¶ 2-3. The Order is a
final judgment because “the case is no longer pending
in the court below”. O.C.G.A. § 5-6-34(a)(1).
Because Samaca seeks to enforce the law of
the case in Samaca, LLC v. Cellairis Franchise, Inc.,
345 Ga. App. 368, 813 S.E.2d 416 (2018) (Case No.
A17A1715) (physical precedent) cert. denied (Case No.
S18C1072) (Oct. 22, 2018) (“Samaca I”)3 and the
1

Appellee Cell Phone Mania, LLC did not appear in the action

and suffered default judgment.
2
3

***
Record citations to Case No. A17A1715 in Samaca I are denoted

herein as [V-_; R- ].

210a
Federal Arbitration Act (the “FAA”), 4 the Court
should grant the application as a direct appeal under
O.C.G.A. § 5-6-35(j). 5 Samaca I held that under the
FAA an arbitrator, not a court, must decide whether
“any specific claim” by Samaca is arbitrable. Samaca I,
813 S.E.2d at 420. This is the “underlying subject
matter” in the first instance for purposes of O.C.G.A.
§§ 5-6-34(a) and 5-6-35(a). By filing an application and
not a notice of appeal, Samaca is not conceding that a
discretionary application is required. Rather, it is
following the sensible recommendation of two justices
of the Supreme Court of Georgia: “[T]he more efficient
path would be to file only an application, because this
Court has made clear that when an application is
filed, but a direct appeal is permitted, we will grant
the application under OCGA § 5-6-35 (j).” Schumacher
v. City of Roswell, 301 Ga. 635, 803 S.E.2d 66, 73
(2017) (J. Grant and J. Nahmias concurring).
The first “underlying subject matter” that this
appeal must consider is not the 9-15-14 claim, but
rather the law of the case in Samaca I, enforcing the
FAA. Under O.C.G.A. § 9-11-60(h), “any ruling by the
4

5

9 U.S.C. §§ 1 et seq.
O.C.G.A. § 5-6-35(j) states:
When an appeal in a case enumerated in subsection (a) of
Code Section 5-6-34, but not in subsection (a) of this Code
section, is initiated by filing an otherwise timely
application for permission to appeal pursuant to
subsection (b) of this Code section without also filing a
timely notice of appeal, the appellate court shall have
jurisdiction to decide the case and shall grant the
application. Thereafter the appeal shall proceed as
provided in subsection (g) of this Code section.

211a
Supreme Court or the Court of Appeals in a case shall
be binding in any subsequent proceedings in that case
in the lower court and the Supreme Court or the Court
of Appeals as the case may be. See also O.C.G.A. § 151-3(3) (“Every court has power …[t]o compel obedience
to its judgments….”); see also Raybestos-Manhattan,
Inc. v. Moran, 284 Ga. 461 (1981) (Court of Appeals
has jurisdiction over writs of mandamus and
prohibition to compel trial court to enforce its
judgment).
Most importantly, this appeal must be granted
to obey the Supremacy Clause of the United States
Constitution that requires enforcement of the FAA.
See DirecTV, Inc. v. Imburgia, 136 S. Ct. 463, 468
(2015) (State courts must enforce the FAA); see also
American General Financial Services v. Jape, 291 Ga.
637, 644-45 n. 3 (2012) (J. Nahmias concurring
specially) (The Georgia Supreme Court has given
“firm direction” to trial courts to issue certificates of
immediate review from denials to enforce the FAA).
Samaca submits that no appellate state court has
discretion on whether to enforce the FAA. See AT&T
Mobility, LLC v. Concepcion, 563 U.S. 333, 341 (2011)
(state law may not prohibit enforcement of FAA).
*****
III. BACKGROUND AND SUMMARY
The basic facts appear in Samaca I. In sum,
Samaca’s complaint shows that Cellairis duped
Samaca into purchasing a worthless cell phone repair
franchise in Florida. Samaca also shows that the
parties concluded no valid and enforceable agreement
at all. Nonetheless, the trial court dismissed Samaca’s
complaint and compelled its claims to arbitration
under the FAA pursuant to an arbitrability
“delegation provision” in the disputed franchise

212a
The “delegation provision” requires that
an arbitrator, not a court, decide whether “any
specific claim” is arbitrable, that is, whether “any
specific claim” is subject to arbitration. 7
Samaca appealed, and this Court affirmed the
trial court’s order in Samaca I. The case should have
ended then and there, and the parties should have
proceeded to arbitration. However, Cellairis filed two
post-dismissal claims for attorney’s fees in the trial
court. The first concerns the claim here: a “prevailing
party” contract claim made under the same
franchise documents in dispute, the dispute that
was ordered to arbitration in Samaca I. The
second was an “alternative” claim under 9-15-14. 8
documents. 6

6

7

Order entered February 7, 2017. Samaca I [V-4; R-1389].
The arbitration provision, shown in Samaca I, 813 S.E.2d

417-8, reads as follows:
[The parties agree] all controversies, claims, or disputes
between Company and FRANCHISEE arising out of or
relating to: a. This agreement or any other agreement
between Company and FRANCHISEE; b. The relationship
between FRANCHISEE and Company; c. The scope and
validity of this Agreement or any other agreement between
Company and FRANCHISEE, specifically including
whether any specific claim is subject to arbitration
at all (arbitrability questions) and/or d. The offer or
sale of the franchise opportunity .... Any claims by or
against any affiliate of the Company may be joined, in the
Company's sole discretion, in the arbitration. [Emphasis
added].
A mirror image of this clause covered Samaca and Global
Cellular, Inc. Id.
8

***

213a
Samaca argued that both claims also raised
arbitrability questions that only an arbitrator could
decide and that these claims were inextricably
involved with the rest of the case. 9
On February 27, 2019, the trial court
“DENIED” Cellairis’ “prevailing party” claim and
ordered arbitration of that claim on the merits. 10
Then, on March 6, 2019, it “GRANTED” Cellairis’ 915-14 claim in the shocking amount of $59,983.78. The
trial court ruled that Samaca’s opposition to
arbitration “lacked substantial justification” and that
“awards under 9-15-14 are not ‘claims’ subject to
arbitration.” 11
The key concept to grasp is that the trial
court had no authority to make either ruling
concerning 9-15-14. 12
9

***
***
11 ***
12
On March 11, 2019, Samaca sought discretionary review of
the March 6 order by this Court in Case No. A19D0372
(“Samaca II”). Without explanation, Samaca’s application was
denied on April 2, 2019. Samaca submits the denial of review in
Samaca II violated the law of the case in Samaca I and is
unconstitutional under the Supremacy Clause of the U.S.
Constitution. In this case, no court has power to decide the
arbitrability of 9-15-14. Henry Schein, Inc. v. Archer & White
Sales, Inc., 139 S.Ct. 524, 529 (2019). Nor may state law exempt
9-15-14 from arbitration under the FAA. AT&T Mobility, LLC v.
Concepcion, 563 U.S. 333, 341 (2011). On April 18, 2019, Samaca
petitioned for certiorari from this denial in Samaca II in Case No.
A19D0372, which is still pending in Case No. S 9C1106. The
issue is immensely important. Georgia courts must obey federal
law.
10

214a
On March 21, 2019, Samaca filed its own 9-1514 motion against Cellairis for having also resisted
arbitration by filing its “prevailing party” contract
claim. 13 Given the conflict between Samaca I and the
trial court’s March 6, 2019 order,
Samaca had no choice but to file its 9-15-14
motion with the trial court. However, Samaca,
expressly and repeatedly objected to the trial
court’s “considering and ruling upon” its own 915-14 motion until an arbitrator decided its
arbitrability.
On the face of its 9-15-14 motion, 14 Samaca
made the following objection:
OBJECTION TO ARBITRABILITY
DETERMINATION BY THE COURT
Pursuant to the law of the case in Samaca,
LLC v. Cellairis Franchise, Inc., 345 Ga. App.
368, 813 S.E.2d 416 (2018) finding that the
parties in this action are bound by a valid
arbitrability “delegation provision,” Samaca
respectfully objects to the Court’s considering
and ruling upon this motion until an arbitrator
decides whether it is arbitrable. See also Henry
Schein, Inc. v. Archer & White Sales, Inc., 139
S.Ct. 524 (2019) (valid arbitrability “delegation
provision” requires that arbitrator determine
arbitrability issue even if trial court believes the
issue is wholly groundless.) This Court’s order
[the March 6 order] 15 with a contrary finding is
currently the subject of a petition for appellate

13

***
***
15 ***
14

215a
review filed by Samaca on March 11, 2019 in the
Georgia Court of Appeals, Case No. 19D0372.
Each subsequent briefing paper by Samaca
reiterated the objection with an update to show that
Samaca had filed a petition for certiorari to review
Samaca II on April 18, 2019 with the Supreme Court
of Georgia, which remains pending in Case No.
S19C1106. 16
IV. ENUMERATION OF ERRORS
A. The trial court’s order is a nullity because
it had no power to rule on Samaca’s 9-15-14
claim.
Disregarding Samaca’s objections and without
a hearing, the trial court ruled on and denied
Samaca’s 9-15-14 claim. It possessed no power to do
so. This is the law of the case under Samaca I and
O.C.G.A. § 9-11-60(h). It is also the law of the United
States as interpreted by the U.S. Supreme Court in
Henry Schein, Inc. v. Archer & White Sales, Inc., 139
S.Ct. 524, 529 (2019). The standard of review for this
question of law is de novo. 17
In Samaca I, this Court held that the FAA
applies to this case and that an arbitrator must
decide the arbitrability of Samaca’s claims against
Cellairis. Specifically, Samaca I held in pertinent
part:
[T]he arbitration agreements at issue in this
case include a "delegation provision" e.g., an
agreement to arbitrate threshold issues
concerning the arbitration agreement. The
delegation
provision
clearly
assigns
16
17

***
***

216a
responsibility for resolving "whether any
specific claim is subject to arbitration at all
(arbitrability questions)" to the arbitrator.
"[J]ust as the arbitrability of the merits of a
dispute depends upon whether the parties
agreed to arbitrate that dispute, so the question
who has the primary power to decide
arbitrability turns upon what the parties agreed
about that matter."
Id. 813 S.E.2d at 420 (citation omitted; emphasis
added).
The
consequences
of
the
so-called
arbitrability “delegation provision” are profound.
When the parties have delegated an arbitrability
question to an arbitrator, the arbitrator has exclusive
power to decide the question. In this case, even if it
thinks the question is “wholly groundless” or
“frivolous,” a court may not decide whether a
particular claim is subject to arbitration. Only an
arbitrator may do this. Put differently, until an
arbitrator determines whether any claim, including
a claim for fees and expenses under O.C.G.A. § 9-1514, is subject to, or not subject to, arbitration, no
forum at all may decide the merits of that claim.
Said another way, the trial court could not even
consider the question of arbitrability. Only an
arbitrator could address this question no matter how
unfounded a court may think it is.
This year, the U.S. Supreme Court made this
principle indisputably clear:
We must interpret the [Federal Arbitration]
Act as written, and the Act in turn requires that
we interpret the contract as written. When the
parties' contract delegates the arbitrability
question to an arbitrator, a court may not
override the contract. In those circumstances,

217a
a court possesses no power to decide the
arbitrability issue. That is true even if the
court thinks that the argument that the
arbitration agreement applies to a
particular dispute is wholly groundless.
Henry Schein, 139 S.Ct. at 529 (emphasis added).
Hence, in this case, the trial court possessed no
power to decide whether Samaca’s 9-15-14 is
arbitrable, much less decide the merits. “Just as a
court may not decide a merits question that the
parties have delegated to an arbitrator, a court may
not decide an arbitrability question that the parties
have delegated to an arbitrator.” Henry Schein, 139
S.Ct. at 530. Explained yet another way: “When the
parties' contract assigns a matter to arbitration, a
court may not resolve the merits of the dispute even if
the court thinks that a party's claim on the merits is
frivolous. [Citation omitted]. So, too, with
arbitrability.” Id. (Emphasis added).
Under the law of the case, the trial court was
bound by its own order enforcing the arbitrability
“delegation provision” as affirmed by this Court in
Samaca I. It was also bound by the U.S. Supreme
Court’s ruling in Henry Schein decided under the
FAA. The trial court disregarded both.
State courts cannot disregard federal law. The
"Supremacy Clause forbids state courts to dissociate
themselves from federal law because of disagreement
with its content or a refusal to recognize the superior
authority of its source." Howlett v. Rose, 496 U.S. 356,
371 (1990). “The Federal Arbitration Act is a law of
the United States…. Consequently, the judges of
every State must follow it.” DirecTV, Inc. v. Imburgia,
136 S. Ct. 463, 468 (2015). “When this Court has
fulfilled its duty to interpret federal law, a state court
may not contradict or fail to implement the rule so

218a
established.” Marmet Health Care Ctr., Inc. v. Brown,
565 U.S. 530, 531 (2012) (per curiam) (summarily
reversing state appellate court and enforcing
arbitration clause under FAA). This is “an elementary
point of law.” DirecTV, 136 S.Ct. at 468.
In addition, state law may not exempt claims
from arbitration under the FAA. “When state law
prohibits outright the arbitration of a particular type
of claim, the analysis is straightforward: The
conflicting rule is displaced by the [Federal
Arbitration Act].” AT&T Mobility, LLC v. Concepcion,
563 U.S. 333, 341 (2011).
It is indisputable that “lower courts must follow
this Court’s holding in Concepcion.” DirectTV, 136
S.Ct. at 468.
In deciding Samaca’s 9-15-14 claim, the trial
court acted without any power to do so. Therefore, its
ruling is void.
O.C.G.A. § 9-12-16 states:
The judgment of a court having no jurisdiction
of the person or the subject matter or which is
void for any other cause is a mere nullity and
may be so held in any court when it becomes
material to the interest of the parties to consider
it.
[Emphasis added].
Hence, the Order is a nullity and must be
vacated. See Henry Schein, 139 S.Ct. at 531 (vacating
order in which lower court improperly decided
arbitrability); see also De La Reza v. Osprey Capital,
LLC, 287 Ga. App. 196, 197 (2007) (when court lacks
power, its order is void).
Even if the trial court’s disregard of Samaca’s
objection to the court’s lack of power under Henry
Schein is treated as a failure to rule, the Order must

219a
still be vacated and the case “remand[ed] for the trial
court to consider [the objection] in the first instance.”
Auto-Owners Ins. Co. v. Hale Haven Props., LLC, 346
Ga. App. 39,
*****
V. CONCLUSION
Samaca respectfully requests that this appeal
be allowed.
Respectfully submitted, July 1, 2019.
D.R. Martin, LLC
/s/ David Martin
*****
ATTORNEY FOR
PETITIONERAPPELLANT SAMACA,
LLC
*****

220a
APPENDIX FF
Court of Appeals
of the State of Georgia
________
Application No. A19D0539
Samaca LLC v. Cellairis Franchise, Inc., Global
Cellular, Inc., and Cell Phone Mania, LLC
[Filed July 1, 2019] [EXCERPT]
________
CONDITIONAL MOTION TO RECUSE
STAFF ATTORNEY
CHARLES DORRIER BONNER
David Martin
Georgia Bar No. 474761
D.R. Martin, LLC
5200 Peachtree R., Suite 3116
Atlanta, GA 30341
Tel. 770-454-1999
Email: dmartin@abogar.com
Counsel for Samaca, LLC
Petitioner-Appellant
*****
On July 1, 2019, Petitioner-appellant Samaca, LLC
(“Samaca”) filed an application in Case No. A19D0539
for direct or discretionary review of an order entered
June 4, 2019 by the Superior Court of Fulton County,
Georgia, Hon. Alice Dorrier Bonner, presiding.

221a
Samaca makes this motion conditioned upon the
Court’s confirming the facts set forth below. 1 If these
facts are not true or if staff attorney recusal is done in
every case based on the relevant facts presented here,
Samaca and its counsel advance their apology to this
Court and all others concerned. Nevertheless, when
such recusal occurs, it may be helpful to the bar and
the parties for the Court to so indicate in an order or
other notice.
Upon information and belief, Judge Bonner’s son,
Mr. Charles Dorrier Bonner, may be a staff attorney
of this Court of Appeals. Samaca’s counsel discovered
this information sometime after June 4, 2019 while
conducting online research to locate Judge Bonner’s
prior decisions. The online State Bar of Georgia
Member Directory shows that Judge Bonner and Mr.
Bonner share the name “Dorrier.” The Member
Directory also shows that Mr. Bonner works for the
Court.
On June 10, 2019, the Clerk’s office of this Court
informed Samaca’s counsel that the Court may not
reveal whether Mr. Bonner is a staff attorney or the
identity of the judge for whom Mr. Bonner may work
in this capacity. See Affidavit of David R. Martin ¶¶
1-14 attached as EXHIBIT 1 HERETO.
According to an article authored by the former
Chief Judge of the Court, staff attorneys are
“intimately involved in the opinion writing process.”
Stephen Louis A. Dillard, “Open Chambers:
Demystifying the Inner Workings and Culture of the
This Court’s rules contain no specific provision addressing
these circumstances. Samaca follows Ga. Ct. of App. Rule 44 in
pari materia concerning the recusal of judges.
1

222a
Georgia Court of Appeals,” 65 Mercer Law Review
831, 846 (2014). 2 “[I]n the majority of cases[], I direct
the assigned staff attorney to prepare an initial draft
of the proposed opinion”. Id. at 847. Moreover, “our
central-staff attorneys also assist the judges in
reviewing the merits of discretionary and
interlocutory applications”.
Id. at 846 n. 57.
As with direct appeals, an application for a
discretionary or interlocutory appeal is
randomly assigned to a judge by the court’s
computer-generated “wheel.” The application
is then immediately and randomly assigned
to an attorney in central staff to carefully
review the application and accompanying
materials, conduct any additional and
necessary research (time permitting), and
draft a memorandum on behalf of the
assigned judge recommending the grant or
denial of the application. All of this work
must be done within a very condensed period of
time…. Suffice it to say, this does not give the
central-staff attorneys or judges a significant
amount of time to consider the merits of these
applications.
Id. 854-55 (emphasis added).

2

A

copy

of

the

article

may

also

be

https://libraries.mercer.edu/ursa/handle/10898/9514

found

at
(last

viewed July 1, 2019). Samaca requests that the Court take
judicial notice of the article under O.C.G.A. §
24-2-201.

223a
It appears that, at least in the former Chief
Judge’s case, a staff attorney is assigned to a case
“[]after any necessary recusals are made[].” Id at 846.
It is not clear, however, if the same recusal measures
are applied in all cases of “random[]” assignments of a
staff attorney to evaluate an application for
discretionary review.
Given the “intimate[]” role that a staff attorney
may play in evaluating the merits of an application to
review a trial court order, Samaca submits that
recusal of a judge’s staff attorney, who is the trial
court judge’s son, is necessary.
The Committee on Codes of Conduct of the Judicial
Conference of the United States expresses a similar
view of law clerks’ 3 relationships to the judges for
whom they work:
Among judicial employees, law clerks are in a
unique position since their work may have direct
input into a judicial decision. Even if this is not
true in all judicial chambers, the legal
community perceives that this is the case based
upon the confidential and close nature of the
relationship between clerk and judge.
U.S. Advisory Opinion No. 51 (2009) (Law Clerk
Working on Case in Which a Party Is Represented by
Spouse’s Law Firm). 4

Based on the former Chief Judge’s description, a staff attorney
performs thesame functions of a law clerk, except that the former
is understood to be always a licensed attorney.

3

A copy of this advisory opinion may be found at
www.uscourts.gov/sites/default/files/guide-vol02b-ch022019_final.pdf (Last viewed July 1, 2019).
4

224a
This has led the Committee to conclude:
As for the necessity of maintaining the fact and
the appearance of impartiality, it is unacceptable
for a reviewing judge to rely upon the assistance
of a clerk who is the son or daughter of a judge
who decided the case in the lower court.
U.S. Advisory Opinion No. 64 (Employing a Judge’s
Child as a Law Clerk). 5
When recusal is appropriate, the Committee
believes that “the recused clerk should avoid any
discussion of the case with the judge, law clerks, or
others.” U.S. Advisory Opinion No. 51. See also
O.C.G.A. § 15-1-8(a)(2); 6 Georgia Judicial Code of
Conduct, Canon 2 (“Judges Shall Avoid Impropriety
and the Appearance of Impropriety in All of Their
Activities”); Rule 2.2 (“Judges shall not permit family,
social, political, financial, or other interests or
relationships to influence the judge’s judicial conduct
or judgment.”); Georgia Judicial Code of Conduct,
Canon 3 (“Judges Shall Perform the Duties of Judicial
Office Impartially, Competently, and Diligently.”);
Rule 3.9 (“Judges shall disqualify themselves in any

5
6

***
O.C.G.A. § 15-1-8(a)(2) states in pertinent part:
(a) No judge or Justice of any court, magistrate, nor
presiding officer of any inferior judicature or commission
shall: …
(2) Preside, act, or serve in any case or matter when such
judge is related by consanguinity or affinity within the
third degree as computed according to
the civil law to any party interested in the result of the
case or matter;

225a
proceeding in which their impartiality might
reasonably be questioned”), in particular Rule
3.9(3)(c) (third-degree relative known by judge to have
more than de minimis interest); see also, Alabama
Advisory Opinion 91-421 (A judge is disqualified from
appeals of cases in which the judge’s father, a
municipal court judge, sat as trier of fact. “The
municipal judge’s judicial reputation is an interest
which could be substantially affected by the decisions
on appeal in matters which he heard.”); Florida Code
of Judicial Conduct, Canon 3E(1)(e) (judge
disqualified where third degree relative “participated
as a lower court judge in a decision to be reviewed by
the judge.”); Ohio Code of Judicial Conduct Canon
2.11(a)(6) (similar).
….“[T]hat jurists should stand fair and
impartial between the parties who appear before
them,” stretches back to ancient times.
[Richard
E.
Flamm,
Judicial
Disqualification:
Recusal
and
Disqualification of Judges, at 3, 7 (3d ed.
2017)] (describing edicts contained in the
Babylonia Talmud and the Roman Code of
Justinian).
English common law, too, has historically
focused on the appearance of justice in its
standards for judicial disqualification. In R. v.
Sussex Justices, Ex parte McCarthy, [1924] 1 K.
B. 256 (1923), one of the leading English cases on
the subject, the King’s Bench emphasized “‘a
long line of cases show[ing] that it is not merely
of some importance but is of fundamental
importance that justice should not only be done,
but should manifestly and undoubtedly be seen
to be done.’” Id. at 259 (quoted in Liteky v.

226a
United States, 510 U.S. 540, 565 (1994)
(Kennedy, J. concurring)). McCarthy concerned
a criminal case in which a clerk to the trial
justices was also a partner in a law firm that
represented the [plaintiff against the]
defendant in a related civil matter. The question
was whether, in light of the clerk’s relationship
to the case, the clerk was “unfit” to have retired
with the justices as they considered their
decision (per usual practice “in case the justices
should desire to be advised upon any point of
law”). Id. at 257, 259. The justices convicted the
defendant and reached their decision without
consulting the clerk, “who scrupulously
abstained from referring to the case.” Id. at 257.
Regardless, on appeal, the King’s Bench
concluded that it mattered not “what actually
was done”; instead, its analysis depended on
“what might appear to be done.” Id. at 259. The
appellate court quashed the defendant’s
conviction, holding that “[n]othing is to be done
which creates even a suspicion that there has
been an improper interference with the course of
justice.” Id.
“Brief of Amici Curiae Former State and
Federal Trial Court Judges in Support of Petitioner”
pp. 4-5 filed June 25, 2018 in Lacaze v. Louisiana, U.S.
Supreme Court (Case No. 17-1566) cert. denied (Oct.
9, 2018). 7 Alterations in [bold brackets].
Accordingly, if Mr. Bonner is in fact the trial
court judge’s son and a staff attorney of this Court,
Samaca very respectfully requests that

7

***

227a
1)
Mr. Bonner be recused from evaluating
Samaca’s
application
and
from
otherwise
participating in any appellate proceedings related
thereto and
2)
Mr. Bonner’s participation, if any, in the
two prior appeals referenced in the case caption be
disclosed.
The Court’s courtesy and attention are always
appreciated.
This submission does not exceed the word count
limit imposed by Rule 24.
Respectful y submitted, D. R. MARTIN, LLC
this 1st day of
/s/ David Martin
July 2019.
David Martin
*****
ATTORNEY
FOR
PETITIONERAPPELLANT SAMACA,
LLC.
*****

228a
APPENDIX GG
IN THE SUPREME COURT OF GEORGIA
SAMACA, LLC,
Petitioner
vs.
CELLAIRIS FRANCHISE, INC., GLOBAL
CELLULAR, INC., and CELL PHONE MANIA,
LLC,
Respondents
Case No. S19C1106
Filed: April 18, 2019
__________
[EXCERPT]
******
________________________
PETITION FOR
WRIT OF CERTIORARI
______________________
D.R. Martin, LLC
David Martin
Georgia Bar No. 474761
5200 Peachtree R., Ste 3116
Atlanta, GA 30341
Tel. 770-454-1999
Fax 770-459-5709
Email: dmartin@abogar.com
Counsel for Samaca, LLC
Petitioner

229a

*****
PETITION FOR WRIT OF CERTIORARI
Petitioner Samaca, LLC (“Samaca” or “Petitioner”)
requests a writ of certiorari to review the Court of
Appeals’ denial on April 2, 2019 of an application for
discretionary review and request for treatment as a
direct appeal under O.C.G.A. § 5-6-35(j).
I. INTRODUCTION.
This case presents the following issue of great
concern, gravity or importance to the public:
May courts of this state exempt from the
Federal Arbitration Act, 9 U.S.C. §§ 1 et seq.,
a claim for attorney’s fees and expenses
under O.C.G.A. § 9-15-14?
To Petitioner’s knowledge, this is a case of first
impression concerning whether 9-15-14 is subject to
arbitration under the Federal Arbitration Act (the
“FAA”). Crucially in this case, only an arbitrator,
not a court, may decide this question. Moreover, no
state law may exempt a claim under 9-15-14 from
the FAA.
When the question of arbitrability is delegated to
an arbitrator, only an arbitrator, not a court, has
power to decide it. “That is true even if the court
thinks that the argument that the arbitration
agreement applies to a particular dispute is
wholly groundless.” Henry Schein, Inc. v. Archer &
White, Inc., 139 S.Ct. 524, 529, 586 U.S. (Jan. 8, 2019)
(emphasis added). Further, “[w]hen state law

230a
prohibits outright the arbitration of a particular type
of claim, the analysis is
straightforward: The
conflicting rule is displaced by the [FAA].” AT&T
Mobility, LLC v. Concepcion, 563 U.S. 333, 341 (2011).
The "Supremacy Clause forbids state courts to
dissociate themselves from federal law because of
disagreement with its content or a refusal to recognize
the superior authority of its source." Howlett v. Rose,
496 U.S. 356, 371 (1990). “The Federal Arbitration Act
is a law of the United States…. Consequently, the
judges of every State must follow it.” DirecTV, Inc. v.
Imburgia, 136 S. Ct. 463, 468 (2015). “[T]he Judges in
every State shall be bound" by "the Laws of the United
States." U.S. Const., Art. VI, cl. 2. State courts’ refusal
to obey federal law and the U.S. Supreme Court is a
matter of gravity or great pubic importance.
In this case, due to an arbitrability “delegation
provision,” no court possessed power to decide the
arbitrability of any claim, including a claim under
9-15-14. Henry Schein, 139 S.Ct. at 529. Moreover, no
state law may exempt a 9-15-14 claim from the FAA.
Concepcion, 563 U.S. at 341. Hence, the subject
orders in this case are nullity. O.C.G.A. § 9-12-16
(void judgment is a nullity).
*****
V. ARGUMENT AND CITATION OF
AUTHORITIES.
*****
A. The Court of Appeals should have granted
Samaca’s application and a direct appeal
under O.C.G.A. § 5-6-35(j).
*****
Regardless of the nature of the “underlying subject
matter,” a direct appeal of right should exist. The
Georgia Arbitration Code in O.C.G.A. § 9-9-16 states:
“Any judgment or any order considered a final

231a
judgment under this part may be appealed pursuant
to Chapter 6 of Title 5.” This is consistent with
ultimately granting appellate review as a matter of
right to enforce an arbitration clause under the FAA.
As Justice Nahmais said in Jape:
[P]arties who cannot obtain an immediate
appeal of the denial of a non- frivolous motion to
compel arbitration will remain entitled to a
direct appeal of the issue when their case is final,
see OCGA § 5–6–34(a)(1), so that the
fundamental Congressional objective may
still be served.
Id. 291 Ga. at 645 (special concurrence) (emphasis
added).
If the appealability of a final order denying
arbitration depends upon the type of claim for which
arbitration is sought, then federal goals are thwarted.
Samaca submits that a discretionary refusal of an
appeal from a final order denying a motion to compel
arbitration would be unconstitutional under the FAA.
Such refusal could be “tantamount to the failure to
enforce a valid arbitration agreement[] contrary
to congressional objectives.” Jape, 291 Ga. at 641
quoting American Gen. Fin. Svcs v. Vereen, 282 Ga.
App. 663, 666 (2006) (citations omitted).
Without a direct appeal after final disposition,
there may be no other realistic opportunity to enforce
an arbitration provision under the FAA. A trial court’s
final decision denying arbitration could be essentially
unreviewable. Only astronomically low odds would
remain in the U.S. Supreme Court.
B. No court had power to decide questions or
arbitrability in this case.
The lower courts impermissibly decided the
arbitrability of both claims in this case. Although
raised below,[***fn omitted] these courts failed to follow

232a
the U.S. Supreme Court’s 2019 decision in Henry
Schein. In that case, the Court held that when a valid
arbitrability “delegation provision” exists, only an
arbitrator, not a court, may decide the question of
arbitrability. This is true even if the court believes
the question of arbitrability is “wholly groundless.”
The Court said in relevant part:
We must interpret the [Federal Arbitration] Act
as written, and the Act in turn requires that we
interpret the contract as written. When the
parties' contract delegates the arbitrability
question to an arbitrator, a court may he
contract. In those circumstances, a court
possesses no power to decide the arbitrability
issue. That is true even if the court thinks
that the argument that the arbitration
agreement applies to a particular dispute
is wholly groundless.
Henry Schein, 139 S. Ct. at 529 (emphasis added).
Under Henry Schein, there is no doubt that
Cellairis’ entire motion for attorneys’ fees, including
the 9-15-14 claim, had to be submitted to an
arbitrator on the question of arbitrability. “When
this Court has fulfilled its duty to interpret federal
law, a state court may not contradict or fail to
implement the rule so established.” Marmet Health
Care Ctr., Inc. v. Brown, 565 U.S. 530, 531 (2012) (per
curiam) (summarily reversing state appellate court
and enforcing arbitration clause under FAA). This is
“an elementary point of law.” DirecTV, 136 S.Ct. at
468.

233a
Cellairis and the lower courts were also bound by
judicial estoppel and the law of the case to submit
both claims to an arbitrator to decide their
arbitrability. Williams, 277 Ga. App. at 842 (judicial
estoppel); Samaca I, 813 S.E.2d at 420; O.C.G.A. § 911-60(h). The courts should not have decided any
questions of arbitrability, much less the merits, and
should have granted Samaca’s entire motion to
compel arbitration on the question of arbitrability of
both claims.
C. No court may exempt a claim under O.C.G.A.
§ 9-15-14 from the Federal Arbitration Act.
Further, state courts have no authority to exempt a
claim under 9-15-14 from arbitration under the FAA.
Section 2 of the FAA, 9 U.S.C. § 2, states:
A written provision in any maritime
transaction or a contract evidencing a
transaction involving commerce to settle by
arbitration a controversy thereafter arising out
of such contract or transaction, or the refusal to
perform the whole or any part thereof, or an
agreement in writing to submit to arbitration an
existing controversy arising out of such a
contract, transaction, or refusal, shall be valid,
irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the
revocation of any contract. [Emphasis added].
On its face, the FAA does not exclude the
“contract” in this case 11 or the “controversy”
The FAA excludes from its application “contracts of
employment of seamen, railroad employees, or any other class of
workers engaged in foreign or interstate commerce.” 9 U.S.C. §
1. These exclusions are not relevant here. Cf. New Prime, Inc. v.
11

234a
involving claims under state law. “When state law
prohibits outright the arbitration of a particular type
of claim, the analysis is straightforward: The
conflicting rule is displaced by the [Federal
Arbitration Act].” AT&T Mobility, LLC v. Concepcion,
563 U.S. 333, 341 (2011). It is indisputable that “lower
courts must follow this Court’s holding in
Concepcion.” DirectTV, 136 S.Ct. at 468.
The trial court’s attempt to exempt this controversy
from arbitration by saying that sanctions under 9-1514 are not “claims” is untenable. First, only an
arbitrator has the power to decide the question
of arbitrability of a particular dispute. Henry
Schein, 139 S.Ct. at 529. Second, no state law can
exempt claims under 9-15-14 from the FAA.
Concepcion, 135 S.Ct. at 341.
Even so, the trial court was wrong in its “non-claim”
characterization of 9-15-14. To be sure, the Supreme
Court of Georgia held that 9-15-14 “arose out of the
torts of malicious use and malicious abuse of the
judicial process.” Long v. City of Helen, 301 Ga. at 121
n. 2. Indeed, 9-15-14 is an integral part of Georgia’s
tort regime for abusive litigation in O.C.G.A. §§ 51-780 to 51-7-85.
Section 51-7-83(b) states:
If the abusive litigation is in a civil proceeding
of a court of record and no damages other than
costs and expenses of litigation and reasonable
attorney's fees are claimed, the procedures

Oliveira, 139 S.Ct. 532 (2019) (FAA does not apply to contract of
interstate transportation workers).

235a
provided in Code Section 9-15-14 shall be
utilized instead. [Emphasis added].
In turn, Section 51-7-85 states:
On and after April 3, 1989, no claim other
than as provided in this article or in Code
Section 9-15-14 shall be allowed, whether
statutory or common law, for the torts of
malicious use of civil proceedings, malicious
abuse of civil process, nor abusive litigation,
provided that claims filed prior to such date shall
not be affected. This article is the exclusive
remedy for abusive litigation. [Emphasis
added].
Thus, 9-15-14 provides a substantive legal claim
whereby the trial court sits as the trier of fact.[***fn
omitted] As Samaca argued below,[***fn omitted] statutory
claims that would otherwise be decided by a
court may be subject to arbitration. Shearson/Am.
Express Inc. v. McMahon, 482 U.S. 220, 226 (1987);
Mitsubishi Motors Corporation v. Soler Chrysler, 473
U.S. 614, 628 (1985).
Simply put, no court has the power to decide the
arbitrability of Cellairis’ claims for attorneys’ fees
and expenses. And no state law can exempt a claim
under 9-15-14 from the FAA. The consequences are
terminal.
O.C.G.A. § 9-12-16 states:
The judgment of a court having no jurisdiction
of the person or the subject matter or which is
void for any other cause is a mere nullity and
may be so held in any court when it becomes

236a
material to the interest of the parties to consider
it. [Emphasis added].
Therefore, the subject orders are a nullity and
must be vacated. See Henry Schein, 139 S.Ct. at 531
(vacating order); see also De La Reza v. Osprey
Capital, LLC, 287 Ga. App. 196, 197 (2007) (when
court lacks power, its order is void). Further, Samaca’s
entire motion to compel arbitration as to the
arbitrability of both claims by Cellairis must be
granted.
*****
Respectfully submitted
on April 18, 2019.

D.R. Martin, LLC
/s/ David R. Martin
*****
COUNSEL FOR
PETITIONER
SAMACA, LLC

237a
APPENDIX HH
IN THE SUPREME COURT OF GEORGIA
SAMACA, LLC,
Petitioner
vs.
CELLAIRIS FRANCHISE, INC., GLOBAL
CELLULAR, INC., and CELL PHONE MANIA,
LLC,
Respondents
Case No. S20C0114
Filed: August 26, 2019
__________
[EXCERPT]
******
________________________
PETITION FOR
WRIT OF CERTIORARI
______________________
D.R. Martin, LLC
David Martin
Georgia Bar No. 474761
5200 Peachtree R., Ste 3116
Atlanta, GA 30341
Tel. 770-454-1999
Fax 770-459-5709
Email: dmartin@abogar.com
Counsel for Samaca, LLC
Petitioner

238a

*****
PETITION FOR WRIT OF CERTIORARI
Petitioner Samaca, LLC (“Samaca” or “Petitioner”)
requests a writ of certiorari to review the Court of
Appeals’ orders dated July 23, 2019[***fn omitted] and
August 7, 2019[***fn omitted]
denying Samaca’s
Application for Discretionary Review and
Request to Accept as Direct Appeal under
O.C.G.A. § 5-6-35(j) (“Application”) [***fn omitted] and
motion for reconsideration.
On June 4, 2019, the Superior Court of Fulton
County, Georgia, Hon. Alice D. Bonner presiding,
denied a motion by Samaca for fees and expenses
under O.C.G.A. § 9-15-14 against appellees Cellairis
Franchise, Inc. and Global Cellular Inc. (collectively
“Cellairis”).[***fn omitted] A copy of the June 4 order (the
“Order”) is attached as EXHIBIT 1 HERETO. The
Order is a nullity because the trial court had no
power to rule on Samaca’s 9-15-14 motion. Only an
arbitrator had this power. Until this Order is
vacated or reversed, Samaca cannot proceed to
arbitration on the rest of its claims on a proper basis.
The arbitrability of all claims between the parties
must be decided only by an arbitrator, not a court. [***fn
omitted] *****
*****
V. ENUMERATION OF ERRORS AND
ARGUMENT

239a
A. The Court of Appeals should have allowed
Samaca’s Application as a direct appeal or
otherwise granted it.
1. The “underlying subject matter” for
purposes of O.C.G.A. § 5-6-34(a) and § 5-635 is the enforcement of the FAA
regarding a claim for attorney’s fees
under 9-15-14.
******
Here, the threshold demand for relief and the
enumerations of error concern enforcement of the
FAA under the law of the case in Samaca I. The law
of the case requires than an arbitrator, not a court,
decide whether Samaca’s 9-15-14 claim is subject to
arbitration. Samaca’s 9-15-14 motion was expressly
“[s]ubject to” a “continuing” objection that an
arbitrator decide its arbitrability. Because no court
has power to decide the antecedent question of
arbitrability of “any specific claim,” the trial court’s
order must be vacated as void. Henry Schein, 139
S.Ct. at 529, 531 (vacating order deciding
arbitrability); see O.C.G.A. § 9-12-16 (void order is
nullity). Because orders denying arbitration are not
listed under the discretionary appeal statute in 5-635(a), a direct appeal should have been allowed.
Cellairis may argue that Samaca did not file a
formally designated motion to compel arbitration or
stay, and “invited” error. This is wrong. First, the law
of the case in Samaca I under 9-11-60(h) already
established that an arbitrator must decide questions
of arbitrability. Second, Samaca’s 9-15-14 claim was
made “[s]ubject to” its written “continuing”
objection to enforce Samaca I and is the equivalent of
a motion to compel or stay pending arbitration.
“[S]ubstance prevails over nomenclature.” Post v.

240a
State, 298 Ga. 241, 247 (Ga., 2015). Third, parties may
file claims to perfect rights while simultaneously
asserting the need to arbitrate these claims. In
Gf/Legacy Dallas, Inc. v. Juneau Const. Co., 282 Ga.
App. 14 (2006) cert. denied S07C0344 (Feb. 5, 2007)
and Web IV, LLC v. Samples Constr., LLC., 824
S.E.2d 107 (Ga. App. 2019), plaintiffs simultaneously
filed complaints in the trial court while asserting that
the claims needed to be arbitrated. Here, the trial
court violated Samaca I with its contradictory order
in Samaca II. This left Samaca with no option but to
file its 9-15-14 claim, subject to its continuing
arbitrability objection while pursuing the appeal of
Samaca II. Further, Samaca could not proceed to
arbitration on a proper basis until the appeal in
Samaca II is resolved. Under Samaca I, an
arbitrator must decide all arbitrability questions, not
just the ones that Cellairis choses.
Separately, insofar as it pertains solely to the 9-1514 motion itself, which is listed under 5-6-35(a)(10),
Samaca’s Application sought relief in the
alternative. Still, the Application should have been
granted to enforce the arbitration provision under the
FAA. As Justices Nahmais and Blackwell said in
Jape:
[P]arties who cannot obtain an immediate
appeal of the denial of a non- frivolous motion to
compel arbitration will remain entitled to a
direct appeal of the issue when their case is final,
see OCGA § 5–6–34(a)(1), so that the
fundamental Congressional objective may
still be served.
Id. 291 Ga. at 645 (special concurrence) (emphasis
added).

241a
2. To the extent the Court of Appeals has
discretion under O.C.G.A. § 5-6-35(a) to refuse
an appeal to enforce the FAA, it is
unconstitutional.
If the Court of Appeals has discretion to deny an
appeal to enforce the FAA, then federal goals are
thwarted. Such refusal are “tantamount to the
failure to enforce a valid arbitration
agreement[]
contrary
to
congressional
objectives.” Jape, 291 Ga. at 641 quoting American
Gen. Fin. Svcs v. Vereen, 282 Ga. App. 663, 666 (2006)
(citations omitted) (emphasis added). “[T]he [Federal
Arbitration Act] leaves no place for the exercise of
discretion.” Dean Witter Reynolds, Inc. v. Byrd, 470
U.S. 213, 218 (1985). Also, without a direct appeal
after final disposition, there may be no other realistic
opportunity to enforce the FAA. A trial court’s final
decision denying arbitration would be essentially
unreviewable. Only astronomically low odds would
remain in the U.S. Supreme Court.
B. The Order is a nullity because the trial court
had no power to rule on Samaca’s 9-15-14 claim.
Disregarding Samaca’s continuing objection and
without a hearing, the trial court ruled on and denied
Samaca’s 9-15-14 claim. It possessed no power to do
so. This is the law of the case under Samaca I and 911-60(h). It is also the law of the United States as
interpreted by the U.S. Supreme Court in Henry
Schein, 139 S.Ct. at 529. The standard of review for
this question of law is de novo. [***fn omitted].

242a
The consequences of the so-called arbitrability
“delegation provision” are profound. This year, the
U.S. Supreme Court made this indisputably clear:
We must interpret the [Federal Arbitration] Act
as written, and the Act in turn requires that we
interpret the contract as written. When the
parties' contract delegates the arbitrability
question to an arbitrator, a court may not
override the contract. In those circumstances,
a court possesses no power to decide the
arbitrability issue. That is true even if the
court thinks that the argument that the
arbitration agreement applies to a
particular dispute is wholly groundless.
Henry Schein, 139 S.Ct. at 529 (emphasis added).
Hence, in this case, no court possesses power to
decide whether Samaca’s 9- 15-14 is arbitrable, much
less decide the merits. “Just as a court may not decide
a merits question that the parties have delegated to
an arbitrator, a court may not decide an arbitrability
question that the parties have delegated to an
arbitrator.” Henry Schein, at 530. Explained yet
another way: “When the parties' contract assigns a
matter to arbitration, a court may not resolve the
merits of the dispute even if the court thinks that a
party's claim on the merits is frivolous. [Citation
omitted]. So, too, with arbitrability.” Id. (Emphasis
added).
State courts cannot disregard federal law. The
"Supremacy Clause forbids state courts to dissociate
themselves from federal law because of disagreement
with its content or a refusal to recognize the superior
authority of its source." Howlett v. Rose, 496 U.S. 356,

243a
371 (1990); see also DirecTV, Inc. v. Imburgia, 136 S.
Ct. 463, 468 (2015). “When this Court has fulfilled its
duty to interpret federal law, a state court may not
contradict or fail to implement the rule so
established.” Marmet Health Care Ctr., Inc. v. Brown,
565 U.S. 530, 531 (2012) (per curiam) (summarily
reversing state appellate court and enforcing
arbitration clause under FAA). This is “an elementary
point of law.” DirecTV, 136 S.Ct. at 468.
In addition, state law may not exempt 9-15-14 from
arbitration under the FAA. “When state law prohibits
outright the arbitration of a particular type of claim,
the analysis is straightforward: The conflicting rule is
displaced by the [Federal Arbitration Act].” AT&T
Mobility, LLC v. Concepcion, 563 U.S. 333, 341 (2011).
It is indisputable that “lower courts must follow this
Court’s holding in Concepcion.” DirectTV, 136 S.Ct. at
468.
In deciding Samaca’s 9-15-14 claim, the trial court
and the Court of Appeals acted without any power to
do so. Therefore, their orders are void. See O.C.G.A. §
9-12-16; Henry Schein, 139 S.Ct. at 531 (vacating
order that improperly decided arbitrability); see also
De La Reza v. Osprey Capital, LLC, 287 Ga. App. 196,
197 (2007) (when court lacks power, its order is void).
Even if the trial court’s disregard of Samaca’s
objection to the court’s lack of power under Henry
Schein is treated as a failure to rule, the Order must
still be vacated and the case “remand[ed] for the trial
court to consider [the objection] in the first instance.”
Auto-Owners Ins. Co. v. Hale Haven Props., LLC, 346
Ga. App. 39, 54 (2018); Earls v. Aneke, Case No.
A19A0329 (Ga. App. June 14, 2019) Slip. Op. 9
(“[B]ecause the trial court did not rule upon this
question, we vacate and remand for the court’s
consideration of this argument in the first instance.”)

244a
Respectfully submitted
on April 18, 2019.

D.R. Martin, LLC
/s/ David R. Martin
*****
COUNSEL FOR
PETITIONER
SAMACA, LLC

245a
APPENDIX I I
Constitutional provisions, Statutes & Rules
Supremacy Clause, U.S. Constitution, Article
IV, cl. 2:
*****
This Constitution, and the laws of the United
States which shall be made in pursuance
thereof; and all treaties made, or which shall
be made, under the authority of the United
States, shall be the supreme law of the land;
and the judges in every state shall be bound
thereby, anything in the Constitution or laws
of any State to the contrary notwithstanding.
*****
O.C.G.A. § 5-6-34 (effective 2016 to May 6, 2019)
(a) Appeals may be taken to the Supreme Court and
the Court of Appeals from the following judgments
and rulings of the superior courts, the constitutional
city courts, and such other courts or tribunals from
which appeals are authorized by the Constitution and
laws of this state:
(1) All final judgments, that is to say, where the
case is no longer pending in the court below, except as
provided in Code Section 5-6-35;
(2) All judgments involving applications for
discharge in bail trover and contempt cases;
(3) All judgments or orders directing that an
accounting be had;
(4) All judgments or orders granting or refusing
applications for receivers or for interlocutory or final
injunctions;

246a
(5) All judgments or orders granting or refusing
applications for attachment against fraudulent
debtors;
(6) Any ruling on a motion which would be
dispositive if granted with respect to a defense that
the action is barred by Code Section 16-11-173;
(7) All judgments or orders granting or refusing
to grant mandamus or any other extraordinary
remedy, except with respect to temporary restraining
orders;
(8) All judgments or orders refusing
applications for dissolution of corporations created by
the superior courts;
(9) All judgments or orders sustaining motions
to dismiss a caveat to the probate of a will;
(10) All judgments or orders entered pursuant
to subsection (c) of Code Section 17-10-6.2;
(11) All judgments or orders in child custody
cases awarding, refusing to change, or modifying child
custody or holding or declining to hold persons in
contempt of such child custody judgment or orders;
(12) All judgments or orders entered pursuant
to Code Section 35-3-37; and
(13) All judgments or orders entered pursuant
to Code Section 9-11-11.1.
(b) Where the trial judge in rendering an order,
decision, or judgment, not otherwise subject to direct
appeal, including but not limited to the denial of a
defendant's motion to recuse in a criminal case,
certifies within ten days of entry thereof that the
order, decision, or judgment is of such importance to
the case that immediate review should be had, the
Supreme Court or the Court of Appeals may
thereupon, in their respective discretions, permit an
appeal to be taken from the order, decision, or
judgment if application is made thereto within ten

247a
days after such certificate is granted. The application
shall be in the nature of a petition and shall set forth
the need for such an appeal and the issue or issues
involved therein. The applicant may, at his or her
election, include copies of such parts of the record as
he or she deems appropriate, but no certification of
such copies by the clerk of the trial court shall be
necessary. The application shall be filed with the clerk
of the Supreme Court or the Court of Appeals and a
copy of the application, together with a list of those
parts of the record included with the application, shall
be served upon the opposing party or parties in the
case in the manner prescribed by Code Section 5-6-32,
except that such service shall be perfected at or before
the filing of the application. The opposing party or
parties shall have ten days from the date on which the
application is filed in which to file a response. The
response may be accompanied by copies of the record
in the same manner as is allowed with the application.
The Supreme Court or the Court of Appeals shall
issue an order granting or denying such an appeal
within 45 days of the date on which the application
was filed. Within ten days after an order is issued
granting the appeal, the applicant, to secure a review
of the issues, may file a notice of appeal as provided in
Code Section 5-6-37. The notice of appeal shall act as
a supersedeas as provided in Code Section 5-6-46 and
the procedure thereafter shall be the same as in an
appeal from a final judgment.
(c) *****
(d) Where an appeal is taken under any provision
of subsection (a), (b), or (c) of this Code section, all
judgments, rulings, or orders rendered in the case
which are raised on appeal and which may affect the
proceedings below shall be reviewed and determined
by the appellate court, without regard to the

248a
appealability of the judgment, ruling, or order
standing alone and without regard to whether the
judgment, ruling, or order appealed from was final or
was appealable by some other express provision of law
contained in this Code section, or elsewhere. For
purposes of review by the appellate court, one or more
judgments, rulings, or orders by the trial court held to
be erroneous on appeal shall not be deemed to have
rendered all subsequent proceedings nugatory; but
the appellate court shall in all cases review all
judgments, rulings, or orders raised on appeal which
may affect the proceedings below and which were
rendered subsequent to the first judgment, ruling, or
order held erroneous. Nothing in this subsection shall
require the appellate court to pass upon questions
which are rendered moot.
(e) ****
O.C.G.A. § 5-6-34 (effective May 7, 2019 to
present). 1
(a) Appeals may be taken to the Supreme Court
and the Court of Appeals from the following
judgments and rulings of the superior courts, the
Georgia State-wide Business Court, the constitutional
city courts, and such other courts or tribunals from
which appeals are authorized by the Constitution and
laws of this state:

Part VII, Section 7-1 of Georgia House Bill 239, which amended
5-6-34, was "effective upon approval of this Act by the Governor
or upon its becoming law without such approval." 2019 GA Act
HB 239 Georgia Business Court; establish. The governor signed
the bill on May 7, 2019. http://www.legis.ga.gov/Legislation/enUS/SignedByGov.aspx (Last viewed Jan. 11, 2020).
1

249a
(1) All final judgments, that is to say, where the
case is no longer pending in the court below, except as
provided in Code Section 5-6-35;
(2) All judgments involving applications for
discharge in bail trover and contempt cases;
(3) All judgments or orders directing that an
accounting be had;
(4) All judgments or orders granting or refusing
applications for receivers or for interlocutory or final
injunctions;
(5) All judgments or orders granting or refusing
applications for attachment against fraudulent
debtors;
(6) Any ruling on a motion which would be
dispositive if granted with respect to a defense that
the action is barred by Code Section 16-11-173;
(7) All judgments or orders granting or refusing
to grant mandamus or any other extraordinary
remedy, except with respect to temporary restraining
orders;
(8) All judgments or orders refusing
applications for dissolution of corporations created by
the superior courts;
(9) All judgments or orders sustaining motions
to dismiss a caveat to the probate of a will;
(10) All judgments or orders entered pursuant
to subsection (c) of Code Section 17-10-6.2;
(11) All judgments or orders in child custody
cases awarding, refusing to change, or modifying child
custody or holding or declining to hold persons in
contempt of such child custody judgment or orders;
(12) All judgments or orders entered pursuant
to Code Section 35-3-37; and
(13) All judgments or orders entered
pursuant to Code Section 9-11-11.1.

250a
(b) Where the trial judge in rendering an order,
decision, or judgment, not otherwise subject to direct
appeal, including but not limited to the denial of a
defendant's motion to recuse in a criminal case,
certifies within ten days of entry thereof that the
order, decision, or judgment is of such importance to
the case that immediate review should be had, the
Supreme Court or the Court of Appeals may
thereupon, in their respective discretions, permit an
appeal to be taken from the order, decision, or
judgment if application is made thereto within ten
days after such certificate is granted. The application
shall be in the nature of a petition and shall set forth
the need for such an appeal and the issue or issues
involved therein. The applicant may, at his or her
election, include copies of such parts of the record as
he or she deems appropriate, but no certification of
such copies by the clerk of the trial court shall be
necessary. The application shall be filed with the clerk
of the Supreme Court or the Court of Appeals and a
copy of the application, together with a list of those
parts of the record included with the application, shall
be served upon the opposing party or parties in the
case in the manner prescribed by Code Section 5-6-32,
except that such service shall be perfected at or before
the filing of the application. The opposing party or
parties shall have ten days from the date on which the
application is filed in which to file a response. The
response may be accompanied by copies of the record
in the same manner as is allowed with the application.
The Supreme Court or the Court of Appeals shall
issue an order granting or denying such an appeal
within 45 days of the date on which the application
was filed. Within ten days after an order is issued
granting the appeal, the applicant, to secure a review
of the issues, may file a notice of appeal as provided in

251a
Code Section 5-6-37. The notice of appeal shall act as
a supersedeas as provided in Code Section 5-6-46 and
the procedure thereafter shall be the same as in an
appeal from a final judgment.
(c) *****
(d) Where an appeal is taken under any provision
of subsection (a), (b), or (c) of this Code section, all
judgments, rulings, or orders rendered in the case
which are raised on appeal and which may affect the
proceedings below shall be reviewed and determined
by the appellate court, without regard to the
appealability of the judgment, ruling, or order
standing alone and without regard to whether the
judgment, ruling, or order appealed from was final or
was appealable by some other express provision of law
contained in this Code section, or elsewhere. For
purposes of review by the appellate court, one or more
judgments, rulings, or orders by the trial court held to
be erroneous on appeal shall not be deemed to have
rendered all subsequent proceedings nugatory; but
the appellate court shall in all cases review all
judgments, rulings, or orders raised on appeal which
may affect the proceedings below and which were
rendered subsequent to the first judgment, ruling, or
order held erroneous. Nothing in this subsection shall
require the appellate court to pass upon questions
which are rendered moot.
(e) *****
O.C.G.A. 5-6-35 (effective 2011 to present)
(a) Appeals in the following cases shall be taken
as provided in this Code section:
(1) Appeals from decisions of the superior
courts reviewing decisions of the State Board of
Workers' Compensation, the State Board of
Education, auditors, state and local administrative

252a
agencies, and lower courts by certiorari or de novo
proceedings; provided, however, that this provision
shall not apply to decisions of the Public Service
Commission and probate courts and to cases involving
ad valorem taxes and condemnations;
(2) Appeals from judgments or orders in
divorce, alimony, and other domestic relations cases
including, but not limited to, granting or refusing a
divorce or temporary or permanent alimony or holding
or declining to hold persons in contempt of such
alimony judgment or orders;
(3) Appeals from cases involving distress or
dispossessory warrants in which the only issue to be
resolved is the amount of rent due and such amount
is $2,500.00 or less;
(4) Appeals from cases involving garnishment
or attachment, except as provided in paragraph (5) of
subsection (a) of Code Section 5-6-34;
(5) Appeals from orders revoking probation;
(5.1) Appeals from decisions of superior courts
reviewing decisions of the Sexual Offender
Registration Review Board;
(5.2) Appeals from decisions of superior courts
granting or denying petitions for release pursuant to
Code Section 42-1-19;
(6) Appeals in all actions for damages in which
the judgment is $10,000.00 or less;
(7) Appeals, when separate from an original
appeal, from the denial of an extraordinary motion for
new trial;
(8) Appeals from orders under subsection (d) of
Code Section 9-11-60 denying a motion to set aside a
judgment or under subsection (e) of Code Section 9-1160 denying relief upon a complaint in equity to set
aside a judgment;

253a
(9) Appeals from orders granting or denying
temporary restraining orders;
(10) Appeals from awards of attorney's fees or
expenses of litigation under Code Section 9-15-14;
(11) Appeals from decisions of the state courts
reviewing decisions of the magistrate courts by de
novo proceedings so long as the subject matter is not
otherwise subject to a right of direct appeal; and
(12) Appeals from orders terminating parental
rights.
(b) All appeals taken in cases specified in
subsection (a) of this Code section shall be by
application in the nature of a petition enumerating
the errors to be urged on appeal and stating why the
appellate court has jurisdiction. The application shall
specify the order or judgment being appealed and, if
the order or judgment is interlocutory, the application
shall set forth, in addition to the enumeration of
errors to be urged, the need for interlocutory appellate
review.
(c) The applicant shall include as exhibits to the
petition a copy of the order or judgment being
appealed and should include a copy of the petition or
motion which led directly to the order or judgment
being appealed and a copy of any responses to the
petition or motion. An applicant may include copies of
such other parts of the record or transcript as he
deems appropriate. No certification of such copies by
the clerk of the trial court shall be necessary in
conjunction with the application.
(d) The application shall be filed with the clerk of
the Supreme Court or the Court of Appeals within 30
days of the entry of the order, decision, or judgment
complained of and a copy of the application, together
with a list of those parts of the record included with
the application, shall be served upon the opposing

254a
party or parties as provided by law, except that the
service shall be perfected at or before the filing of the
application. When a motion for new trial, a motion in
arrest of judgment, or a motion for judgment
notwithstanding the verdict has been filed, the
application shall be filed within 30 days after the
entry of the order granting, overruling, or otherwise
finally disposing of the motion.
(e) The opposing party or parties shall have ten
days from the date on which the application is filed in
which to file a response. The response may be
accompanied by copies of the record in the same
manner as is allowed with the application. The
response may point out that the decision of the trial
court was not error, or that the enumeration of error
cannot be considered on appeal for lack of a transcript
of evidence or for other reasons.
(f) The Supreme Court or the Court of Appeals
shall issue an order granting or denying such an
appeal within 30 days of the date on which the
application was filed.
(g) Within ten days after an order is issued
granting the appeal, the applicant, to secure a review
of the issues, shall file a notice of appeal as provided
by law. The procedure thereafter shall be the same as
in other appeals.
(h) The filing of an application for appeal shall
act as a supersedeas to the extent that a notice of
appeal acts as supersedeas.
(i) This Code section shall not affect Code Section
9-14-52, relating to practice as to appeals in certain
habeas corpus cases.
(j) When an appeal in a case enumerated in
subsection (a) of Code Section 5-6-34, but not in
subsection (a) of this Code section, is initiated by filing
an otherwise timely application for permission to

255a
appeal pursuant to subsection (b) of this Code section
without also filing a timely notice of appeal, the
appellate court shall have jurisdiction to decide the
case and shall grant the application. Thereafter the
appeal shall proceed as provided in subsection (g) of
this Code section.
(k) *****
O.C.G.A. § 9-15-14
(a) In any civil action in any court of record of this
state, reasonable and necessary attorney's fees and
expenses of litigation shall be awarded to any party
against whom another party has asserted a claim,
defense, or other position with respect to which there
existed such a complete absence of any justiciable
issue of law or fact that it could not be reasonably
believed that a court would accept the asserted claim,
defense, or other position. Attorney's fees and
expenses so awarded shall be assessed against the
party asserting such claim, defense, or other position,
or against that party's attorney, or against both in
such manner as is just.
(b) The court may assess reasonable and
necessary attorney's fees and expenses of litigation in
any civil action in any court of record if, upon the
motion of any party or the court itself, it finds that an
attorney or party brought or defended an action, or
any part thereof, that lacked substantial justification
or that the action, or any part thereof, was interposed
for delay or harassment, or if it finds that an attorney
or party unnecessarily expanded the proceeding by
other improper conduct, including, but not limited to,
abuses of discovery procedures available under
Chapter 11 of this title, the "Georgia Civil Practice
Act." As used in this Code section, "lacked substantial

256a
justification"
means
substantially
frivolous,
substantially groundless, or substantially vexatious.
(c) No attorney or party shall be assessed
attorney's fees as to any claim or defense which the
court determines was asserted by said attorney or
party in a good faith attempt to establish a new theory
of law in Georgia if such new theory of law is based on
some recognized precedential or persuasive authority.
(d) Attorney's fees and expenses of litigation
awarded under this Code section shall not exceed
amounts which are reasonable and necessary for
defending or asserting the rights of a party. Attorney's
fees and expenses of litigation incurred in obtaining
an order of court pursuant to this Code section may
also be assessed by the court and included in its order.
(e) Attorney's fees and expenses under this Code
section may be requested by motion at any time
during the course of the action but not later than 45
days after the final disposition of the action.
(f) An award of reasonable and necessary
attorney's fees or expenses of litigation under this
Code section shall be determined by the court without
a jury and shall be made by an order of court which
shall constitute and be enforceable as a money
judgment.
(g) Attorney's fees and expenses of litigation
awarded under this Code section in a prior action
between the same parties shall be treated as court
costs with regard to the filing of any subsequent
action.
(h) This Code section shall not apply to
proceedings in magistrate courts. However, when a
case is appealed from the magistrate court, the
appellee may seek litigation expenses incurred below
if the appeal lacks substantial justification.

257a

O.C.G.A. § 51-7-83
(a) A plaintiff who prevails in an action under
this article shall be entitled to all damages allowed by
law as proven by the evidence, including costs and
expenses of litigation and reasonable attorney's fees.
(b) If the abusive litigation is in a civil proceeding
of a court of record and no damages other than costs
and expenses of litigation and reasonable attorney's
fees are claimed, the procedures provided in Code
Section 9-15-14 shall be utilized instead.
(c) No motion filed under Code Section 9-15-14
shall preclude the filing of an action under this article
for damages other than costs and expenses of
litigation and reasonable attorney's fees. Any ruling
under Code Section 9-15-14 is conclusive as to the
issues resolved therein.
O.C.G.A. § 51-7-85
On and after April 3, 1989, no claim other than as
provided in this article or in Code Section 9-15-14
shall be allowed, whether statutory or common law,
for the torts of malicious use of civil proceedings,
malicious abuse of civil process, nor abusive litigation,
provided that claims filed prior to such date shall not
be affected. This article is the exclusive remedy for
abusive litigation.
SUPREME COURT OF GEORGIA RULES (GA.)
Ga. Rule 6. FRIVOLOUS APPEAL.
The Court may, with or without a motion, impose
a penalty not to exceed $2,500 against any party
and/or party’s counsel in any civil case in which there
is a direct appeal, application for discretionary appeal,
application for interlocutory appeal, petition for
certiorari, or motion which the Court determines to be

258a
frivolous. The party or party’s counsel may respond to
such a motion within 10 days or, if no motion was
filed, file a motion for reconsideration within 10 days
of receipt of the order. The imposition of such penalty
shall constitute a money judgment in favor of appellee
against appellant or appellants counsel or in favor of
appellant against appellee or appellee’s counsel, as
the Court directs. Upon filing of the remittitur in the
trial court, the penalty may be collected as are other
money judgments.
GEORGIA SUPREME COURT RULES, IV.
DISCRETIONARY APPEALS
Ga. Rule 33. REQUIREMENTS.
Applications for discretionary appeal shall
contain a jurisdictional statement and have attached
a stamped copy of the trial court’s order to be
appealed, showing the date of filing. A transcript is
not necessary, but affidavits, exhibits and relevant
portions of the transcript should be attached to the
application to demonstrate to the Court what the
record will show if the application is granted. See Rule
17.
Responses, due within 10 days of docketing, are
encouraged and should be filed as briefs. See Rule 18.
Ga. Rule 34. STANDARD FOR GRANTING.
An application for leave to appeal a final judgment
in cases subject to appeal under OCGA § 5-6-35 shall
be granted when:
(1) Reversible error appears to exist;
(2) The establishment of a precedent is
desirable;
or
(3) Further development of the common
law is desirable.

259a
GEORGIA COURT OF APPEALS RULES (“Ga.
App. Rule”) (Effective 2019).
Ga. App. Rule 7.
*****
(e) Contempt. No Prosecution, Frivolous Appeals,
and Penalties.
*****
(2) Penalty.
The panel of the Court ruling on a case, with
or without motion, may by majority vote to
impose a penalty not to exceed $2,500 against
any party and/or a party’s counsel in any civil
case in which there is a direct appeal,
application
for
discretionary
appeal,
application for interlocutory appeal, or motion
which is determined to be frivolous.
*****
Ga. App. Rule 31. Discretionary Applications.
(a) Filing Deadline.
An application for discretionary appeal must
generally be filed in this Court within 30 days of the
date of the entry of the trial court’s order being
appealed, although pursuant to O.C.G.A. § 44-7-56, a
discretionary application involving a dispossessory
action must be filed within seven days of the entry of
the trial court’s order. The trial court’s order is
entered on the date it is filed with the trial court clerk.
(b) Burden of Proof.
The applicant bears the burden of persuading the
Court that the application should be granted. An
application for leave to appeal a final judgment in

260a
cases subject to discretionary appeal under O.C.G.A.
§ 5-6-35 will be granted only when:
(1) Reversible error appears to exist;
(2) The establishment of a precedent is
desirable;
(3) Further development of the common
law, particularly in divorce cases, is desirable;
or
(4) The application is for leave to appeal a
judgment and decree of divorce that is final
under O.C.G.A. § 5-6-34 (a) (1), timely under
O.C.G.A. § 5-6-35 (d), and is determined to have
possible merit.
An application filed by an attorney seeking to rely
on the standard set forth in Rule 31 (b) (3) or (b) (4)
must be accompanied by a certificate of good faith
stating as follows:
“I, the undersigned attorney of record in
this case, am a member of the State Bar of
Georgia in good standing and make this
certificate of good faith as required by Rule
31 of the Court of Appeals of Georgia. I
hereby certify that I am familiar with the
trial court record in this case and based on
the record and my understanding of the
applicable law, I have a good faith belief
that this application has merit and that it
is not filed for the purpose of delay,
harassment, or embarrassment. I further
certify that I have been authorized by my
client, the applicant, to file this application.
This the _______ day of _________________,
20__.”
If the application is nevertheless found to be
frivolous, a sanction of up to $2,500 may be imposed

261a
upon the attorney filing it. See Rule 7 (e) (2),
Contempt Penalty.
(c) Required Items.
Discretionary applications must contain a
stamped “filed” copy of the trial court’s order or
judgment from which the appeal is sought. The
stamped “filed” copy of the trial court’s order or
judgment must contain the signature of the trial court
judge. Neither conformed signatures nor stamped
signatures are permitted except for those courts in
which the official practice is for the judge to
electronically sign or stamp his or her signature. The
Court will return any application not containing a
stamped “filed” copy of the trial court order or
judgment on which the application is based.
(d) Filing Fee.
The Clerk shall not receive an application unless
filing fees have been paid or an exception set out in
Rule 5 has been met. See O.C.G.A. § 5-6-4. The filing
fee shall be in the amount set out in Rule 5. The filing
date is the date the application is received in
conformity with all court rules and all applicable fees
are paid.
(e) Required Attachments.
The applicant shall include with the application a
copy of any petition or motion that led directly to the
order or judgment being appealed and a copy of any
responses to the petition or motion.
(f) Sufficient Material.
Applications for discretionary appeal pursuant to
O.C.G.A. § 5-6-35 must include sufficient material to
apprise the Court of the appellate issues, in context,
and to support the arguments advanced. Failure to
submit sufficient material to apprise the Court of the
issues and support the argument shall result in denial
of the application.

262a

(g) Format.
(1) Efiled applications.
Applicants who are represented by counsel must
efile applications pursuant to Court of Appeals
Rule 46, Electronic Filing of Documents, and in
compliance with this Court’s efiling instructions.
(i) Application briefs shall follow the
requirements of Rule 24, Preparation of
Briefs, including the length limitations for
computer-generated documents in Rule 24
(f), and shall also follow the general format
of Rule 2 (c), Documents.
(ii) Only documents directly relevant to
the arguments raised should be uploaded as
application exhibits.
(iii) Documents and attachments or
exhibits to documents filed below must be
uploaded as separate, independent exhibits.
(iv) Each uploaded exhibit must be titled
to inform the Court of the nature of the exhibit
and to correspond with the application index and
citations in the application brief.
(v) The application index, which must be
uploaded immediately following – and
separately from – the application brief, must
identify the exhibits in the order they are
uploaded.
(vi) Efiled exhibits may not exceed a total of
100 pages collectively, exclusive of the application
brief, application index, trial court order, and motion,
with supporting documents leading to the trial court
order, and any responses and supporting documents,
and any transcripts. If the page limit is exceeded, the
attorney submitting the application shall include, as
a separate document, a signed certificate of good faith
stating:

263a
“I, the undersigned attorney of record in the
above-styled case, certify that all of the
documents that have been uploaded as
exhibits are directly relevant to the
arguments raised in the application, are
necessary to apprise the Court of the
appellate issues, and support the
arguments advanced in the application.”
If the application materials are nevertheless
found to include unnecessary or duplicative
exhibits, a sanction of up to $2,500 may be
imposed on the attorney filing the application.
See Rule 7 (e) (2), Contempt Penalty.
(vii) Failure to comply with this rule and
with the Court’s efiling instructions may subject
the application to dismissal or return for
preparation according to the Court’s rules.
(2) Paper-filed applications.
(i) Applications and responses to
applications are limited to 30 pages in civil cases
and 50 pages in criminal cases, exclusive of
attached exhibits and parts of the record, and
shall follow the general format of Rule 2 (c),
Documents, and Rule 24, Preparation of Briefs.
(ii) Paper-filed applications shall include
copies of all supporting materials from the
record, indexed and tabbed with a blank sheet
between each indexed item.
(iii) Paper-filed applications shall be
securely bound at the top with staples or
fasteners (round head or ACCO). If not prepared
properly, the application is subject to dismissal
or return for preparation according to the Court’s
rules. Tables of content, tables of citations, cover
sheets, and certificates of service are not counted
toward the page limit.

264a
(h) Filing Under Seal.
No application for discretionary appeal shall be
filed under seal unless counsel has moved the Court
for permission to file under seal and the Court has
granted the motion.
(i) No Extension of Time.
No extensions of time will be granted to file a
discretionary application unless a motion for
extension is filed on or before the application due date.
The motion for an extension of time shall be submitted
pursuant to Rule 40(b), Emergency Motions. The
filing fee for the Rule 40(b) motion is separate from
the discretionary application fee. No extension of time
will be granted to file a response to a discretionary
application.
(j) Response Time.
Responses are due within 10 days of docketing. No
response is required, unless ordered by the Court.
(k) Deadline to File Notice of Appeal.
If the discretionary application is granted, the
appellant must file a notice of appeal in the trial court
within 10 days of the date of the order granting the
application.
(l) Late Filings.
No pleadings will be accepted on an application for
discretionary appeal which are filed more than 30
days after the date of the order granting, denying, or
dismissing the application or denying or dismissing
the motion for reconsideration.
Ga. App. Rule 33.2. Judgment as Precedent.
(a) (1) If an appeal is decided by a division of this
Court, a published opinion in which all three panel
judges fully concur is binding precedent. An opinion is
physical precedent only (citable as persuasive, but not
binding, authority), however, with respect to any

265a
portion of the published opinion in which any of the
panel judges concur in the judgment only, concur
specially without a statement of agreement with all
that is said in the majority opinion, or dissent.
(2) ****
The opinion of a case that is physical
precedent shall be marked as such when it is
cited.
GEORGIA’S JUDICIAL CODE OF CONDUCT
(effective Nov. 1, 2018)
CANON 2
Judges Shall Perform The Duties Of Judicial
Office Impartially, Competently, And
Diligently.
*****
Rule 2.11 Disqualification and Recusal
(A) Judges shall disqualify themselves in any
proceeding in which their impartiality might
reasonably be questioned, *****
*****
(C) Judges disqualified by the terms of Rule 2.11
may disclose on the record, or in open court,
the basis of their disqualification and may ask
the parties and their lawyers to consider, out
of the presence of the judge, whether to waive
disqualification. If following disclosure of any
basis for disqualification, other than personal
bias or prejudice concerning a party, the
parties and lawyers, without participation by
the judge, all agree that the judge should not
be disqualified, and the judge is then willing
to participate, the judge may participate in
the proceeding. The agreement shall be

266a
incorporated in the record or the file of the
proceeding.
Commentary:
[1] Under this Rule, judges are subject
to
disqualification
whenever
their
impartiality might reasonably be questioned,
regardless of whether any of the specific items
in Rule 2.11 (A) apply. *****
[2] Judges should disclose on the
record, or in open court, information that the
court believes the parties or their lawyers
might consider relevant to the question of
disqualification, even if they believe there is
no legal basis for disqualification.

